<html>
<title> - SENIOR INDEPENDENCE ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





                    SENIOR INDEPENDENCE ACT OF 2006

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              May 2, 2006

                               __________

                           Serial No. 109-38

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
27-982 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel

                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                           Ranking Minority Member
Mark E. Souder, Indiana              Danny K. Davis, Illinois
Jon C. Porter, Nevada                Chris Van Hollen, Maryland
Bob Inglis, South Carolina           Tim Ryan, Ohio
Luis P. Fortuno, Puerto Rico         George Miller, California, ex 
Howard P. ``Buck'' McKeon,               officio
    California,
  ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 2, 2006......................................     1

Statement of Members:
    Hinojosa, Hon. Ruben, Ranking Minority Member, Subcommittee 
      on Select Education, Committee on Education and the 
      Workforce..................................................     4
        Prepared statement of....................................     5
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     1
    Tiberi, Hon. Patrick J., Chairman, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Bauer, Andre, Lieutenant Governor, State of South Carolina...    37
        Prepared statement of....................................    39
        Response to Chairman Tiberi's questions concerning SCSEP 
          and WIA................................................    61
    Bishop, Mason M., Deputy Assistant Secretary of Labor for 
      Employment and Training, U.S. Department of Labor..........    15
        Prepared statement of....................................    17
        Responses supplied to Messrs. Hinojosa and Van Hollen....    27
    Browdie, Richard, president and CEO, the Benjamin Rose 
      Institute..................................................    49
        Prepared statement of....................................    51
        Response to Mr. Hinojosa's questions concerning the 
          Senior Independence Act of 2006........................    58
    Carbonell, Josefina, Assistant Secretary for Aging, U.S. 
      Department of Health and Human Services....................     6
        Prepared statement of....................................     9
    Cheung, Ling, president, Chinese American Senior Services 
      Association, Montgomery County, MD.........................    47
        Prepared statement of....................................    48
    Faris, Vinsen, executive director, Meals-on-Wheels of Johnson 
      and Ellis Counties, TX.....................................    44
        Prepared statement of....................................    45

Additional Testimony Submitted:
    Minnix, William L., Jr., president and chief executive 
      officer, American Association of Homes and Services for the 
      Aging, prepared statement of...............................    64
    Woody, Gayla S., aging program administrator, Centralina 
      Council of Governments, statement before the U.S. Senate 
      Special Committee on Aging.................................    66

 
                    SENIOR INDEPENDENCE ACT OF 2006

                              ----------                              


                          Tuesday, May 2, 2006

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:35 p.m., in 
room 2175, Rayburn House Office Building, Hon. Patrick Tiberi 
[chairman of the subcommittee] presiding.
    Present: Representatives Tiberi, Porter, Inglis, McKeon (ex 
officio), Hinojosa, and Van Hollen.
    Staff Present: James Bergeron, Counselor to the Chairman; 
Jessica Gross, Press Assistant; Richard Hoar, Professional 
Staff Member; Lucy House, Legislative Assistant; Kimberly 
Ketchel, Deputy Press Secretary; Stephanie Milburn, 
Professional Staff Member; Susan Ross, Director of Education 
and Human Resources Policy; Deborah L. Emerson Samantar, 
Committee Clerk/Intern Coordinator; and Rich Stombres, Deputy 
Director of Education and Human Resources Policy; Toyin Alli, 
Minority Staff Assistant; Ricardo Martinez, Minority 
Legislative Associate; Cheryl Johnson, Minority Counsel; 
Michele Varnhagen, Minority Labor Counsel/Coordinator; and 
Denise Forte, Minority Legislative Associate.
    Chairman Tiberi. A quorum being present, the Subcommittee 
on Select Education of the Committee on Education and the 
Workforce will come to order.
    We are meeting today to hear testimony on the Senior 
Independence Act of 2006, and I ask for unanimous consent for 
the hearing record to remain open 14 days to allow member 
statements and other extraneous material referenced during the 
hearing today to be submitted in the official hearing record. 
Without objection, so ordered.
    [The information referred to follows:]

Prepared Statement of Hon. Jon C. Porter, a Representative in Congress 
                        From the State of Nevada

    Mr. Chairman, I thank you for holding this hearing today on the 
Senior Independence Act of 2006.
    I look forward to the following testimony as it should help us 
identify strategies for improving systems serving the rapidly growing 
aging population.
    This is an area of particular concern for me as I represent the 3rd 
district of Nevada which has seen a population growth which is 400 
times that of the national average. Since 2000 my district has seen a 
16.8% population increase, many of those persons being over the age of 
65. During this same time period the rest of the United States 
witnessed 4.3% growth.
    American's are living longer, healthier lives by 2030, it is 
projected that one out of every five Americans will be over the age of 
65 representing the fastest growing segment of our older population. 
Today individuals age 85 and older represent 4 million people and are 
expected to grow to 19 million by 2050. In Nevada alone, there will be 
more than 34,000 seniors over the age of 85 by the year 2030.
    In addition, I am interested in identifying ways in which the Older 
Americans Act is improving the lives of seniors, and ways in which 
seniors' quality of life may be further enhanced.
    I thank the witnesses for their testimony today, and I look forward 
to hearing their expert opinions of the successes and shortcomings of 
this valuable program. I yield back.
                                 ______
                                 
    Chairman Tiberi. Good afternoon and welcome to today's 
hearing. Thank you all for being here today and to our 
witnesses, especially for agreeing to testify. Today's hearing 
is intended to seek comment on the Senior Independence Act of 
2006, draft legislation to reauthorize the Older Americans Act. 
The month of May, as most of you in the audience I am sure 
know, is Older Americans Month. So it is most timely for the 
committee to consider legislation to reauthorize this very 
important piece of legislation.
    I have prepared a formal opening statement that I will ask 
to be submitted into the record. I and other members of the 
committee on both sides of the aisle take seriously the 
recommendations derived from the White House Conference on 
Aging this past December, especially the delegates' No. 1 
resolution to reauthorize the Older Americans Act.
    I am pleased that we have made available to the public a 
draft bill for discussion today. I want to emphasize that the 
legislation that is the topic of today's hearing is a 
discussion draft.
    This open approach demonstrates our desire to work 
cooperatively with interested parties as the bill moves forward 
during the legislative process. This approach also allows us to 
obtain feedback and consider additional suggestions that we may 
introduce, an agreeable bipartisan bill later this week, and 
set the pace for, I will say, a speedy approval process through 
this subcommittee and full committee. We really do want to get 
this act reauthorized this year.
    It is a great pleasure to have Mr. Hinojosa, my colleague 
from Texas, as a partner in this process. We have worked 
together well in the past, and I know we will well in the 
future as well.
    The Senior Independence Act of 2006 builds on the successes 
of the programs authorized under the Older Americans Act by 
strengthening services that can improve the quality of life for 
aging Americans. Our aging population, involving status and 
changing needs, require that Congress carefully and 
thoughtfully proceed with the reauthorization of the Older 
Americans Act. The Education and Workforce Committee will 
strive to make the necessary reforms to make the most of the 
Federal investment in programs to assist older Americans, while 
ensuring that the growing senior population is served by the 
same quality of programs established in the 1965 law. I look 
forward to working with all of you throughout this process.
    Today we are honored to have with us a talented panel of 
experts to help us examine the issues for this hearing. I look 
forward to hearing your recommendations on the draft bill and 
actions for this subcommittee's consideration.
    Before I introduce our first panel of witnesses, I will 
recognize my colleague from Texas, Mr. Hinojosa, for his 
opening statement.
    [The prepared statement of Mr. Tiberi follows:]

 Prepared Statement of Hon. Patrick Tiberi, Chairman, Subcommittee on 
       Select Education, Committee on Education and the Workforce

    Good afternoon and welcome. Thank you all for being here today, and 
to our witnesses for agreeing to testify. Today's hearing is intended 
to seek comment on the Senior Independence Act of 2006, draft 
legislation to reauthorize the Older Americans Act. The month of May is 
Older Americans Month, so it the most timely for the Committee to 
consider legislation to reauthorize this very important law.
    I, and the other members of the Committee on both sides of the 
aisle, take seriously the recommendations derived from the White House 
Conference on Aging this past December, especially the delegates' 
number one resolution to reauthorize the Older American Act.
    I am very pleased that we have made available to the public a draft 
bill for discussion today. I want to emphasize that the legislation 
that is the topic of today's hearing is a discussion draft. This open 
approach demonstrates our desire to work cooperatively with interested 
parties as the bill moves forward in the legislative process. This 
approach also allows us to obtain feedback and consider additional 
suggestions so that we may introduce an agreeable, bipartisan bill 
later this week and set the pace for speedy action.
    Over the past several months, this Subcommittee has been examining 
the current program, learning about the evolving issues facing older 
Americans, listening to seniors in their own words, and laying out a 
plan for strengthening services to seniors that are authorized by this 
Act and relied upon by millions of aging Americans each year. It is a 
great pleasure to have Mr. Hinojosa as a partner in this process. I am 
also pleased that each of you, and many advocates for older Americans 
nationwide, is contributing to our effort.
    The Senior Independence Act builds on the successes of the programs 
authorized under the Older Americans Act by strengthening services that 
can improve the quality of life for aging Americans. With this 
reauthorization, we aim to promote the development and implementation 
of comprehensive, coordinated systems at the Federal, State, and local 
levels to streamline access to program benefits and help individuals 
avoid institutional care; we advance the mission of evidence-based 
programs to assist older individuals and their family caregivers in 
learning about and making behavioral changes intended to reduce the 
risk of injury, disease, and disability among seniors; and we support 
and strengthen endeavors by the aging services network to expand 
services to care for the aging baby boom populations by allowing for 
private pay opportunities while maintaining important safeguards to 
ensure that local providers adhere to the public purpose mission and 
targeting provisions of the Act. Among other things, this draft bill 
encourages providers to deliver services in a manner responsive to the 
needs and preferences of older individuals and their family caregivers, 
including improved program access to individuals with limited English 
proficiency; it recognizes the critical link between nutrition and the 
prevention of chronic disease, and supports efforts to reduce the 
incidence of obesity, which is a growing problem among all segments of 
the population, including the elderly.
    The Senior Independence Act also strengthens the Community Service 
Employment-Based Training Program for older Americans. The draft 
legislation maintains the current program structure, while promoting 
coordination with programs and services authorized under the Workforce 
Investment Act of 1998, and encouraging private sector partnerships; it 
allows for greater flexibility with funds for additional supportive 
services such as on-the-job training, and ensures accountability of pay 
for work and benefits required by law; it focuses the priority of 
service to persons 65 and older while allowing persons age 55-64 with 
special barriers to employment to continue to be served; it also 
requires a 10 percent increase in unsubsidized employment placement 
with technical assistance made available to meet the goal, and a two 
year participation limit for most participants so that more individuals 
can be served by the program.
    Our aging population's evolving status and changing needs require 
that Congress carefully and thoughtfully proceed with the 
reauthorization of the Older Americans Act. The Education & the 
Workforce Committee will strive to make the necessary reforms to make 
the most of the federal investment in programs to assist older 
Americans, while ensuring that the growing senior population is served 
by the same quality programs established by the 1965 law. I look 
forward to working with all of you throughout the process.
    Today we are honored to have with us a talented panel of experts to 
help us examine the issues for this hearing. I look forward to hearing 
your recommendations on the draft bill and actions for this 
Subcommittee's consideration. Before I introduce our witnesses, I yield 
to the Ranking Member of the Subcommittee, Mr. Hinojosa, for his 
opening statement.
                                 ______
                                 
    Mr. Hinojosa. Thank you, Chairman Tiberi.
    I would like to join the Chairman in welcoming the 
witnesses today. I was pleased to hear him say that something 
very unusual is what we are trying to do, and that is to have a 
speedy passage of this act. But knowing the Chairman and how 
persuasive he can be with members of the other side of the 
aisle, I will do the same on my side and try to make this 
happen as he wishes.
    The Older Americans Act is the cornerstone of our national 
network of support for older Americans. It represents our 
country at its very best.
    We believe that all individuals, no matter how old, should 
be able to live their full lives with dignity. The Older 
Americans Act has built the aging network that makes that 
possible. The voices of the aging network have come through 
loud and clear: Reauthorize the Older Americans Act. We are 
working together to do that. I would like to thank the Chairman 
for the openness of this process.
    I share the goals of producing a consensus bill that will 
enable this legislation to serve a new and larger generation of 
older Americans. It is up to us to build the capacity of our 
aging network to meet the demands of the future. We have just 
learned that the outlook for the solvency of Social Security 
and Medicare has been downgraded again.
    Medicare is projected to be insolvent by year 2018. The 
projection for Social Security is 2040. The aging network 
supported by the Older Americans Act faces similar challenges. 
In our field hearing in the Chairman's district in Ohio, we 
learned that the buying power of the Older Americans Act has 
dropped by 50 percent since 1980. In constant dollars, in 1980 
we were investing $15.82 per older American. Today that figure 
has dropped to $7.90. We cannot allow the aging network that 
has been so successful in improving the quality of life for our 
seniors to become frayed beyond repair because of lack of 
financial resources.
    I am looking forward to hearing the witnesses' response to 
the draft legislation that was released. I think that it was a 
good start. However, it is essential that we get feedback about 
how the proposed changes will work in concert. One area of 
particular concern to me is the senior community employment 
program. The aging network has been steadfast in its support 
for the dual community service and employment nature of the 
program. We need to maintain that.
    However, many of the changes advocated by the Department of 
Labor would move us away from the dual purpose and 40-year 
history of that program. Legislative changes, coupled with 
regulatory changes to eligibility, could put that program out 
of reach of many seniors who need it, and have the combined 
effect of making it very difficult for grantees to meet 
performance targets.
    We must be sure that any changes that we make to the Senior 
Community Service Employment program do not undermine a 
successful program that has served this community and our 
seniors so well for over 40 years.
    Mr. Chairman, I want to say thank you to everyone who is 
here today. This is important work, and I am looking forward to 
working with Chairman Tiberi to move this process forward 
speedily, as he said, and continue the great legacy of 
bipartisan support for the Older Americans Act.
    Thank you, and I yield back.
    Chairman Tiberi. Thank you, Mr. Hinojosa.
    [The prepared statement of Mr. Hinojosa follows:]

  Prepared Statement of Hon. Ruben Hinojosa, Ranking Minority Member, 
   Subcommittee on Select Education, Committee on Education and the 
                               Workforce

    Thank you, Chairman Tiberi. I would like to join the chairman in 
welcoming the witnesses today.
    The Older Americans Act is the cornerstone of our national network 
of support for older Americans. It represents our country at its best. 
We believe that all individuals--no matter how old--should be able to 
live their full lives with dignity. The Older Americans Act has built 
the aging network that makes that possible.
    The voices of the aging network have come through loud and clear. 
Reauthorize the Older Americans Act. We are working together to do 
that.
    I would like to thank the Chairman for the openness of this 
process. I share his goal of producing a consensus bill that will 
enable this legislation to serve a new and larger generation of Older 
Americans.
    It is up to us to build the capacity of our aging network to meet 
the demands of the future. We have just learned that the outlook for 
the solvency of Social Security and Medicare has been downgraded again. 
Medicare is projected to be insolvent by 2018. The projection for 
Social Security is 2040. The aging network supported by the Older 
Americans Act faces similar challenges. At our field hearing in the 
Chairman's district, we learned that the buying power of the Older 
Americans Act has dropped by 50 percent since 1980. In constant 
dollars, in 1980, we were investing $15.82 per older American. Today, 
that figure is $7.90. We cannot allow the aging network that has been 
so successful in improving the quality of life for our seniors to 
become frayed beyond repair because of lack of resources.
    I am looking forward to hearing the witnesses' response to the 
draft legislation that was released. I think that it was a good start. 
However, it is essential that we get feedback about how the proposed 
changes will work in concert.
    One area of particular concern is the Senior Community Employment 
Program. The aging network has been steadfast in its support for the 
dual--community service and employment--nature of the program. We need 
to maintain that.
    However, many of the changes advocated by the Department of Labor 
would move us away from the dual purpose and 40-year history of the 
program. Legislative changes coupled with regulatory changes to 
eligibility could put the program out of reach of many seniors who need 
it and have the combined effect of making it very difficult for 
grantees to meet performance targets. We must be sure that any changes 
that we make to the Senior Community Employment Program do not 
undermine a successful program that has served the community and our 
seniors so well for over 40 years.
    Thank you for joining us today. This is important work. I am 
looking forward to working with the chairman to move the process 
forward and continue the great legacy of bipartisan support for the 
Older Americans Act.
    Thank you and I yield back.
                                 ______
                                 
    Chairman Tiberi. We are very pleased to have two expert 
witnesses before us on our first panel. I will introduce them 
now.
    The Honorable Josefina Carbonell was appointed by the 
President and sworn in as Assistant Secretary for Aging at the 
U.S. Department of Health and Human Services in August of 2001. 
In this position, the Assistant Secretary presides over the 
Administration on Aging which is the Federal focal point, an 
advocacy agency, for older Americans and their concerns. 
Through the aging network, AOA reaches into every community 
providing services and support such as information and referral 
for adult services, adult day care, elder abuse prevention, 
home-delivered meals, in-home care and transportation services 
for caregivers.
    Prior to joining HHS, Ms. Carbonell was president and CEO 
of the largest geriatric health and human services organization 
in the country, Little Havana Activities and Nutrition Centers 
in Dade County, Florida. Welcome.
    Our second witness, the Honorable Mason Bishop, is Deputy 
Assistant Secretary of the Employment and Training 
Administration of the Department of Labor. In his position, Mr. 
Bishop is responsible for overseeing key workforce investment, 
developing and implementing workforce policies and priorities, 
and assisting with congressional relations and legislative 
issues.
    The Employment and Training Administration implements 
Senior Community Services, an employment program authored by 
the Older Americans Act. Prior to coming to the Department of 
Labor, Mr. Bishop was the legislative and marketing director 
for the National Association of State Workforce Agencies where 
he assisted the States with outreach efforts to employers and 
to the public.
    He also served as the Public Affairs Director for the newly 
created Utah Department of Workforce Services, a combined 
agency that integrated the services delivery of all public 
assistance programs, employment services, and job training 
programs into one department.
    Thank you, Mr. Bishop, for coming.
    I will remind our witnesses that your written testimony 
will be submitted for the record, for the entire committee and 
for the public. If you could give a 5-minute overview, followed 
by questions and answers from the subcommittee.
    The lights will turn on. Green means go, red means stop, or 
at least wrap up as quickly as you can.
    We are also privileged to have today with us the Chairman 
of the full committee, a good friend of mine, who hails from 
California. We won't hold that against him today, but I just 
want to recognize Chairman McKeon at the end. Thank you, 
Chairman, for coming today.
    With this, Assistant Director, we are going to start with--
actually, why don't we start with the Assistant Secretary and 
then we will move on to the Assistant Director.
    Ms. Carbonell.

STATEMENT OF JOSEFINA CARBONELL, ASSISTANT SECRETARY FOR AGING, 
          U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Carbonell. Thank you, Mr. Chairman. Chairman Tiberi, 
Congressman Hinojosa, distinguished members of the committee, 
thank you for inviting me here today to discuss the 
reauthorization of the Older Americans Act. I appreciate very 
much your efforts to develop a bipartisan reauthorization bill, 
and I am pleased with the direction you have taken to modernize 
the act for the 21st century. I look forward to continuing to 
work with you on this important piece of legislation.
    This act embodies our Nation's known lest aspirations to 
ensure the dignity and independence of our older citizens and 
to support their overwhelming desire to live in their own homes 
and communities for as long as possible.
    For more than 40 years, it has guided the development of 
the national aging services network that today reaches into 
every community in the nation, and each year provides direct 
support to 8 million seniors or 17 percent of older 
individuals, and over 600,000 family caregivers.
    Our successful implementation of the 2003 reauthorization 
focused on the new caregiver program and on bringing vision, 
strategic planning and performance accountability to the day-
to-day management of the Older Americans Act programs. We are 
improving our efficiency every year and we are maintaining high 
consumer satisfaction.
    Over the past few years, the Administration on Aging has 
devoted resources toward the pursuit of program efficiency and 
long-term care, enhancing our core programs and improving the 
well-being of elderly clients through the science of 
prevention. We have also repeatedly listened to our consumers 
and to those who serve them, and they have called for the 
modernization of the Older Americans Act; also called for the 
increased program flexibility and the integration of long-term 
care programs and funding streams to create a more seamless 
system of community-based long-term care.
    These combined strategic efforts have resulted in the 
Choices for Independence, which is the centerpiece of our 
proposals for this reauthorization. It aims to educate and 
provide more accessible community-based long-term care options 
to the elderly. It targets the nonMedicaid elderly to take 
greater control of their long-term care. It will help them make 
better use of their own personal resources, thereby avoiding 
unnecessary nursing home placement.
    Choices will also empower middle-aged individuals to plan 
ahead for their long-term care. Our Choices proposal embodies 
three key strategies for advancing systems change: empowering 
consumers to make informed decisions by streamlining access to 
needed care; helping those at high risk avoid unnecessary 
nursing home placement; and assisting older people reduce the 
risk of disease and disability through proven lifestyle and 
behavioral changes.
    The empowerment component of Choices builds on two 
complementary initiatives: outreach campaigns which educate 
younger adults about long-term care planning; and the aging and 
disability resource centers which help States and communities 
integrate and streamline access to community-based long-term 
care.
    Our goal is to have the aging and disability resource 
centers serve as a visible and trusted source where people of 
any age or income can turn to get information and personalized 
assistance on community care. By streamlining access, we cans 
also reduce the confusion and frustration people encounter with 
the current fragmented systems of care. Our partnership with 
the Centers for Medicare and Medicaid Services on the tested 
ADRC, or the aging and distance resource grants, is providing 
the flexibility and the results for States.
    Ohio, for instance, is using the ADRC to create multiple 
avenues by which consumers can access comprehensive information 
and services, including housing, transportation. And 
employment. South Carolina, you will hear later from Lieutenant 
Governor Bauer, is using the ADRC model to develop a ``no wrong 
door'' approach where consumers can access an integrated array 
of home and community-based supports.
    Choices will provide States and communities greater 
flexibility to help individuals who are at high risk of 
institutional placement but not yet eligible for Medicaid to 
remain at home and delay their premature entry into nursing 
homes.
    The community-living incentive component of Choices will 
help people before they go into nursing homes and it implements 
CMS' Money Follows the Person Initiative that has targeted 
people who are already in nursing homes. With this incentive, 
program dollars will be tied directly to consumers and their 
unique functional needs and circumstances and help them stay at 
home.
    This cash and counseling approach will give clients control 
over individualized budgets and specialized counseling to 
manage the types and services of support they need and the 
manner in which they are provided, including the option of 
hiring a member of their family, a friend, or a neighbor.
    Choices will also test strategies that empower older 
individuals to make lifestyle changes to reduce the risk of 
disease, disability, and injury, which really can be mitigated, 
even for people who are very old, through lifestyle changes and 
disease management programs.
    In acute care we have learned the importance of prevention. 
And prevention should be equally important in long-term care. 
The reauthorization of the Older Americans Act provides a 
unique and timely vehicle to accelerate the changes needed in 
long-term care policy to help our Nation fully prepare for the 
aging of the baby boom and the emergence of long-term living as 
a common experience of life.
    Many States have already looked to their aging network to 
lead the development of their long-term care systems. The 
network is one of the largest providers of home community-based 
care and manages between $3- and $4 billion a year in public 
and private resources.
    The aging services network is well positioned to help 
ensure the modernization of long-term care in this country. I 
have tremendous respect and confidence in this network. The 
administration supports your efforts to reauthorize the act, 
and I again commend the committee for producing the bipartisan 
draft legislation that will further strengthen programs and 
services for older Americans and their caregivers.
    I am particularly pleased that the draft legislation 
promotes home and community-based supports for older people, 
avoiding expensive institutional care so they may age in place, 
which is, after all, what people want.
    While the draft does not include the administration's 
proposed demonstration program by incorporating the principles 
of choices, the Choices proposal, it will advance the ongoing 
efforts to streamline access to information benefits, help 
promote the health and reduce the risk of disease, disability, 
and injury and, most importantly, empower older people to make 
informed decisions about their care options.
    The committee's draft legislation, the Senior Independence 
Act, reflects the changing needs of the Older Americans Act 
service delivery system and the people that it serves.
    As you move forward in your deliberations, we will work 
with you to modernize and strengthen our Nation's home and 
community-based long-term care system. I am proud to have 
served in this network for more than 34 of the 41 years in 
existence, and I truly believe, with the support of Congress, 
that this reauthorization will give consumers the choices they 
need to lead more healthy and productive lives.
    Thank you, Mr. Chairman, for the opportunity to speak to 
you today about the reauthorization of the act. I would be 
pleased to answer some questions later on.
    Chairman Tiberi. Thank you.
    [The prepared statement of Ms. Carbonell follows:]

   Prepared Statement of Josefina Carbonell, Assistant Secretary for 
          Aging, U.S. Department of Health and Human Services

Introduction
    Chairman Tiberi, Congressman Hinojosa, distinguished members of the 
Committee, thank you for inviting me here today to discuss the 
reauthorization of the Older Americans Act (OAA). I appreciate all of 
your efforts to develop a bi-partisan reauthorization bill for the 
Older Americans Act. I am pleased with the direction you have taken to 
modernize the OAA for the 21st century. I look forward to continuing to 
work with you on this important piece of legislation.
    The OAA embodies our nation's noblest aspirations for ensuring the 
dignity and independence of our older citizens by promoting older 
people's full participation in society, and supporting their 
overwhelming desire to remain living in their own homes and communities 
for as long as possible.
    Last July we celebrated the fortieth anniversary of the OAA. For 
four decades, the OAA has guided the development of the national aging 
services network (aging services network) that today consists of the 
Administration on Aging, 56 State Agencies on Aging, 655 Area Agencies 
on Aging, almost 237 tribal organizations, 29,000 community-based 
provider organizations, over 500,000 volunteers, and a wide variety of 
national and local non-profit organizations. This network reaches into 
every community in this nation, and each year provides direct support 
to 8,000,000 older individuals and 600,000 family caregivers.
    The OAA and the aging services network accomplished a lot in forty 
years. It produced a wide array of innovative programs to help older 
Americans retain their independence in the community. It brought 
Federal support to meals-on-wheels, making it one of the most 
significant and worthwhile volunteer ventures in the history of this 
nation. It brought consistency and quality to senior center programs 
across the country, providing seniors an opportunity to socialize with 
each other, to improve their nutritional status with healthy meals, and 
to see other aspects of their health status addressed through health 
screening, medication management, and physical activity programs. More 
recently, through the National Family Caregiver Support Program 
(NFCSP), the OAA brought recognition and support to family caregivers, 
who to this day account for some two-thirds of all of the long-term 
care provided to elderly and disabled people across the U.S.
    As we move ahead to reauthorize the OAA we can look back with pride 
on our accomplishments, but that is not enough. We must look forward to 
the changing realities facing our nation. In January, the baby boom 
generation started turning age 60, and over the next 25 years, the 
number of Americans over the age of 65 will double. By 2050, when the 
baby boomers will be age 85 and older, there will be over 86 million 
people age 65+ living in the United States, compared to 35 million 
today.
    Not only is the number of older Americans increasing at 
unprecedented rates, but those reaching age 65 are living longer than 
ever before. This increase in age will dramatically expand the demand 
for long-term care. Long-term care is what people need to accommodate 
their inability to perform basic activities of daily living, such as 
bathing, cooking, and cleaning the house. Among those over the age of 
85, the proportion of people who are impaired and require long-term 
care is about 55 percent. While the precise number of people who will 
need long-term care in the future could be affected by numerous 
variables, including possible declines in rates of impairment, the 
expected increase in the number of seniors is so great that most 
experts agree that there will be far more people in need of home and 
community-based long-term care in the future than there are today.
    These unprecedented shifts in the size and composition of our 
population are creating both challenges and opportunities for our 
society, our families and our individual citizens. Since the last 
reauthorization, AoA and the Department of Health and Human Services 
(HHS) have recognized this reality and laid the groundwork for the 
current reauthorization of the OAA.
Older Americans Act Accomplishments Since Reauthorization in 2000
            Strategic Planning
    The successful implementation of the provisions of reauthorization 
of 2000 focused closely on the implementation of the caregiver program 
and brought vision, strategic planning, and performance accountability 
to the day-to-day management of the program. With new information about 
the capacity of AoA and the aging network to assist frail elderly 
people with long-term care services, AoA steered our discretionary 
innovation resources toward the pursuit of program efficiency in long-
term care, enhancing core programs, and toward improving the well-being 
of elderly clients through the science of prevention. AoA did this in 
partnership with the other Federal agencies, the private sector and our 
nationwide network.
    In this strategic planning process, AoA repeatedly and formally 
listened to our consumers and to those who serve them to ensure that we 
can move OAA programs forward in a way that will efficiently serve 
elders, including the baby boom generation for years to come. Many 
called for flexibility in implementing the OAA. Nearly half of the 
comments were ideas for future amendments to the OAA. These also 
focused on flexibility, particularly with regard to allowing greater 
integration of long-term care programs and funding streams to create a 
more seamless program of services for elderly people and caregivers.
    These efforts yielded a focused set of strategies to modernize the 
OAA to better serve the current and emerging needs of this country for 
efficient and cost-effective home and community-based long-term care. 
These strategies are designed to strengthen the OAA capacity to promote 
the dignity and independence of older people, and they build on the OAA 
unique mission and capabilities. They include: 1) empowering people to 
make informed decisions about their health and long-term care options, 
and making it easier for consumers to access the care they need; 2) 
helping older people who are at high-risk of nursing home placement to 
remain at home; and 3) empowering seniors to stay active and healthy. 
AoA program activities have a fundamental common purpose reflecting the 
primary legislative intent of the OAA: to promote the development of a 
comprehensive and coordinated system of support at the Federal, State 
and local level making community-based services available to elders, 
especially those who are at risk of losing their independence; to help 
prevent disease and disability through community-based activities; and 
to support the efforts of family caregivers who are struggling to keep 
their loved ones at home.
            Performance Accountability
    OAA services are delivered through efficient, high-quality, 
compassionate programs that help maintain independence for older 
people. The core OAA home and community-based long-term care services 
such as in-home services, congregate and home delivered meals, 
transportation, information and referral, outreach, and caregiver 
services have made living at home a real choice for many older adults. 
This nationwide infrastructure provides these services across the 
United States, U.S. Territories and the Tribes to more than 8 million 
elderly persons age 60 and over each year--which is 17 percent of all 
people aged 60 and older--including 3 million individuals who require 
intensive services, many of whom meet the functional requirements for 
nursing home care. These services improve quality of life, create 
community connections, make people safer and healthier, and are the 
foundation of this nation's long-term care system.
    A comprehensive set of performance measures consistently indicates 
that OAA services make a positive difference in the lives of older 
adults. The results of these performance measures show that OAA 
programs serve those most in need, including people who are poor, who 
live in rural areas, and who historically were disadvantaged. The 
results also show OAA programs are cost-effective and maintain high 
consumer satisfaction. For example, AoA and the aging network increased 
the number of clients served per million dollars of AoA funding by 15 
percent in the last two years. AoA achieved a 16 percent increase in 
complaint resolutions per million dollars of ombudsman funds. AoA 
maintained client satisfaction rates for home-delivered meals in the 
mid-80 to low-90 percentiles, and equally high percentages of elderly 
people report each year that the meals programs help them remain 
independent in their own homes.
    The need and expectation for successful performance was also a 
critical factor for AoA with the implementation of the National Family 
Caregiver Support Program (NFCSP). Providing service to caregivers is 
critical because we recognize that they are the backbone of long-term 
care in this country. Sixty-four percent of people with Medicare who 
receive personal care support receive that care only from informal or 
family caregivers. Fewer than 10 percent of people with Medicare who 
receive personal care receive that care only from professionals. 
Fortunately, the implementation of the NFCSP provides a fine example of 
the results that are being produced by the aging network to help 
elderly people maintain their independence. Because of State and local 
efforts, we now serve approximately 600,000 caregivers each year. This 
occurred in large part because of very successful outreach campaigns by 
State and local programs that provided information about caregiving to 
over 12 million people in the last two years alone.
    AoA includes family caregivers in annual performance outcome 
measures surveys. The surveys show that over 85 percent of caregivers 
reported that AoA services help them care longer for family and 
friends. Improvements in information and access surveys reduced to 
below 50 percent the number of caregivers reporting difficulty in 
getting the information they need. A number of States have developed 
programs to make it easier for consumers and their family caregivers to 
learn about the options that are available in their communities, and to 
assess the care they need. We have built on these best practices to 
develop our Aging and Disability Resource Center initiative, which 
fosters one-stop shops for information and access to community-based 
long-term care discussed later in the testimony.
    One of the most significant accomplishments of the OAA is the 
emergence of a community-based, cost-effective, nationwide network that 
is now one of the largest providers of home and community-based long-
term care for the elderly in the U.S. In addition to administering OAA 
investments in long-term care and related State and community-funded 
programs, this network also administers and manages over 60 percent of 
the funding made available under Medicaid home and community-based 
waiver programs for the elderly and disabled. Many States used their 
OAA program as the foundation for their home and community-based long-
term care systems.
            Emerging Solutions
    Just as the OAA was the solution for so many significant policy 
challenges affecting frail elderly people in the past, the OAA may be a 
vehicle for addressing emerging long-term care challenges that we now 
face as a result of our rapidly growing older population. Building on 
policies that the President and the Secretary of HHS have already 
instituted, the OAA has the potential to increase the quality of life 
for our seniors and also make our system of care more cost-efficient.
    President Bush's vision for the future of long-term care is 
outlined in his 2001 New Freedom Initiative (NFI). This Initiative aims 
to create a system of care that is responsive to the needs and 
preferences of Americans of all ages with disabilities, and the values 
of choice, control and independence. Since 2001, HHS and Congress 
provided the States and communities with a variety of new tools to help 
them advance the goals and values embedded in the NFI. These tools 
included: the Real Choice Systems Change grants, new Medicaid waiver 
options, implementation of the NFCSP, replication of the successful 
Cash and Counseling model, the Aging and Disability Resource Center 
(ADRC) Initiative, and the Own Your Future Campaign.
    Most recently, HHS and the Congress took significant steps forward 
to modernize Medicaid long-term care working with the nation's 
governors and the Congress. Major Medicaid changes contained in the 
recent Deficit Reduction Act, such as Money Follows the Person, 
empowers consumers and gives more support to community-living options. 
Congress recognized through the expansion of the Long-Term Care 
Partnership program and other changes that our long-term care policy 
strategies must go beyond the parameters of the Medicaid program. This 
is especially important for our nation's older population.
    The Choices for Independence demonstration (Choices) aims to 
educate and provide community-based long-term care options to the 
elderly. Specifically, the demonstration targets non-Medicaid eligible 
elderly take greater control of their long-term care by helping them 
make better use of their personal resources, thereby avoiding 
unnecessary nursing home placement. Choices also will empower middle-
aged individuals to plan ahead for their long-term care.
    The Choices demonstration will test ways to help States and 
communities be more consumer-directed, more supportive of community 
living, and more cost-effective. Choices builds on recent HHS 
initiatives and the unique assets inherent in the OAA, including the 
ability to reach people while they are still healthy.
    This demonstration funds implementation of Choices in a limited 
number of States and is intended to test and document the potential 
impact of Choices on the health and well-being of older people, their 
family caregivers, and on health care costs under Medicaid and 
Medicare. I was pleased to see that many of the Administration's 
concepts as well as our clarifying technical amendments are embedded in 
the Committee's proposed legislation.
    As noted previously, Choices embodies three interrelated strategies 
for advancing systems change at the State and community level and is 
intended to test the effectiveness of this combined set of strategies. 
The demonstration builds on the unique assets of the aging network, its 
core programs and the best practices that have come from AoA's 
strategic investments since the last reauthorization. These strategies 
include: empowering consumers to make informed decisions, including 
streamlining access to needed care; helping high-risk individuals avoid 
unnecessary nursing home placement; and, assisting older people with 
lifestyle and behavioral changes proven to reduce their risk of disease 
and disability.
            Empowering Consumers
    The Empowerment component of Choices will build upon two 
complementary initiatives launched by the AoA in partnership with CMS 
and other HHS agencies to help people to make informed decisions about 
their support options, and easily access the supports they need.
    One initiative, the Own Your Future Campaign, launched this past 
year, encourages more people to plan ahead for their long-term care. 
The project is a joint effort of the AoA, the Assistant Secretary for 
Planning and Evaluation (ASPE), the CMS, the National Governors 
Association, and the National Conference of State Legislatures. It was 
piloted in five States (Arkansas, Idaho, Nevada, New Jersey, and 
Virginia), and is currently being expanded to three additional States 
(Kansas, Maryland, and Rhode Island). The Campaign involves a variety 
of outreach activities, including the targeted mailing of a letter from 
the governor of each State to every household headed by an individual 
between the ages of 50 and 70. To date, almost eight percent of the 
individuals receiving letters requested a free Long-Term Care Planning 
Kit made available by HHS. This response rate is significantly higher 
than comparable private sector direct mail campaigns which might see 
responses of 0.5-2.0 percent.
    The concepts of the Own Your Future Campaign were incorporated into 
the Choices demonstration because studies show that many people do not 
think about their future long-term care needs and therefore fail to 
plan appropriately. If individuals and families are more aware of their 
potential need for long-term care, they are more likely to take steps 
to prepare for the future. From a public policy perspective, increased 
planning for long-term care is likely to increase people's ability to 
remain at home with better use of their own resources, and may also 
reduce pressures on public programs.
    The second initiative, the Aging and Disability Resource Center 
program, was launched in 2003 by the AoA and CMS, to help people plan 
ahead for their long-term care, and address the immediate problems 
consumers face when they try to learn about and access needed care. 
This program builds on the strength and experience of the extensive 
aging network by providing competitive grants to States to assist them 
in developing and implementing coordinated access to information, 
individualized advice to consumers on their options, and streamlined 
eligibility determination for publicly supported programs, including 
OAA, State revenue programs and Medicaid long-term care services. The 
goal is to have ADRCs serving as ``visible and trusted'' sources where 
people of any age or income can turn to get information and 
personalized assistance on options that are available in their 
community. By streamlining access to publicly supported care options, 
ADRCs also reduce the confusion and frustration people encounter when 
they try to access the various programs with different, and often 
duplicative, eligibility forms, requirements, and procedures.
    To date, AoA and CMS have provided close to $40 million to fund 
ADRC projects in 43 States. In the first 24 funded States, 66 pilot 
sites opened and now provide specialized information and assistance to 
the elderly and people with disabilities. All of the pilot sites are 
now implementing activities that streamline access to publicly funded 
long-term care. These activities include: the use of uniform assessment 
and eligibility determination processes; using integrated management 
information systems; developing websites to streamline access to 
information and eligibility determination; developing electronic 
applications for Medicaid eligibility; co-location of aging services 
and Medicaid eligibility staff; and outreach to hospitals and nursing 
homes to divert or transition consumers from institutional placement.
    Under this joint initiative, AoA and CMS are giving States 
considerable flexibility in how to best implement their ADRC programs. 
For example, Ohio is using the ADRC to create multiple avenues by which 
consumers and their caregivers can access the ADRC network, via 
internet, phone or in-person. These new consumers and their caregivers 
will experience a seamless process in accessing information and 
services, including long-term care and related services such as 
housing, transportation, and employment. The South Carolina ADRC 
efforts are being spearheaded by the Lt. Governor's Office on Aging 
which is piloting an ADRC in two counties, Aiken and Barnwell. One of 
the most exciting efforts underway in the South Carolina project is the 
launching of Medicaid eligibility e-forms and the co-location of 
Medicaid staff at the local level. As a result of the successful 
development of an electronic application for Medicaid, the State is now 
considering developing e-forms for other applications. South Carolina 
is also using the ADRC model to develop a ``No Wrong Door'' approach 
where consumers can access an integrated array of home and community-
based supports accessible by telephone, internet and personal 
appointments.
            Targeting High-Risk Individuals
    Choices will test ways to provide States and communities greater 
flexibility under the OAA to help individuals who are at high risk of 
institutional placement but not eligible for Medicaid to remain at home 
and delay their premature entry into nursing homes. The Community-
Living Incentive (CLI) component of Choices is similar to ``Money 
Follows the Person''--with the difference being that CLI will help 
people before they go into nursing homes, while the recently enacted 
``Money Follows the Person'' initiative is targeted at people who are 
already in nursing facilities.
    Currently, OAA dollars are allocated to specific service 
categories. Under the CLI, program dollars will be tied directly to 
consumers and their unique functional needs and circumstances. This 
way, States and communities will have the flexibility to provide the 
necessary assistance to help a senior stay at home. CLI will 
incorporate the Cash and Counseling approach into the OAA.
    The Cash and Counseling model has been tested through a controlled 
experiment conducted over several years in New Jersey, Arkansas and 
Florida with funding from the HHS Assistant Secretary for Planning and 
Evaluation and the Robert Wood Johnson Foundation. This model gives 
clients control over individualized budgets to manage the types of 
services and supports they received and the manner in which they were 
provided. This included the option of hiring a member of their family, 
a friend or a neighbor. The results showed three major positive 
outcomes when compared to those achieved under the traditional model of 
care: enhanced consumer satisfaction; improved quality of care; and an 
absence of fraud and abuse. HHS made it a policy to encourage States to 
use the Cash and Counseling option under their Medicaid home and 
community-based care programs, and now want to do the same with the OAA 
program.
            Prevention into Long-Term Care
    Choices will also test strategies that best empower older 
individuals to make lifestyle changes to reduce their risk of disease, 
disability and injury. Most long-term care needs emerge from chronic 
diseases and other conditions, such as arthritis, diabetes, heart or 
lung disease, stroke and dementia, as well as from injuries suffered as 
a result of a fall or other accident. These conditions and their 
effects can be mitigated, even for people who are very old, through 
life-style changes and disease management programs. In acute care we 
have learned the importance of prevention. Prevention is equally 
important in the long-term care system.
    There is a growing body of scientific research from the National 
Institutes of Health, the Centers for Disease Control and Prevention, 
and the Agency for Healthcare Research and Quality and others, 
documenting the effectiveness of evidence-based programs in reducing 
the risk of disease, disability and injury among the elderly. To 
reinforce the utility of the aging services network as a vehicle for 
making these evidence-based programs more widely available at the 
community level, the AoA launched an Evidence-Based Prevention Program 
in 2003 in partnership with NIA, CDC, AHRQ, CMS and the John A. 
Hartford, Robert Wood Johnson, and several smaller foundations. AoA 
funded more than a dozen local projects with models that focus on 
disease self-management, fall prevention, nutrition, physical activity, 
medication management, and depression. These models hold considerable 
potential for long-term improvement in the quality of life and lowered 
health care costs.
    One example of a very successful model is the Chronic Disease Self-
Management Program developed at Stanford University. This program 
begins with a six week workshop designed to empower and educate people 
with various chronic diseases to better mitigate and control their 
symptoms. The program significantly improves participant health status 
and reduces the use of hospital care and physician services. Another 
evidenced-based model is a program developed at Yale University to 
prevent falls. Falls are a leading cause of serious injury and death 
among the elderly and are a major contributor to health costs. The Yale 
program uses a multifaceted approach to help older individuals cope 
with key risk factors. Participants are trained to improve balance, 
gait and posture, better manage their medication, and to remove home 
hazards. The program significantly reduces the incidence of falls among 
participants.
    A culturally sensitive nutrition program launched by the Alamo Area 
Council of Governments in San Antonio, Texas is another model program 
that is helping low-income, Hispanic seniors head off diabetes before 
it starts. The program is based on a landmark study by the Diabetes 
Prevention Research Group which showed that diet and exercise could 
effectively delay the onset of Type 2 diabetes--even in adults who are 
already showing glucose intolerance. Participants in the program 
receive regular health monitoring and eat specially prepared ``tex-
mex'' lunches at their local nutrition center. They also take part in a 
three-day-a-week education program that promotes physical activity, 
healthy cooking practices and better disease self-management. Sponsors 
have set a goal that participants will increase their physical activity 
to at least 150 minutes per week and experience a seven percent weight 
loss.
    Finally, the Partners in Care Foundation in Burbank, California is 
helping low-income older adults who are homebound improve their health 
through an evidence-based exercise program. The activity portion of 
this intervention is modeled after a research-tested approach called 
``LifeSpan: A Physical Assessment Study Benefiting Older Adults.'' The 
approach was developed by researchers at California State University at 
Fullerton. After an initial assessment, clients are taught a variety of 
easy exercises by professional care managers and receive ongoing 
support and encouragement from volunteer peer coaches. The care 
managers monitor clients' participation during regularly scheduled 
appointments and reassess them at six-month intervals.
Reauthorization of the Older Americans Act: Another Opportunity for 
        Long-Term Care Systems Change
    The reauthorization of the OAA provides a unique and timely vehicle 
to accelerate the changes needed in long-term care policy to help our 
nation fully prepare for the aging of the baby boom and the emergence 
of long-term living as a common experience of life. When the OAA was 
passed in 1965, Congress charted out a vision for a nationwide network 
of public and private agencies organized around the common purpose of 
promoting the dignity and independence of older people through a 
coordinated system of services and supports to help them live in their 
own homes and communities for as long as possible.
    The network envisioned in the OAA is now a reality. It is a 
consumer-driven, locally designed, nationwide infrastructure, supported 
by multiple funding streams, and capable of reaching people with low-
cost social interventions long before they need intensive services. OAA 
programs have reached people of all income levels, while targeting its 
limited resources to those most in need, including low-income minority, 
rural or isolated populations. Early reauthorizations of the OAA 
created area agencies on aging and fostered the principle of local 
flexibility through a ``bottoms-up'' planning process that ensures OAA 
programs continually reflect local needs and conditions.
    Many States have looked to their aging network to lead the 
development of their long-term care systems, including States with the 
most balanced and cost-efficient systems of care such as Oregon, 
Washington and Vermont. The OAA network is one of the largest providers 
of home and community-based care and manages between $3 and $4 billion 
each year in public and private resources. All State Agencies on Aging 
have the responsibility to administer State revenue programs; over 30 
State agencies administer Medicaid Waiver Programs and State Health 
Insurance Assistance Programs; over 25 States have the authority of the 
State Aging Agencies to serve younger populations with disabilities.
    In short, the aging services network created by the Older Americans 
Act and led by the AoA is well positioned to help ensure the 
modernization of long-term care in our country. I have tremendous 
respect for and confidence in the long-term care network I have spoken 
about today. The Administration supports your efforts to reauthorize 
the OAA and I commend the Committee for producing bipartisan, draft 
legislation that will further strengthen programs and services for 
older Americans and their caregivers. I am particularly pleased that 
the draft legislation promotes home and community-based supports to 
help older individuals avoid expensive institutional care so that they 
can age in place as all older individuals desire to do. While the draft 
does not include the Administration's proposed demonstration program, 
by incorporating the principles of the Choices proposal, the draft 
legislation will advance ongoing efforts to streamline access to 
information and benefits, help promote health by reducing risk of 
disease, disability, and injury, and most important, empower older 
individuals to make informed decisions about their care options. The 
Committee's draft legislation reflects the changing needs of the aging 
system and the older individuals it serves. As you move forward in the 
reauthorization of the reauthorize the OAA, I and looks forward to 
continue working with you to modernize and strengthen our nation's home 
and community-based long-term care system.
    I am proud to have served in this network for more than 34 of its 
41 years. I truly believe, with the support of Congress, our 
reauthorization proposal and principles will give consumers the choices 
they need to lead more healthy and productive lives.
    Thank you, Mr. Chairman, for the opportunity to speak to you today 
about the reauthorization of the Older Americans Act. I would be 
pleased to answer any questions you may have.
                                 ______
                                 
    Chairman Tiberi. Mr. Bishop.

   STATEMENT OF MASON BISHOP, DEPUTY ASSISTANT SECRETARY FOR 
  EMPLOYMENT TRAINING ADMINISTRATION, U.S. DEPARTMENT OF LABOR

    Mr. Bishop. Mr. Chairman, and members of the subcommittee, 
I am pleased as well to have the opportunity to testify before 
you today to discuss reauthorization of the Older Americans 
Act, and the Senior Community Service Employment Program as 
authorized by Title V of the act. The Department of Labor's 
flagship program in serving older workers with barriers to 
employment is SCSEP, the workforce investment program targeted 
exclusively to low-income seniors.
    SCSEP serves persons 55 years of age or older, whose family 
incomes are no more than 125 percent of the Federal poverty 
level. Participants are placed in a part-time community service 
assignment in a local nonprofit agency so that they can gain 
on-the-job experience and prepare for unsubsidized employment.
    There are currently 69 SCSEP grantees, including 13 
national grantees and 56 units of State and territorial 
governments. The draft bill on which we have been asked to 
comment incorporates a number of key features of the 
administration's legislative proposal, and we do appreciate the 
bipartisan efforts of this subcommittee.
    Let me talk about some of the principles that this bill 
reflects that we also have in the reauthorization of the SCSEP 
program. First is increasing the minimum age for eligibility.
    Like the draft bill, our proposal increases the minimum 
eligibility for the SCSEP program from age 55 to 65. The 
Workforce Investment system is capably serving the workforce 
needs of individuals under age 64 through the Workforce 
Investment Act and other sources, and we feel that limited 
SCSEP resources should be targeted to an older age group of 
Americans.
    The draft bill, consistent with our proposal, also sets 
aside 1.5 percent of appropriated SCSEP funds for outreach to 
businesses and older workers, demonstrations and pilots, 
training and technical assistance, as well as dissemination of 
best practices. The Department also proposes to clarify the 
income eligibility standard and stipulate what type of 
participant income should count when the income eligibility 
test is applied to each applicant. We believe the 
standardization will increase applicant and public confidence 
that the program is being administered in a consistent and 
equitable manner.
    Second, the bill does focus on employment outcomes. Both 
the draft bill and your proposal do enhance the employment 
focus of the program by, first, increasing the percentage of 
grant funds that grantees may spend on training to provide 
participants with the skills needed to obtain unsubsidized 
employment.
    Second, it authorizes occupational training before or 
concurrent with community service.
    Third, it does limit to 2 years the transition from 
community service to unsubsidized employment to encourage 
grantees to prepare their participants for work, to invest in 
skills development, and to work closely with local employers 
with a need for skilled, experienced workers. Finally, it does 
eliminate most fringe benefits that are inconsistent with a 
short-term taxpayer-funded employment and training program.
    Next, the bill does strengthen performance accountability 
and, like our proposal, uses the common performance measures 
for workforce programs, holding grantees accountable for three 
basic measurements: first, entered employment; second, 
retention in employment; and, third, earnings. Grantees would 
also track additional outcomes unique to SCSEP, such as 
provision of community service.
    Next, the one feature of the administration's proposal that 
isn't included in the draft bill is to streamline the program 
structure by allocating funds for the SCSEP program to States 
according to a statutory formula.
    Under our proposal, each State would compete their funds 
among nonprofit entities, for-profit entities, and agencies of 
State government to operate the program in their State. No 
national competition would be necessary.
    Separate grant awards would be retained for Indian and 
Asian Pacific islander organizations. We believe this method of 
soliciting applicants in awarding grants would simplify 
administration, eliminate duplication, reduce overhead costs 
and create a more cohesive program.
    We do believe the draft bill makes significant improvements 
to the SCSEP program. It better targets the eligibility to 
those most in need, enhances the employment focus of the 
program, strengthens the performance accountability system and 
better coordinates the program with the Workforce Investment 
System.
    Mr. Chairman, this concludes my prepared statement, and we 
do look forward to working with you on reauthorizing the Older 
Americans Act. We are hopeful that, working together, this 
important legislation can be enacted later this year.
    I would be happy to answer any questions that the committee 
might have.
    [The prepared statement of Mr. Bishop follows:]

 Prepared Statement of Mason M. Bishop, Deputy Assistant Secretary of 
      Labor for Employment and Training, U.S. Department of Labor

    Mr. Chairman and Members of the Committee: I am pleased to have the 
opportunity to testify before you today to discuss the reauthorization 
of the Older Americans Act (OAA). For over 40 years, the Department of 
Labor has administered the Senior Community Service Employment Program 
(SCSEP), authorized by Title V of the Older Americans Act.
    Before discussing our efforts to employ older workers and the draft 
legislative proposal for reauthorizing Title V, I would like to say a 
few words about America's aging population and workforce, and provide 
context on where SCSEP fits in the broader workforce investment system.
The Aging Population and Workforce
    The U.S. economy is entering a period of dramatic demographic 
change as our population ages. According to the Census Bureau's 
American Community Survey, 12 percent of the total population in 2004 
was aged 65 or over, and this percentage is set to expand rapidly in 
the coming decades. After the first Baby Boomers turn 65 in 2011, the 
older population will become twice as large by 2030 as it was in 2000.
    Further, as a result of lower birth rates in recent years, combined 
with the aging and retirement of the baby boom generation, the American 
workforce is growing at a slower rate. The changing demographics of the 
labor force, in combination with the ever-increasing skill demands of 
employers, have made it more critical that every available worker, 
including older Americans, be able to join or remain in the workforce 
to enable the continued competitiveness of American businesses in the 
21st century.
Barriers to Employment Faced by Older Workers
    The Baby Boomer cohort of older workers has different 
characteristics than in years past. Far more women have experience in 
the workforce than their counterparts a generation ago. More of this 
cohort are caring for grandchildren, and most envision a very different 
retirement than that of their parents--one that includes at least some 
work, whether for social engagement, intellectual stimulation, or 
because of financial necessity. However, despite a need for their 
skills and their desire to remain in or re-enter the workforce, many 
older Americans find themselves unable to find suitable work. Limited 
opportunities for flexible work schedules, outdated technology skills, 
pension plan disincentives, and a reluctance by some employers to hire 
older workers all limit the full potential of this productive, 
experienced cadre of workers.
    There is a resource available to help. The workforce investment 
system, which includes SCSEP, plays an important role in helping older 
workers gain the necessary skills and access the employment 
opportunities that will enable them to continue working. The workforce 
investment system also helps connect employers to the experienced and 
skilled workforce they need, including older workers, in order to 
compete in the 21st century global marketplace.
Response by the Department of Labor to an Aging Population
    Some employers already recognize the value that older workers bring 
to the workplace. They know that older workers are a human capital 
asset, serving as effective mentors to younger employees and bringing 
responsibility, loyalty, dedication, experience and skills to the 
workplace.
    Still, more needs to be done to provide older workers with job 
training opportunities and better connections to employers looking to 
hire them. At the Department of Labor, we are taking steps to enhance 
the effectiveness of our programs as well as brokering better 
relationships with partner federal agencies and other organizations 
serving older American workers.
Protocol for Serving Older Workers
    In January 2005, the Employment and Training Administration (ETA) 
issued a national ``Protocol for Serving Older Workers.'' This 
important step in enhancing services to older workers was disseminated 
throughout the workforce investment system. The protocol seeks to 
enhance the services provided to older workers, and inspire the 
workforce investment system to pursue innovative strategies for tapping 
into this labor pool and connecting them with the job market. The 
protocol outlines a set of action steps that key stakeholders can take 
to achieve the goal of connecting employers with older workers. The 
stakeholder groups addressed in the protocol are: (1) the U.S. 
Department of Labor; (2) State and Local Workforce Investment Boards; 
(3) One-Stop Career Centers; (4) mature worker intermediaries and 
service providers; and (5) business and industry.
Older Worker Projects and Initiatives
            Older Worker Task Force
    To build on the Protocol for Serving Older Workers, the Employment 
and Training Administration convened a DOL-wide Older Worker Task Force 
last year to explore the key issues related to the participation of 
older workers in the labor market. To continue the work of that task 
force, and in response to a GAO recommendation and a request from the 
Senate Special Committee on Aging, the Department of Labor is convening 
an inter-agency federal task force to focus on the aging of the 
American workforce and the impact of this demographic change. The Task 
Force on the Aging of the American Workforce brings together agencies 
from across the federal government to work collectively to address the 
workforce challenges posed by an aging population. The first meeting of 
the task force is May 5.
    Assistant Secretary for Employment and Training Emily Stover 
DeRocco will chair the task force, which will identify and assess ways 
to address the barriers that prevent older workers from remaining in, 
or re-entering, the labor market and the impediments that prevent 
businesses from taking full advantage of this skilled labor pool. The 
task force's recommendations will be submitted to the Secretaries of 
all the participating federal agencies, and may form the basis for 
future recommendations for the President and members of Congress.
    Now I would like to turn to the Senior Community Service Employment 
Program (SCSEP), a workforce investment program targeted exclusively to 
low-income seniors.
Title V: The Senior Community Service Employment Program
    SCSEP serves persons 55 years of age or older whose family incomes 
are no more than 125 percent of the federal poverty level. Participants 
are placed in a part-time community service assignment in a local non-
profit agency so that they can gain on-the-job experience, and prepare 
for unsubsidized employment.
    The Fiscal Year 2006 appropriation for SCSEP is $432 million. This 
funding will result in approximately 92,300 people participating during 
Program Year 2006 (July 1, 2006-June 30, 2007). There are currently 69 
SCSEP grantees, including 13 national grantees, and 56 units of state 
and territorial governments.
    Program participants receive training and work experience in a wide 
variety of occupations, including nurse's aides, teacher aides, 
librarians, gardeners, clerical workers, and day care assistants at 
non-profit 501(c)(3) organizations and public agencies. Program 
participants also work in the health care industry, such as in 
hospitals, as well as in recreation parks and forests, education, 
housing and home rehabilitation, senior centers, and nutrition 
programs. They are paid the highest applicable minimum wage, be it 
federal, state or local, or the prevailing wage for persons employed in 
similar public occupations by the same employer.
    Before I turn to the SCSEP reauthorization proposal, I'd like to 
discuss two of the recent developments in our management of SCSEP: 1) 
the implementation of electronic performance reporting, and 2) the 
competition for SCSEP national grants.
Electronic Performance Reporting
    Electronic performance reporting has improved the accuracy and 
timeliness of our performance information, providing more immediate 
feedback on the outcomes of SCSEP participants and enhancing our 
management of the program. To accommodate the collection of data for 
the SCSEP statutory performance measures as well as the common measures 
for federal job training programs, the Department provided grantees 
with a software program that has allowed them to collect performance 
data through their existing management information systems. Each 
quarter, grantees electronically submit performance data files, which 
are then consolidated into a single database.
    The next step in the evolution of SCSEP performance reporting is 
the Internet-based SCSEP Performance and Results Quarterly Performance 
Report system (SPARQ), to be launched in May. This system will allow 
grantees to maintain their records via the Internet, reduce grantees' 
reporting burden and enhance report accuracy.
SCSEP Grant Competition
    In addition to electronic reporting, the other significant 
development in our management of SCSEP is the current grant 
competition. On March 2, 2006, the Department announced a grant 
competition for the SCSEP national grantees. This is the second time we 
have competed the SCSEP national grants; the first was three years ago. 
That competition opened the door for four new national grantees, and 
spurred innovation in service delivery and program administration among 
the other national grantees. Grants funded by the current Solicitation 
for Grant Applications (SGA) will be for Program Year (PY) 2006, which 
begins on July 1, 2006. This SGA is designed to strengthen program 
administration, including management systems, service delivery and 
program performance.
    The SGA is designed to improve program efficiency by encouraging a 
regional service delivery architecture in order to reduce fragmentation 
of service delivery areas. For instance, rather than having multiple 
grantees per county, which creates confusion for participants as well 
as unnecessary administrative burdens and expenses, a grantee must 
serve an entire county except in very large urban counties. In 
addition, we have provided enough time for an orderly transition, and 
we remain confident that this competition will promote better services 
to participants and foster additional program improvements.
    I'd like to now discuss the Administration's proposal for SCSEP 
reauthorization.
Legislative Proposal for SCSEP Reauthorization
    The draft bill on which we have been asked to comment incorporates 
a number of the key features of the Administration's legislative 
proposal. The draft bill is an important step in improving the SCSEP 
program for the needs of the 21st century labor market. We look forward 
to working with the Committee on this important piece of legislation.
    The Department's key reform principles are largely reflected in the 
draft bill by 1) increasing the minimum age for eligibility, 2) 
enhancing the focus on employment outcomes and training for 
participants, 3) strengthening the capacity of the One-Stop Career 
Center system to serve older workers, 4) strengthening performance 
accountability, and 5) streamlining the program structure.
Increasing the Minimum Age for Eligibility
    The draft bill, like the Administration's proposal, increases the 
minimum eligibility age from 55 to 65, while allowing for exceptions 
for individuals aged 55-64 with certain barriers to employment. 
Currently, 56% of SCSEP participants are aged 55-64. We believe the 
workforce investment system should be the primary deliverer of services 
for individuals age 55-64, and in fact, our One-Stop Career Centers are 
already serving this population. To facilitate a smooth transition to 
the new age minimums, we also support the exceptions to allow SCSEP 
programs to assist those individuals aged 55-64 who have barriers to 
employment.
    In order to enhance the capacity of the One-Stop Career Centers to 
effectively serve individuals age 55-64, the draft bill, consistent 
with our proposal, sets aside 1.5 percent of funds for national 
activities to provide policy guidance, fund demonstrations and pilots, 
and disseminate best practices on serving older workers.
    The Department also proposes to clarify the income eligibility 
standard for SCSEP, and calls for specifying what participant income 
should be considered when the income eligibility test is applied. 
Standardizing the income eligibility for SCSEP assures that the program 
is administered in a consistent and equitable manner.
Focusing on Employment Outcomes
    The draft bill also reflects the Department's legislative principle 
of enhancing the employment focus of the program. Included in the draft 
bill is a provision to limit to two years, with a limited exception, 
the time for participants to obtain unsubsidized employment. The time 
limit encourages grantees to prepare their participants for work, 
invest in skills development, and work closely with local employers to 
provide meaningful work opportunities.
    In order to reinforce the short-term training aspects of the 
program, the draft bill, consistent with the Administration's proposal, 
eliminates most of the participant fringe benefits that are allowable 
expenditures under current law. The exceptions to this prohibition 
include benefits that are required by law (such as workers' 
compensation), the costs of physical examinations, and necessary sick 
leave that is not part of an accumulated sick leave program. Funds 
under the proposed legislation cannot be used for the cost of pension 
benefits, annual leave, accumulated sick leave or bonuses. It should be 
noted that many grantees have already eliminated fringe benefits, such 
as annual leave and cash outs of leave benefits. With that said, this 
provision brings SCSEP in line with other short-term training and 
employment programs administered by the Department, allowing for a more 
effective and cost-efficient administration of the program.
    The bill also incorporates the Department's proposal to allow a 
greater proportion of grant funds to be used for training and 
supportive services. Specifically, the current law requirement that 
``no less than'' 75 percent of grant funds be expended on wages is 
lowered to 65 percent, providing grantees with greater flexibility to 
use those funds to provide training to enhance workers skills and 
provide related services.
Strengthen Performance Accountability
    The draft bill also incorporates the Department's proposal to 
include the use of common performance measures, which holds all 
grantees accountable for entered employment, retention in employment, 
and earnings. Grantees would also track additional outcomes, such as 
the provision of community services that are unique to SCSEP. The 
common measures are currently being implemented under administrative 
authority. This change ensures that the statutory requirements reflect 
current administrative practice.
Streamline Program Structure
    One feature of the Administration's proposal not included in the 
draft bill is to streamline program structure by allocating funds 
exclusively to states according to a statutory formula. Under our 
proposal, each state would then competitively select one or more 
grantees to operate the program in their state. A competition would 
have to take place at least once during each three-year period. This 
method of awarding grants would simplify administration, eliminate 
duplication, reduce overhead costs, and create a more cohesive program. 
It also is consistent with the management recommendations included in 
the Program Assessment Rating Tool (PART) review of the SCSEP program. 
Eligible entities for state grants would include non-profit entities, 
for-profit entities, agencies of state government, or a consortia of 
agencies and/or organizations, including political subdivisions.
    The Department envisions that national aging organizations would 
continue to play a major role in operating the SCSEP program in the 
states. However, the program would be streamlined by avoiding the 
current situation of having multiple national sponsors and the state 
program operating side-by-side in a state, sometimes administering 
programs with small numbers of positions.
Closing
    Mr. Chairman and Members of this Committee, we believe the draft 
bill makes significant improvements to the SCSEP program. It better 
targets eligibility to those most in need, enhances the employment 
focus of the program, strengthens the performance accountability 
system, and better coordinates the program with the workforce 
investment system. We look forward to working with you and the Senate 
on reauthorizing Title V of the Older Americans Act. Working together, 
we are hopeful that this important legislation can be enacted this 
year.
    Mr. Chairman, this concludes my prepared statement. At this time I 
would be pleased to answer any questions that you or other Committee 
members may have.
                                 ______
                                 
    Chairman Tiberi. Thank you both for your testimony. I want 
to defer my time or exchange my time with my colleague from 
Nevada, Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman. I appreciate the 
hearing today and all the work that has been put into this 
legislation on both sides of the aisle. I appreciate it 
greatly. Thank you for your testimony.
    I do have a couple of questions. There seems to be a strong 
consensus that our collective goal should be to minimize 
nursing home care in favor of community-based care. What are 
the top two or three actions that you think should be taken to 
achieve this goal?
    Ms. Carbonell. Congressman, I think that what we are doing 
right now--first of all, I think I want to say, to begin with, 
that the act is one of the most important pieces of legislation 
that exists and has transpired over the last 40 years to 
create. The only piece of legislation that the main mission is 
to keep people at home in their communities.
    I think that building up to what--the system of care that 
we have built throughout the entire Nation serves as a very 
important core as we move forward.
    I think that if we look at the kinds of things that we need 
to do, first is we really need to modernize the way that we 
provide long-term care access and assistance in this country. I 
think that at present there is an institutional bias to long-
term care access. People are really often denied a less 
expensive community care option at the expense of institutional 
placement.
    I think that the experience in the 4 years that we have 
been funding and investing in aging and disability resource 
centers have really given us the opportunity to foster that 
integration of both the information and the access systems for 
long-term care between CMS or ourselves.
    I think the second way that we can improve the ability to 
achieve a better access, or in favor of home and community-
based care, is really allowing the Older Americans Act network 
to serve private-pay clients. Currently we have restrictions 
that really deny high-risk individuals of a viable low-cost 
option to prevent spend-down to Medicaid. So we really need to 
target high-risk people and serve them before they are placed 
in nursing homes and spend-down to Medicaid.
    Giving us the authority to be able to serve those private-
paid clients and add them to the core that we are able to serve 
is a second viable way.
    I think the third piece is the prevention piece. I think 
building our best science, our evidence-based health promotion 
programs, and modernizing the way that we focus our health 
promotion programs through nutrition and through other very 
important chronic disease management vehicles that have been 
tested at the Institutes of Health and our best research 
institutions is the third way.
    If we can delay and help delay the onset of those chronic 
conditions, or being able assist people with common simple 
tools to assist them with their lifestyle changes and 
management of their chronic conditions, I think that is the 
third-most important piece that we need to build into an 
integrated system. It is both modernizing the way we access, or 
people access, from a fragmented system right now to a more 
consumer-driven single point or ``no wrong door'' kind of 
approach; secondarily, giving us the ability to serve people 
that have the ability to pay before they spend out and end up 
in nursing homes.
    What we are doing is virtually giving us the ability to 
have those people spend their money in home and community-based 
care so they can remain at home, which is what they wish to do.
    Mr. Porter. Thank you. I don't have an additional question 
but just a comment on how successful the program has been in 
our State of Nevada and communities in the past. Not only the 
program, but a unique caliber of individuals who help with 
these programs. They are very special as they touch and provide 
such a change in lives for seniors.
    I applaud you and look forward to this bill being passed.
    Thank you.
    Chairman Tiberi. Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Ms. Carbonell, you have really supported the act with all 
of your comments. I appreciate listening to your presentation. 
You have praised program efforts that are successfully 
operating within limited budgets.
    Only last Friday, at our field hearing in Ohio, we heard 
the tremendous increase in population that is coming into this 
program. We also heard a strong, very emphatic call for 
additional financial resources.
    What is your recommendation to the administration in this 
regard?
    Ms. Carbonell. Well, the President's budget has been 
submitted and it stands there for the record. We would be 
pleased to talk to you about that if you need further details.
    I think the most important--the most important issue at 
hand is that we have built this network and that we manage--
that this network not only manages $1.2 billion of Older 
Americans Act funds, but actually manages a total of about $4 
billion both in Older Americans Act and Medicaid waiver dollars 
and other State- and community-based programs. So that means 
that the Older Americans Act was never intended to be the sole 
source of funding for aging programs in our communities.
    The beauty of this act--and I think that all of us that 
have worked from the community level into all the levels of 
involvement at the State and the Federal level--the beauty of 
the act has been the network that we have created. It leverages 
$2 for every dollar of Federal investment that we put in 
communities. For specialized and home and community-based 
services, we leverage $3 for every dollar we invest.
    Mr. Hinojosa. Ms. Carbonell, I am going to interrupt you 
because I want to ask some questions of Mr. Bishop also.
    I have to agree to disagree with you. I gave in my remarks 
that the amount of the money that is being spent today, based 
on 1980 figures, is cut in half. So if the purchasing power is 
cut in half, and the population coming into the programs is 
rising at about 50 percent during the last 20 years, it doesn't 
square to hear what you are just telling me. So I am just going 
to agree to disagree with you, and my recommendations are going 
to be that we find the additional resources.
    I would like to ask Mr. Bishop--I also wish to thank you 
for your comments. It is interesting that you haven't included 
any statements on why the Department wants to increase the 
placement of clients from 20 percent to 30 percent. We have 
asked for data as to the placement rates regarding the younger 
age, 55, to the older workers, age 65.
    Do you have any data that would give us a better 
understanding of what this legislation is trying to do and what 
it would--indeed, what the impact would be?
    Mr. Bishop. Thank you, Congressman. I apologize if there is 
data you feel you have asked for that you haven't received. We 
have tried to be responsive to the committee and each of the 
individual members. If there are some particular data points or 
sets that you have not received, we will make sure we get those 
up here right away.
    Let me just overall--that this particular law is a 
balancing act in Title V. The balancing act is between the goal 
of providing community service and the inherent positives as a 
result to communities of those activities, and then also 
helping the individual participants within the program in terms 
of their personal economic needs and employment goals.
    What we essentially are trying to craft here is a better 
balance between those two principles. In no way do we feel that 
our legislative proposals in any way restrict or hurt the 
community service part of this legislation. In fact, we don't 
get rid of it, we don't diminish it in any way. What we try to 
do, then, is enhance the employment side, in that we see 
community service as one important avenue by which many 
individuals can gain the skills necessary to them to enter into 
unsubsidized employment.
    We feel it is important in two respects why we need to help 
on the employment side. First is that for that individual 
participant, it is more likely that he or she can make higher 
wages in the unsubsidized market than they can on minimum wage 
in the program over a long period of time.
    Second, for every individual who stays on the program, 
there is another individual sitting behind that person who 
can't get into the program because that person is staying in a 
slot. So what we have tried to do through issues like raising 
the minimum threshold to 30 percent and some of the other 
things I talked about in my testimony, is assure that those 
individuals have the best opportunity to gain higher wages 
through unsubsidized employment to meet their own personal 
economic goals and needs, while at the same time not 
diminishing the community service part of the program.
    Mr. Hinojosa. Mr. Chairman, my time has run out. But if 
there is an opportunity before this panel leaves, I would 
certainly like to ask another question.
    With that, I yield to give other members an opportunity to 
ask questions.
    Chairman Tiberi. Yes, thank you. I thank you, Mr. Hinojosa. 
It would be my intent to come back around to you, depending on 
the time limit of the witnesses.
    Kind of just piggybacking on the comments that Mr. Hinojosa 
just talked about with respect to the issue of SCSEP, how does 
DOL work with AOA on administering that program?
    Mr. Bishop. Well, we have the primary responsibilities, 
obviously, for administering the program, but we try to 
coordinate, when necessary and where necessary, with AOA. I 
think we have had a very positive working relationship during 
the time we have both been in the administration. Josefina, the 
Assistant Secretary, has been there 4 or 5 years now, and I 
think we have been there--my assistant secretary and myself 
have been. It was one of our early connections. We have tried 
to stay in touch and contact and coordinate issues as we have 
gone along.
    Ms. Carbonell. If I may add, Mr. Chairman, the other 
vehicle that we also use is, of course, at the regional level 
and the State plans, both our State plans under the Older 
Americans Act on the program side, but also on the employment 
side, we coordinate to make sure that it is in line with the 
overall direction of the State to make sure that we include the 
opportunities for additional employment opportunity, so that if 
we access individuals through our network that are in need of 
employment, that we make sure that we refer them to the 
appropriate channels to the employment programs present in the 
State for employment; that we also serve as hosts, serve as 
hosts for the community service part, creating a whole array of 
training opportunities and on-the-job training for these 
individuals, particularly in limited English-speaking minority 
communities where we know that this is a very important vehicle 
to transition from low skills to some kind of average skills, 
so people can access employment, other employment training 
skills. Then, of course, with being able to coordinate at the 
local level between the employment and training of the 
Workforce Investment Act network and our aging network, our 
aging services network.
    Chairman Tiberi. Thank you. Ms. Carbonell, you have made a 
pretty strong case to me, previous to this hearing, that 
reauthorization of the Older Americans Act can have significant 
savings to mandatory programs like Medicaid and Medicare 
through a variety of avenues of prevention and delaying or 
maybe preventing someone from going into a nursing home.
    Can you talk to the committee for the record a little bit 
about that, stand upon your testimony?
    Ms. Carbonell. I think if you look at the Choices for 
Independence proposal, of course our Choices for Independence 
proposal is a reasonable proposal with, of course--in the 
limited financial times that we are living here, the 
President's budget for the Choices for Independence is included 
at the tune of $28 million as a starting point. But it builds 
upon some of the strategic investments that we have been doing 
in our discretionary line item of Title IV for 5 years now.
    Again, we believe that the Choices has the same kind of 
potential to expand the use of low-cost community care options 
without increasing public cost, particularly over the long run. 
Of course, assigned work in a strategic period of time, we are 
using Choices that are really based on the same, the kind of 
best practices and cost savings potential that underpinned the 
changes now occurring in Medicaid, including the changes 
contained in the Deficit Reduction Act just recently passed.
    Choices is not a new policy direction. At its core, the 
reality is that the strategy for leveraging the unique assets 
of the act and of the services network already in place in 
communities across the country is to support our current 
rebalancing agenda; again, assisting people to provide people 
with more options to remain at home. We will do this also 
through the private-pay individuals, allowing people to have 
the ability to pay and to use their own resources. And, again, 
for the three very important integrated approaches--the 
activities, the access point, the assistance and the 
prevention--to evidence-based programs for maintaining chronic 
conditions, and then a targeting of the highest risk of 
institutionalization and spend-down.
    Again, we also believe that once a private-pay individual 
really reaches a nursing home or ends up in a nursing home, 
there goes all the money for that individual. We want to have 
the ability to be able to reach those people and intervene at 
that point in time and provide them with the opportunity to 
choose home- and community-based care options, which is what 
they want to do right now.
    Chairman Tiberi. Thank you. My time has expired. I 
recognize the gentleman from Maryland, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, thank you and Mr. 
Hinojosa for your leadership on that. I just want to associate 
myself with the earlier comments both of you made about the 
importance of the Older Americans Act and thank our witnesses 
out here for their testimony.
    Mr. Bishop, I would like to focus a little on the proposed 
changes to SCSEP. As I am sure you are aware, they have 
generated some concerns in communities, certainly in my 
district and other places around the country.
    First, let me sure I get my math straight. As I understand 
from your testimony, with the current appropriation the funding 
results in approximately 92,300 people right now; that is from 
55 on up. Is that correct?
    Mr. Bishop. Correct.
    Mr. Van Hollen. Your proposal is to change the eligibility 
from 55 to 65. I understand from your testimony about 56 
percent are currently between 55 and 64.
    Mr. Bishop. That is correct, yes.
    Mr. Van Hollen. Rough math says about 50,000 people who are 
currently eligible, and part of the program will no longer be 
part of the program under your proposal; is that right?
    Mr. Bishop. Correct.
    Mr. Van Hollen. Do you have any accommodation in here for 
people? In other words, if you are 57 years old now and you are 
in the program, under your proposal are you out, or is there 
some accommodation for a transition period?
    Mr. Bishop. There are accommodations for a transition. In 
fact, the draft bill that we are discussing has some of those 
accommodations, and we are in concurrence with those kinds of 
discussions around making accommodations, both in terms of a 
transition--in fact, in terms of permanently in the program, 
there may be situations where it makes sense for an individual 
55 to 64 who may need to access the program. But under our 
proposal, and really reflected in the draft bill, those would 
be on--there is a list of exceptions as to those individuals.
    Mr. Van Hollen. Right. I know there are some exceptions. 
Those will continue even under the existing bill; I mean, under 
the proposed changes. But if you are, for example, 57 years old 
now, are you assured, assuming you meet all the other 
requirements, are you assured that you can continue in the 
program. Or would your proposal knock you off?
    Mr. Bishop. We would propose a transition period so that 
individuals in that age group currently in the program could 
complete their program. We wouldn't just kick those people off.
    Mr. Van Hollen. Beyond the 2-year period you are talking 
about.
    Mr. Bishop. Well, that would be up to Congress in the draft 
bill to decide how they wanted to handle that transition. That 
is something we could discuss. We could propose a 2-year time 
limit. If there was a 2-year time limit implemented, you could 
start the clock at that point upon enactment of the 
legislation, or there could be a transition period indefinitely 
for those individuals.
    Mr. Van Hollen. Right. I am not sure I am persuaded it is a 
good idea to knock off these people. If we did, I think there 
should be a transition to the program.
    In terms of the group that are now currently over 65 years 
old, do you have a--what kind of waiting list do you have in 
terms of the slots?
    Mr. Bishop. I don't have any data on exact waiting lists. 
Again, we propose 65 years and older. As you have to do in many 
of these programs, you have to make decisions in terms of 
targeting. We just feel that, given the fact that we have a One 
Stop Career system that does serve older workers, it has the 
capacity to server more older workers--that those that are in 
our country are really thought of from 55 to 64 as being 
working age; that those individuals, many of those individuals, 
could access and need access to services at One Stop Career 
Centers system.
    Currently the program, even with 55 to 64, only serves 
about 1 percent of the eligible population. It really is a 
question of given finite resources, given limited resources and 
targeting, who should the program be targeted at? We think 
those low-income seniors 65 or older are the ones that we 
should be targeting.
    Mr. Van Hollen. Just so I understand your testimony, the 
rationale for this change is more because you think there is an 
existing system in place, rather than to free up resources to 
make room for more people over 65--is that right--because you 
don't have any data on a waiting list?
    Mr. Bishop. We don't keep a national waiting list per se. 
We can go to each of the grantees and ask them, do you have a 
waiting list for that age cohort, and get that information for 
you if you would like us to. We don't keep a national waiting 
list per se.
    But you are correct in saying that the main premise behind 
our proposal is that we ought to target those that are 65 and 
older because we do have a comprehensive existing One Stop 
program. Again, 99 percent of the individuals will need those 
services potentially anyway. We feel that the program should be 
targeted to 65 and older. OK.
    Mr. Van Hollen. But it is very possible, as I understand 
your testimony, that once these changes go into place, a lot 
fewer people will be participating in the SCSEP program?
    Mr. Bishop. No, we don't believe that actually. We would 
maintain funding that would allow for 90,000-plus participants 
that would continue to be served, but they would need to be 65 
and older, with some limited exceptions potentially for 55 to 
64.
    Mr. Van Hollen. You have a 2-year provision in here now 
that you go off after 2 years.
    Mr. Bishop. Correct.
    Mr. Van Hollen. So you believe today, you have got 92,300 
or 55 to 64, you believe there are at least 50,000, 65 and up?
    Mr. Bishop. I do. But we have currently right now, 9 
million Americans who are within that total age cohort who are 
potentially eligible for the program. So I think probably our 
grantees could find 50,000 people out there that need services. 
I do believe those individuals are there and could be served.
    Chairman Tiberi. Thank you.
    Can you all stay for a second round? You are so popular. I 
am going to call on my Ranking Member here from Texas, Mr. 
Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I will try to be 
shorter than the first 5-minute period you gave us. But I would 
like to remind Mr. Bishop that you said that if we weren't 
getting enough information, you would get it to us.
    Mr. Bishop. Yes.
    Mr. Hinojosa. That is the requirement with regard to the 
questions that I asked about the placement from 20 to 30 
percent. And then the second one was the placement rates, 
changing the age from 55 to 65. I would like to get that in 
writing so that I can see your analyses.
    Mr. Bishop. OK.
    Mr. Hinojosa. If you will, please, add a third request from 
me. That is, I like computer-generated what-if scenarios that 
would show me what it would do if we could improve this 
legislation by phasing in that 55 to 65 over a 5-year period, 
so that we would start with the 57, 59, 61s, all the way to 65, 
every year moving it up too, so that it is phased in rather 
than making that giant step from 55 to 65. I would like to see 
what the impact is financially.
    Mr. Bishop. From a data perspective; numbers?
    Mr. Hinojosa. Yes.
    [The information referred to follows:]

U.S. Department of Labor Responses to Follow-Up Questions From Messrs. 
                        Hinojosa and Van Hollen

Question 1. Unsubsidized Employment Performance
    Mr. Hinojosa: How many grantees meet 20% and 30% unsubsidized 
employment performance measures for age groups 55-64 and 65+?
            ETA response:
    The common measure for ``entered employment''* is based on data 
collected during Program Year (PY) 2004 (July 1, 2004-June 30, 2005) 
and represents the most recent data for a complete program year 
available:
---------------------------------------------------------------------------
    *This response provides the information requested under the common 
measure definition of entered employment, which differs from the 
current SCSEP performance definition of placement. The difference 
between the definitions is that the current SCSEP placement performance 
measure has a duration requirement whereas the entered employment 
common measure does not.
---------------------------------------------------------------------------
    <bullet> Seven of the 13 national grantees were within 5 percent of 
the 30 percent threshold.
    <bullet> Forty-three of the 56 state and territorial grantees were 
within 5 percent of the 30 percent threshold.
    <bullet> The average entered employment rate for all national 
grantees was 36.7 percent.
    <bullet> The average entered employment rate for all state and 
territorial grantees was 35 percent.
    Attachment A details PY 2004 common measure entered employment 
rates for all SCSEP grantees, by age group.
Question 2. Waiting Lists
    Mr. Van Hollen: What is the number of people on SCSEP grantees 
waiting lists, by age group?
            ETA response:
    SCSEP grantees are not required to maintain waiting lists. Although 
some grantees do maintain waiting lists, their lists are not 
necessarily comparable because DOL does not require a standardized 
method of tracking. However, some SCSEP grantees have been voluntarily 
keeping track of their waiting lists and reporting them along with 
their required performance metrics. As of June 30, 2005, the last day 
of the most recently completed Program Year, there were over 2,100 
people on these waiting lists. Grantees do not track waiting lists by 
age.

     WAIT-LISTED SCSEP PARTICIPANTS AT THE END OF PROGRAM YEAR 2004
------------------------------------------------------------------------
                         Grantee                           Waiting list
------------------------------------------------------------------------
State grantee waitlist total............................             914
National grantee waitlist total.........................           1,254
                                                         ---------------
      Nationwide waitlist total.........................           2,168
------------------------------------------------------------------------

    It is important to note that the waiting lists are not a reflection 
of the number of people who could be served by a reauthorized SCSEP 
targeting resources to those older than 65. Waiting lists only reflect, 
for grantees that maintain such lists, those eligible individuals who 
approach a grantee for a placement and do not reflect the thousands of 
individuals that could be reached by grantees through outreach efforts 
to underserved populations and other recruitment strategies. In 2000, 9 
million people were eligible for SCSEP programs, a number that has 
since increased due to overall demographic trends.
Question 3. Phased-in Age Eligibility
    Mr. Hinojosa: In order to construct a ``what if'' scenario where 
SCSEP age eligibility was phased in from 55 to 65 over 5 years, what is 
the unsubsidized employment rate for individuals 55-57, 57-59, 59-61, 
61-63, and 63-65?
            ETA response:
    The table below illustrates one possible result of phasing-in age 
eligibility. The first row presents the rate of exits for unsubsidized 
employment under the current eligibility rules, using all exiters from 
the first two quarters of this program year (July 1, 2005 through 
December 31, 2005). Each succeeding row presents the change in the rate 
of exits for unsubsidized employment when the age range is made two 
years older. As evident from the table, there is approximately a 2 
percentage point decrease in exits for unsubsidized employment for each 
2 year increment in the lower age limit.

                    EXITS FOR UNSUBSIDIZED EMPLOYMENT
------------------------------------------------------------------------
               Age ranges                     Number          Percent
------------------------------------------------------------------------
55 and older............................           9,199           41.2%
57 and older............................           7,308           39.1%
59 and older............................           5,690           36.6%
61 and older............................           4,455           34.5%
63 and older............................           3,391           32.1%
65 and older............................           2,577           30.3%
------------------------------------------------------------------------

    Please note that these figures are based on current participants, 
grantees, and program structure. A reauthorized SCSEP program under the 
draft bill will provide more flexibility to grantees to provide the 
training needed for older workers to move into unsubsidized employment, 
and will hold grantees accountable for their performance.
Question 4. Unsubsidized Employment Performance
    Mr. Van Hollen: How many exiters move into unsubsidized employment, 
by age?
            ETA response:
    Forty-eight percent of SCSEP program participants aged 55-64.99 
move into unsubsidized employment upon exit of the program. Thirty 
percent of participants who are older than 65 move into unsubsidized 
employment upon exit of the program. Note that as the current SCSEP 
program does not have a time limit, many participants who exit without 
finding an unsubsidized employment placement do so because of failing 
health or death.
    Attachment A provides unsubsidized employment rates by grantee.
Attachment A

                    SCSEP PARTICIPANTS WHO ENTERED UNSUBSIDIZED EMPLOYMENT AFTER PROGRAM EXIT
                          [First half of program year 2005--July 1, 2005-Dec 31, 2005]
----------------------------------------------------------------------------------------------------------------
                                                                55-64.99     55-64.99                    65+
                                                                (count)     (percent)   65+ (count)   (percent)
----------------------------------------------------------------------------------------------------------------
                                                NATIONAL GRANTEES

National Council on the Aging, Inc..........................          395        0.578          184        0.394
Forest Service..............................................          143        0.500           68        0.360
AARP Foundation.............................................         2163        0.508          720        0.347
Senior Service America, Inc.................................          813        0.502          350        0.329
National ABLE Network.......................................           59        0.399           33        0.324
National Caucus & Ctr on Black Aged.........................          147        0.420           91        0.311
Experience Works............................................         1161        0.451          435        0.269
Mature Services.............................................           54        0.545           18        0.261
Easter Seals................................................          128        0.456           77        0.247
SER--Jobs for Progress National.............................          223        0.415           85        0.211
Asociacion Nacional pro Personas Mayores....................          106        0.533           22        0.210
National Asian Pacific Center on Aging......................           78        0.451           18        0.167
National Indian Council on Aging............................           49        0.345           15        0.165
                                                             ---------------------------------------------------
      Total Nat'l Grantees..................................         5519        0.486         2116        0.307
                                                             ===================================================
                                                      STATE

Rhode Island................................................            3        0.429            8        0.800
Oregon......................................................           14        0.269           12        0.667
Iowa........................................................           28        0.718            7        0.538
Virginia....................................................           25        0.510           14        0.467
Mississippi.................................................            9        0.429            7        0.438
South Carolina..............................................           13        0.500            6        0.429
New Mexico..................................................            1        0.167            3        0.429
North Carolina..............................................           26        0.510           17        0.415
Texas.......................................................           79        0.622           33        0.413
Colorado....................................................           12        0.632            5        0.385
Alabama.....................................................           23        0.575           14        0.359
Guam........................................................            4        0.250            8        0.348
Georgia.....................................................           41        0.519           18        0.340
Maine.......................................................            7        0.412            7        0.333
Tennessee...................................................           16        0.444            8        0.320
New York....................................................           34        0.382           31        0.320
Connecticut.................................................           21        0.500            6        0.316
Delaware....................................................           30        0.536           11        0.306
Maryland....................................................            7        0.318            3        0.300
Oklahoma....................................................           11        0.478           11        0.297
Ohio........................................................           33        0.440           17        0.288
Wyoming.....................................................           14        0.560            2        0.286
Alaska......................................................           50        0.476            8        0.286
District of Columbia........................................            9        0.474            2        0.286
Indiana.....................................................           28        0.424           10        0.286
Illinois....................................................           30        0.455           15        0.283
Florida.....................................................           92        0.455           46        0.275
Washington..................................................           24        0.615            3        0.273
Arizona.....................................................            8        0.267            6        0.273
Wisconsin...................................................           33        0.440            8        0.267
Hawaii......................................................           14        0.424            9        0.265
Kansas......................................................            7        0.500            5        0.263
Pennsylvania................................................           61        0.442           23        0.258
Massachusetts...............................................           24        0.511            9        0.250
Arkansas....................................................           12        0.387            3        0.250
Utah........................................................           17        0.378            4        0.250
Nevada......................................................           18        0.340           12        0.245
Nebraska....................................................            6        0.400            3        0.231
Montana.....................................................            7        0.350            3        0.231
Minnesota...................................................           14        0.341            4        0.222
Kentucky....................................................           16        0.271            8        0.222
New Jersey..................................................           10        0.303            6        0.207
Virgin Islands..............................................            1        0.167            1        0.200
West Virginia...............................................            8        0.421            2        0.182
Michigan....................................................           26        0.406            5        0.172
California..................................................           85        0.464           15        0.161
Louisiana...................................................           14        0.424            2        0.100
Missouri....................................................           12        0.293            3        0.083
South Dakota................................................            8        0.333            1        0.067
Idaho.......................................................            5        0.455            0        0.000
New Hampshire...............................................            2        0.400            0        0.000
Vermont.....................................................            5        0.294            0        0.000
Puerto Rico.................................................            1        0.083            0        0.000
American Samoa..............................................            0        0.000            0        0.000
Mariana Islands.............................................            0        0.000            0        0.000
North Dakota................................................            0        0.000            0        0.000
                                                             ---------------------------------------------------
      State grantees........................................         1098        0.445          464        0.287
                                                             ===================================================
      Nationwide............................................         6617        0.479         2580        0.303
----------------------------------------------------------------------------------------------------------------
Numbers in bold indicate that the grantee failed to meet the 20% unsubsidized employment rate performance target
  for participants older than 65. Numbers in italic indicate that the grantee exceeded 30% unsubsidized
  employment for participants older than 65.


    AVERAGE DURATION IN PROGRAM FOR NATIONAL GRANTEES BY AGE CATEGORY
                             [Exiters only*]
------------------------------------------------------------------------
                                                               Average
           Grantee              Age category       Number        days
------------------------------------------------------------------------
AARP........................          55-59.99        4,491          181
                                      60-64.99        2,994          218
                                   65 and over        3,651          387
------------------------------------------------------------------------
National Able Network.......          55-59.99          151          215
                                      60-64.99          107          306
                                   65 and over          189          379
------------------------------------------------------------------------
Asociacion Nacional Pro               55-59.99          221          413
 Personas Mayores...........
                                      60-64.99          172          534
                                   65 and over          190          434
------------------------------------------------------------------------
Easter Seals................          55-59.99          390          202
                                      60-64.99          291          262
                                   65 and over          669          326
------------------------------------------------------------------------
Experience Works............          55-59.99        2,340          578
                                      60-64.99        1,752          782
                                   65 and over        2,884        1,008
------------------------------------------------------------------------
Forest Service..............          55-59.99          394          490
                                      60-64.99          338          682
                                   65 and over          510          653
------------------------------------------------------------------------
Mature Services.............          55-59.99          181          231
                                      60-64.99          144          265
                                   65 and over          248          392
------------------------------------------------------------------------
National Asian Pacific                55-59.99          154          381
 Center on Aging............
                                      60-64.99          161          564
                                   65 and over          184          642
------------------------------------------------------------------------
National Caucus and Center            55-59.99          306          428
 on Black Aged..............
                                      60-64.99          337          650
                                   65 and over          788          671
------------------------------------------------------------------------
National Council on the               55-59.99          694          282
 Aging......................
                                      60-64.99          566          419
                                   65 and over          840          548
------------------------------------------------------------------------
National Indian Council on            55-59.99          203          404
 Aging......................
                                      60-64.99          136          404
                                   65 and over          199          446
------------------------------------------------------------------------
SER-Jobs for Progress.......          55-59.99          485          245
                                      60-64.99          494          303
                                   65 and over          867          409
------------------------------------------------------------------------
Senior Service America......          55-59.99        1,813          278
                                      60-64.99        1,378          363
                                   65 and over        2,436          446
------------------------------------------------------------------------
All National Grantees.......          55-59.99       11,823          312
                                      60-64.99        8,870          422
                                   65 and over       13,655          568
------------------------------------------------------------------------
*Numbers include only those who have exited the program, based on PY2004
  data. Numbers in bold indicate duration higher than national average.


    AVERAGE DURATION IN PROGRAM FOR NATIONAL GRANTEES BY AGE CATEGORY
                           [All participants*]
------------------------------------------------------------------------
                                                               Average
           Grantee              Age category       Count         days
------------------------------------------------------------------------
AARP........................          55-59.99        3,208          302
                                      60-64.99        2,237          371
                                   65 and over        3,516          479
------------------------------------------------------------------------
National Able Network.......          55-59.99          142          231
                                      60-64.99          111          361
                                   65 and over          196          448
------------------------------------------------------------------------
Asociacion Nacional Pro               55-59.99          216          664
 Personas Mayores...........
                                      60-64.99          222          756
                                   65 and over          246          777
------------------------------------------------------------------------
Easter Seals................          55-59.99          331          308
                                      60-64.99          370          381
                                   65 and over          980          452
------------------------------------------------------------------------
Experience Works............          55-59.99        2,921          750
                                      60-64.99        2,360        1,090
                                   65 and over        4,689        1,216
------------------------------------------------------------------------
Forest Service..............          55-59.99          491        1,273
                                      60-64.99          590        1,198
                                   65 and over        1,022          988
------------------------------------------------------------------------
Mature Services.............          55-59.99          132          306
                                      60-64.99           96          453
                                   65 and over          265          516
------------------------------------------------------------------------
National Asian Pacific                55-59.99          198          444
 Center on Aging............
                                      60-64.99          210          536
                                   65 and over          294          509
------------------------------------------------------------------------
National Caucus and Center            55-59.99          241          815
 on Black Aged..............
                                      60-64.99          332          925
                                   65 and over          781          869
------------------------------------------------------------------------
National Council on the               55-59.99          570          507
 Aging......................
                                      60-64.99          474          770
                                   65 and over        1,101          775
------------------------------------------------------------------------
National Indian Council on            55-59.99          185          371
 Aging......................
                                      60-64.99          164          392
                                   65 and over          252          442
------------------------------------------------------------------------
SER-Jobs for Progress.......          55-59.99          517          317
                                      60-64.99          514          403
                                   65 and over        1,195          522
------------------------------------------------------------------------
Senior Service America......          55-59.99        1,344          377
                                      60-64.99        1,231          445
                                   65 and over        2,365          505
------------------------------------------------------------------------
All National Grantees.......          55-59.99       10,496          516
                                      60-64.99        8,911          685
                                   65 and over       16,902          761
------------------------------------------------------------------------
*Includes all participants still active as of June 30, 2005. Numbers in
  bold indicate duration higher than national average.


         NATIONAL GRANTEES WITH AVERAGE DURATION OVER TWO YEARS
                           [All participants*]
------------------------------------------------------------------------
                                                          Percent over 2
                         Grantee                               years
------------------------------------------------------------------------
AARP....................................................           26.00
National Able Network...................................           39.70
Asociacion Nacional Pro Personas Mayores................           40.30
Easter Seals............................................           32.20
Experience Works........................................           51.10
Forest Service..........................................           48.70
Mature Services.........................................           44.30
National Asian Pacific Center on Aging..................           38.60
National Caucus and Center on Black Aged................           47.70
National Council on the Aging...........................           37.20
National Indian Council on Aging........................           36.30
SER-Jobs for Progress...................................           48.00
Senior Service America..................................           37.40
National Grantee Average................................           38.90
------------------------------------------------------------------------
*Includes all participants still active as of June 30, 2005. Numbers in
  bold indicate duration higher than national average.

                                ------                                

    Mr. Hinojosa. Then my question to Ms. Carbonell is that I 
have a great deal of interest in the nutrition program that is 
used in your program. So I believe in your remarks you 
mentioned San Antonio Texas, which is in my great State of 
Texas, where diabetes is such a serious issue in our State, 
particularly to our Hispanic community. I want to know if you 
have evaluated this program and if yes, what are the results?
    Ms. Carbonell. Yes. As a matter of fact, one of the most 
important strategic investments that we have done in the last 
few years have been particularly funding evidence-based 
programs in areas, including nutrition, diabetes and chronic 
disease management, targeting particularly minority 
communities. As a matter of fact, we are funding 13 grants 
across this country with an additional 66 sites in other parts 
of the country.
    You have one right there in San Antonio, in your district. 
They are doing a terrific job. What is happening is that we are 
using the best science and implementing and bringing that 
science to bear, not by scientists but by our community 
providers, the ones that--trusted sources, where people turn 
for help in day-to-day activities, our aging services network--
and translating that best science into short week programs and 
intervention programs to prevent diabetes and to manage 
diabetes, chronic conditions in the community.
    We are seeing terrific results. The initial results will be 
in at the end of the year. We would be delighted to provide 
some additional information and the kinds of results that we 
are getting in San Antonio and other parts of the country by 
just targeting the best science; instead of leaving it off of 
the shelf, translating that into simple tools that people can 
manage.
    Mr. Hinojosa. I am a member of the Diabetes Caucus, and 
what I hear is different than what I am hearing you say: that 
the numbers are increasing. If you say we are doing a wonderful 
job in my State, would you provide me the data that supports 
the improvement so that I can study that?
    Ms. Carbonell. Absolutely. We would be delighted to be able 
to give in more detail the kind of work that we are 
strategically investing in those 13 sites.
    Mr. Hinojosa. I would like to see how it is being done, as 
you just mentioned, but I also want to see the numbers for the 
past 10 years, because our caucus is getting different 
information, and it is alarming. It is not just in the minority 
Hispanic and African American community. Central Texas, where I 
also represent counties like Bastrop, Colorado County, Fayette 
County, we have a huge European descent population, a lot of 
Polish, Czechoslovakian, German American. They have just as 
serious a problem with diabetes, many deaths.
    I am really concerned. I would like to see how your program 
is addressing this problem for all older Americans.
    Thank you, Mr. Chairman. That is all the questions I have, 
because I know we have another panel and I want to be fair to 
them. Thank you.
    Chairman Tiberi. I just have one question, kind of 
following up on the dialog earlier on older Americans' 
employment to you, Mr. Bishop.
    The Government Accountability Office has reported that the 
One Stop delivery system created under the Workforce Investment 
Act has not served older Americans well.
    How do you respond to concerns raised by GAO and others 
that WIA performance goals create a disincentive for One Stops 
for older workers in our country.
    Mr. Bishop. Thank you, Mr. Chairman. As you are well aware, 
over the last 3 years we have been working on how to improve 
the One Stop system with this committee and others, on how to 
improve the Workforce Investment System overall and strengthen 
it.
    But in the interim, what we have been doing as well is, 
again, we have to assume that the SCSEP program can only serve 
a finite number of individuals. So we have to get it right on 
the One Stop system side. The Government Accountability Office 
did point out that one of the issues is performance.
    Frankly, performance is probably the most difficult thing 
that government does, trying to figure out what it is that we 
want to accomplish with our programs. Really, the big issue 
around performance had to do with our earnings measure which I 
spoke about earlier. We used to measure really, historically, 
pre- and post-earnings.
    We used to look at what did somebody make prior to the 
program and what did they make after the program. Often, 
because they were maybe in wages--jobs before layoff that they 
could not achieve after training right away, that somehow the 
programs weren't successful, and it would make individuals, or 
providers, afraid to enroll people because of that earnings 
measure.
    We have fundamentally changed that earnings measure. We now 
look at average earnings, and we peg the expectation on 
earnings based on local labor markets rather than on individual 
pre- and post. So we think we have already undertaken major 
steps to address some of the findings that the Government 
Accountability Office found, especially with regard to the 
performance measurement system. We do believe the common 
measures of employment, retention, and earnings, based on 
average earnings, are the kinds of measures in an employment 
training program that makes sense.
    In addition, it streamlines the performance measurement 
system from what it is currently as well. So actually the 
reporting burden on grantees would be easier under our proposal 
than it is currently.
    Chairman Tiberi. Thank you. The final series of questions 
for this panel, the gentleman from Maryland, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Just to piggyback 
on the Chairman's point and the GAO report that I came out a 
number of years ago that did say that the Workforce Investment 
Act, the One Stops were not well designed to help this sort of 
contingent Americans, the age group. I do think that is a 
serious concern.
    I would also point out that as part of the administration's 
budget submission there, this year for WIA if you look at the 
request, there is a proposed 13.1 percent cut in funds. You are 
putting more people into the One Stop/ WIA system and asking 
them to take more with less funds.
    If I could ask you, Mr. Bishop, about this 2-year timetable 
now. As I understand it, if you limit the program to over 65, 
you are now saying if you are 66 years old, you get on the 
program; you are out at 68. Is that right?
    Mr. Bishop. Right.
    Mr. Van Hollen. What data do we have on the current 
graduation rate? If people are 65 and older, which we now limit 
it to, how many of them after 2 years, or within 2 years, are 
now going into nonsubsidized employment, private sector 
employment. Do we have those figures?
    Mr. Bishop. How many 65 and older are going in----
    Mr. Van Hollen. Within the 2-year----
    Mr. Bishop. We actually have the breakdown by grantee. If 
you look at exiters right now, under our current participants 
we have 65 and over, average days are about 568 days on the 
program, which is less than 2 years.
    Mr. Van Hollen. But do we know that those are all people 
going into unsubsidized employment, or are those just people 
who drop out of the program?
    Mr. Bishop. It is exiters from the program.
    Mr. Van Hollen. So that includes someone who just no longer 
participates as well.
    Mr. Bishop. It is a mix. Yes, it is a mix. So we would have 
to break that down further for you in terms of getting the 
unsubsidized employment.
    Mr. Van Hollen. I just want to understand the theory here. 
As you have pointed out, you already have an incentive to move 
on to nonsubsidized employment because typically that is above 
minimum wage as opposed to the pay you are getting, minimum 
wage. As I understand your theory, by sort of creating the 
cliff after 2 years, you are going to provide some added 
incentive that is not already out there in the marketplace?
    Mr. Bishop. Well, our proposal, again, we look at the 2-
year time limit, the fringe benefit piece and some of the other 
proposals as a package. Really what we are essentially trying 
to say is, this is a training program that leads to something 
else.
    We still have situations, a number of situations where we 
have individuals who are staying on for a longer period of time 
and view the community service assignment as their final job. 
For instance, if you are volunteering at a library as part of 
the community service assignment part-time, and you are staying 
on 5, 6, 7 years--and we have gotten letters of correspondence 
from Members of Congress asking about these kinds of 
situations--those individuals are viewing that as their end, as 
their job.
    Frankly, the library should be--if that employee is that 
valuable to that library, they should hire them as a full-time 
employee for the library, not have them continue on a program, 
because it does two things: One, it does keep that individual 
out of a potential labor market program where they might be 
better off. Second, it keeps other individuals from being able 
to access that slot and the opportunities that that community 
service assignment might provide to them.
    Again, what we are trying to do as a whole package is say 
let us enhance the employment and training focus of the program 
and assure that these are temporary assignments that lead to a 
permanent future and a permanent solution, rather than in some 
cases a permanent solution, that the individual may assume and, 
frankly, the host agency may like, because they are saying 
well, as long as this person is being paid out of Community 
Service funds or SCSEP, we will keep them on indefinitely and I 
don't have to pick up the H.R. cost of that individual.
    Mr. Van Hollen. If you could, if you could provide the 
committee with two figures, Mr. Chairman. One is if you have 
got any data regarding the waiting lists, 55 to 65, and 65 and 
up, that would be helpful. Because the overall assumption you 
are making here, which may prove to be true, is we want to 
provide these resources and target them in the areas of most 
need. I just want to find out whether or not the statistics 
support that.
    Second, if you are able to disaggregate the data with 
respect to people who are 65 and up, how many are currently 
going into new employment, nonsubsidized employment, as opposed 
to just leaving the program? That would be helpful in trying to 
make decisions on this.
    Thank you. I thank you, Mr. Chairman.
    Chairman Tiberi. Thank you both for your time and testimony 
and expertise today. We look forward to continuing to work 
forward through this process with you and both of your offices. 
Have a great day.
    We will now have our second panel of witnesses. I would ask 
them to please take their seats at the witness table. I will 
have some name tags there in front.
    Chairman Tiberi. The second panel is seated, and we are 
honored to have another distinguished panel with us today. 
First, with us from my left, the audience's right, we have with 
us the Governor of South Carolina--or, excuse me, not the 
Governor yet--the Lieutenant Governor of South Carolina, Andre 
Bauer.
    He is also a passionate advocate for the aging. In July of 
2004, the South Carolina General Assembly and the Governor 
transferred responsibility for South Carolina's Older Americans 
Act programs to the Lieutenant Governor's office. The 
Lieutenant Governor's Office on Aging is now South Carolina's 
State unit responsible for overseeing and strengthening the 
State's active aging network.
    The Lieutenant Governor was instrumental in the successful 
enactment of legislation that can serve as a national model for 
attracting more models to the field of geriatrics. The South 
Carolina Office of Aging uses an annual fund to support the 
education of physicians who specialize in geriatric medicine or 
psychiatry and agree to serve seniors within the State of South 
Carolina for at least 5 years.
    Thank you, Lieutenant Governor, for being here today.
    Mr. Vinsen Faris is the Executive Director of Meals-on-
Wheels of Johnson and Ellis Counties in Cleburne, Texas. He has 
served in this capacity for 18 years and has a long history of 
involvement in meal programs authorized by the Older Americans 
Act.
    He is a past member of the board and executive committees 
of the Meals-on-Wheels Association of America, the past 
president of the Texas Association of Nutrition and Aging 
Services Programs, and a member of the Tarrant Area Gerontology 
Society in the Texas Association of Aging programs. Mr. Faris 
has attended and presented at numerous workshops and seminars 
on aging services and nutrition. You have a great advocate, 
fellow Texan here to my right, as well.
    Mr. Richard Browdie, to my far right, is the president and 
CEO of the Benjamin Rose Institute in Cleveland, Ohio. The 
Benjamin Rose Institute is an organization that provides 
quality services, research and advocacy on issues related to 
the elderly, their families, and other caregivers.
    Mr. Browdie has a distinguished career in serving older 
Americans that spans over 3 decades. He served as the Secretary 
of Aging for the Commonwealth of Pennsylvania for 7 years, and 
is the Executive Director for the National Association on Aging 
in Washington, D.C.
    He has represented the States of Pennsylvania and Ohio in 
the 1995 to 2005 White House Conference on Aging. He was 
chairman on the Pennsylvania delegation to the 2000 U.N. 
Conference on Aging and a member of the U.S. Delegation to the 
2000 World Congress on Aging.
    You know, Mr. Hinojosa, if we were going to have a Texan on 
the panel, we had to balance it out with an Ohioan. That is an 
inside joke.
    To introduce our final witness, I will turn to the 
gentleman from Maryland.
    Mr. Van Hollen. Thank you, Mr. Chairman. And Dr. Cheung, I 
just want to make sure you knew the Chairman wasn't skipping 
over you because he missed you. It is because I asked for the 
honor of introducing you because of your work in Montgomery 
County and the Washington area in the congressional district I 
represent.
    Dr. Ling Cheung coordinates the Chinese American Senior 
Service Association, which is a nonprofit coalition of five 
Chinese senior groups in the greater Washington, D.C. Area and 
serves all senior organizations and seniors.
    Dr. Cheung graduated from Beijing University Medical School 
in 1956 and emigrated to the United States in 1977. She retired 
from the National Institutes of Health in 1997 and became a 
volunteer for senior services in Montgomery County. Dr. Cheung 
has worked with the Evergreen Senior Program, the Pan Asian 
Volunteer Health Clinic, and as I said, she is currently 
coordinating the Chinese American Senior Service Association.
    Chairman Tiberi. Welcome, Dr. Cheung.
    We will begin from my left with the Lieutenant Governor. I 
would like to remind everybody before the Lieutenant 
Governorbegins that you will have 5 minutes to recap your 
written testimony. Your written testimony will be submitted for 
the official record for the subcommittee.
    You will have a series of lights that you will see, 
beginning with green; then you will see an orangish-yellowish 
color, which will mean you begin to wrap up; and then when the 
red button occurs, if you could try to wrap it up as quickly as 
possible. I am pretty lenient on that, but we do have four 
panelist, and we have Members here who I know have busy 
schedules.
    So if we can begin, and then we will have a series of 
questions and answers as well.
    Lieutenant Governor.

 STATEMENT OF HON. ANDRE BAUER, LIEUTENANT GOVERNOR, STATE OF 
                         SOUTH CAROLINA

    Mr. Bauer. Chairman Tiberi, distinguished members of the 
subcommittee, I want to thank you for allowing me to be here. 
Every day is a great day, and I am honored to discuss the 
reauthorization of the Older Americans Act.
    I would like to share a few stories with you beginning with 
the elder-ready community of Chesnee, which is located in 
Spartanburg County in the northwest part of our State. Chesnee 
has about 2,300 residents, and more than 600 of these are 
members of the VSP Club, which is a local senior center that I 
have actually gotten to visit on several occasions in 
conjunction with the national You Can Steps for Healthier Aging 
Program, which is sponsored by the Administration on Aging.
    We have held a dozen or more You Can events throughout our 
State, and last year we urged seniors to take personal 
responsibility to improve their health and quality of life. It 
is really simple. It allows making better lifestyle decisions 
about tobacco, exercise and nutrition. Leaders in Spartanburg, 
which is actually in Representative Inglis' district, have 
converted the bottom floor of a high-rise senior apartment 
building into a senior center. They are now talking about 
working with Medicare and Medicaid to bring home- and 
community-based services to seniors served by the Spartanburg 
Housing Authority. They want to help seniors living in public 
housing maintain their independence and avoid going into far 
more costly nursing homes.
    That is the type of forward-thinking that is woven into the 
President's proposed reauthorization of the Older Americans 
Act, which was the No. 1 priority of the White House Council on 
Aging, and I actually was able to attend on behalf of our 
State.
    Now, do not misunderstand me. Nursing homes play a valuable 
role, but we simply cannot afford to pay for a nursing home bed 
for everyone who might actually need one. So when we find 
innovative thinking occurring like in Spartanburg, let's open 
the gates whenever and wherever we can.
    Dr. Michael Stogner is also here with me today. Dr. Stogner 
is the AAA director who is not only involved with the Chesnee 
and Spartanburg projects, but he is providing leadership to 
build South Carolina's third Aging and Disability Resource 
Center, which I was fortunate to be around in when South 
Carolina opened its first one in Aiken, South Carolina. Almost 
as soon as they opened that, over one-third of the calls were 
coming from outside their service areas. In the meantime, that 
same area has a marvelous what I think is an innovation in 
transportation being attempted by a lady named Miss Basham of 
the AAA, and she is working with a multitude of different 
agencies that receive tax dollars to provide transportation to 
the public. But what she is doing different is she has taken an 
idea funded with seed money from the Administration on Aging 
and CMS, and she is harnessing technology to coordinate all 
publicly funded transportation so the empty seats can be 
filled, and we do not have actually any empty seats anymore.
    I said South Carolina is building for the future by 
positioning for their senior boom, and currently they are the 
fifth biggest State in the country for the influx of seniors. 
We believe technology, data, research can allow us to make 
evidence-based decisions to give us the best results as we 
invest our scarce tax dollars. South Carolina may be unique in 
its creation of a senior data cube, which links together large 
data bases so they may be cross-referenced, and we have done 
this with a lot of private funding.
    Preliminary conclusions are showing us the direct 
correlation between the intensity of Older American services 
and the avoidance of ER visits and in-patient admissions, which 
I think is very, very important. While we can project the cost 
savings to our State in the Medicaid program, I think there is 
a tremendous savings not only to Medicaid, but Medicare 
programs as well at the Federal Government level.
    As we talk about reauthorizing the Older Americans Act, 
perhaps the major message is while Older Americans Act services 
are not expensive programs as a whole, they are the foundation 
for programs and services that can save tax dollars.
    Your invitation to me today to testify asked for a 
description about what the State of South Carolina is doing to 
help older Americans live a more healthy and independent life. 
And you asked me to discuss proposed amendments to strengthen 
programs and services for older Americans administered by the 
Administration on Aging. I have got some specific 
recommendations as well as a genuine endorsement for the Older 
Americans Act. I have included those, but just a brief summary.
    First I want to endorse Choices for Independence, the 
centerpiece of the reauthorization proposal. Not only does 
Choices for Independence give seniors more control, but we have 
experienced in South Carolina through our waiver an annual 
Medicaid savings of $1,713 per participant.
    Second, we want to endorse cost sharing. It allows greater 
flexibility at the local level and will encourage innovative 
ways of service delivery.
    Third, we recommend the Senior Community Service Employment 
Program be reauthorized. We would ask you to maintain the age 
of 55 because the sooner we can provide job-training skills to 
help people be independent, the better off they are.
    Fourth, we recommend clarification within the Nutritional 
Services Incentive Program and recommend consolidation of 
services funded under Part C to reduce unnecessary 
administrative expense and paperwork.
    Fifth, we would support increase in Title VII to protect 
our most vulnerable institutionalized seniors.
    Finally, we recommend a technical change regarding grant 
income, recommending the same language in the regulation be 
placed within the act.
    In conclusion, I want to thank you, Mr. Chairman, members 
of the committee. I know you have a busy schedule, and I want 
to urge you to think all of these over, and I would be willing 
to take any questions. But thank you for what you are doing for 
our country's seniors. We have been very blessed in South 
Carolina with the money that you have passed down to help them.
    Chairman Tiberi. Thank you, Lieutenant Governor.
    [The prepared statement of Mr. Bauer follows:]

Prepared Statement of Andre Bauer, Lieutenant Governor, State of South 
                                Carolina

Introduction
    Chairman Tiberi, distinguished Members of the subcommittee, thank 
you for inviting me here today to discuss the reauthorization of the 
Older Americans Act. I am honored to have been invited to testify about 
how South Carolina is building the future by positioning for the senior 
boom. I am Andre Bauer, the Lieutenant Governor of South Carolina, and 
since July 1, 2004, head of the State Unit on Aging, the Lt. Governor's 
Office on Aging.
    I'd like to share a few stories, beginning with the ``elder-ready'' 
community of Chesnee, which is located in eastern Spartanburg County in 
the northwest part of our state. Chesnee has about 2,300 residents and 
more than 600 are members of the VSP Club, a local Senior Center I have 
visited several times to exercise with the seniors in our continuing 
efforts in conjunction with the national You Can Steps to Healthier 
Aging program sponsored by the Administration on Aging and the Centers 
for Disease Control. We have held a dozen or more You Can events 
throughout our state in the last year where we urge seniors to take 
personal responsibility to improve their health and quality of life. It 
is really simple and involves making better lifestyle decisions about 
tobacco, exercise and nutrition. I'll be back there later this month to 
help Council on Aging Director Nancy Ogle dedicate the new Archibald 
Rutledge Senior Center in downtown Spartanburg. They have converted the 
bottom floor of a high-rise senior apartment building into a senior 
center. Those people in Spartanburg are now talking about working with 
Medicaid and Medicare to bring home and community based services to 
seniors served by the Spartanburg Housing Authority. They want to help 
seniors living in public housing maintain their independence and avoid 
going into a far more costly nursing home setting. That's the type of 
forward thinking woven into the President's proposed reauthorization of 
the Older Americans Act, which was the No. 1 priority of our national 
White House Conference on Aging. Our country needs its nursing homes. 
They are a valued health care option, but we simply cannot afford to 
pay for a nursing home bed for everyone who might need one. So when we 
find innovation like is occurring in Spartanburg, let's open the gates 
whenever and wherever we can.
    I am told that Dr. Michael Stogner is also here today. I'd like to 
introduce him in order to say what I just told you is no fluke. Dr. 
Stogner is the AAA director who not only is involved in the Chesnee/
Spartanburg projects but is providing leadership to build South 
Carolina's third Aging and Disability Resource Center. I was fortunate 
to help open South Carolina's first one in Aiken 18 months ago. Almost 
as soon as it opened they found that one-third of their calls were 
coming from outside their service area. Meantime, in that same area, a 
marvelous innovation in transportation is being attempted by Lynnda 
Basham of the AAA. She is working with a multitude of agencies that 
receive tax dollars to provide transportation to the public. Her idea, 
funded with seed money from the Administration on Aging and the Centers 
for Medicare and Medicaid Services, is to harness technology to 
coordinate all the publicly funded transportation so empty seats can be 
filled. When we find people trying to turn duplication of effort into 
services for seniors, let's open these gates whenever and wherever we 
can.
    Down in Charleston, Rev. Dick Giffin, a member of our state's 
Silver Haired Legislature, is working with community leaders to 
duplicate the Maine model of an Independent Transportation Network that 
allows seniors to donate their cars for credit against the cost of 
future rides. Groups like his need seed money, and the proposed 
recommendation to permit cost sharing under the Older Americans Act 
would open the door for private sector support of this vital service 
for seniors. This would give greater flexibility to State Units on 
Aging and Area Agencies on Aging in helping city and county governments 
prepare for the aging of the baby boomers.
    South Carolina has just implemented a new geriatrician loan 
forgiveness program after we discovered we had only 30 board certified 
geriatric physicians to treat our 500,000 seniors. We worked with the 
Silver Haired Legislature, AARP, advocates and many, many more to come 
up with a plan to attract new geriatricians. It received unanimous 
approval by the General Assembly. Today, after making our first round 
of awards, our seniors have eight new doctors specially trained in 
geriatrics.
    One of my first decisions as head of the Office on Aging was to 
bring together a group of distinguished business leaders and community 
leaders to serve on my Commission for Aging Research and Evaluation. 
They were backed up by an equally distinguished group of academics and 
advocates known as the Coalition for Successful Aging that prepared 
position papers for the issues South Carolina discussed at its state 
White House Conference on Aging. Together, these groups helped increase 
awareness of senior issues in South Carolina, especially within the 
business community.
    One thing I have found everywhere is a willingness to join together 
to build the future by positioning for the senior boom. I think we all 
know that the future we build for today's seniors is also our future, 
and conversely, the future we deny our seniors is the one we lose 
ourselves.
    I said South Carolina was building for the future by positioning 
for the senior boom. We believe technology, data and research can allow 
us to make evidence-based decisions to give us the best results as we 
invest our scarce tax dollars. South Carolina may be unique in its 
creation of a senior data cube, which links together large data bases 
so they may be cross referenced. We are early in this process, and have 
been helped, as always, by creating partnerships and being alert to 
private sector and foundation funding. Preliminary conclusions are 
showing a direct correlation between the intensity of OAA services and 
the avoidance of hospital ER use and in-patient admission. While we can 
project a cost savings to our state in its Medicaid program, I think 
there will be tremendous cost savings to the federal government, 
especially in the Medicare and Medicaid programs. As we talk about 
reauthorizing the Older Americans Act, perhaps the major message is 
that while Older Americans Act services are not expensive programs they 
are the foundation for programs and services that can save tax dollars. 
From our standpoint, the prevalence of obesity-related conditions such 
as coronary heart disease, stroke, and diabetes is disproportionately 
high in South Carolina. One in four adults is obese in our state, and 
more than three out of five is overweight. We must find ways to prevent 
obesity and chronic diseases by encouraging the use of evidence-based 
health promotion and disease prevention programs at the community-level 
through local aging services provider organizations such as senior 
centers, nutrition programs, senior housing projects, and faith-based 
groups. Like I said at the outset, we have begun this process by 
emphasizing the You Can program.
    Your invitation to me to testify today asked for a description of 
what the State of South Carolina is doing to help older Americans live 
a more healthy and independent life, and you asked to me to discuss 
proposed amendments to strengthen programs and services for older 
Americans administered by the Administration on Aging. I have some 
specific recommendations, as well as a genuine endorsement of the 
reauthorization of the Older Americans Act.
    I have specific recommendations in my written remarks, but if it 
pleases the committee, I will summarize my recommendations.
    First, I want to endorse Choices for Independence, the centerpiece 
of the reauthorization proposal. Not only does Choices give seniors 
more control, but we have experienced in South Carolina through our 
waiver, an annual Medicaid cost savings of $1,713 per participant.
    Second, we endorse cost sharing. It will allow greater flexibility 
at the local level and will encourage innovative ways of service 
delivery.
    Third, we recommend the Senior Community Service Employment program 
be reauthorized. We would ask you to maintain the minimum age of 55 
because the sooner we can provide job training skills to help people be 
independent, the better.
    Fourth, we recommend clarification within the nutritional services 
incentive program and recommend a consolidation of services funded 
under Part C to reduce unnecessary administrative expense and 
paperwork.
    Fifth, we support increase in Title VII to protect our most 
vulnerable institutionalized seniors.
    Sixth, we do not support designation of a single statewide planning 
and service area.
    Finally, we recommend a technical change regarding grant income, 
recommending the same language in the regulation be replaced within the 
act.
    In conclusion, I want to thank you, Mr. Chairman, for the 
opportunity to speak to you today about the reauthorization of the 
Older Americans Act. I have tremendous respect for and confidence in 
South Carolina's senior community.
    More specifically, I want to endorse Choices for Independence, the 
centerpiece of the reauthorization proposal for modernizing the Older 
Americans Act, which will be important to enhancing systems change 
efforts in South Carolina. The new Choices proposal focuses on the non-
Medicaid side of the long term care equation. Many older South 
Carolinians become Medicaid eligible after spending their lifetime 
savings on nursing home care. Most prefer to remain at home and in the 
community as long as possible. If Congress enacts and funds the 
proposed Choices program, more seniors can receive the community based 
services needed to prevent or delay the more expensive institutional 
based care. Choices for Independence will help the non-Medicaid senior 
population to exercise more control over long term care options, make 
better use of their own resources, and avoid, or delay, nursing home 
placement.
    South Carolina is facing growing fiscal pressures in our Medicaid 
budgets. As we note that the baby boom generation will soon be reaching 
retirement age, we are growing increasingly concerned about how we will 
meet long term care needs while keeping our Medicaid budgets contained. 
Helping seniors who are not Medicaid eligible to optimize the use of 
their own private resources can help them delay, or better yet avoid, 
spending down to Medicaid. Expanding the Older Americans Act to provide 
more choices for community based care and more options for cost sharing 
has the potential to better serve our seniors and to contain costs for 
long term care.
    In South Carolina we have allowed caregivers served through our 
Title III-E Family Caregiver Support program to specify what they most 
need to help them in providing care to a loved one over the age of 60. 
Experience has shown that the caregivers can make a little bit of money 
go a long way when they have more control over how it is used. We would 
welcome the opportunity to test increased consumer control and choice 
in other OAA services. Currently, most OAA dollars are tied to specific 
service categories. The Choices proposal would allow the OAA dollars to 
instead be tied to people's needs.
    Within our Medicaid program, South Carolina has documented benefits 
of consumer choice and control through SC Choice, our Independence Plus 
Waiver. There was an average annual Medicaid savings of $1,713 per SC 
Choice participant in the pilot project. After a successful pilot, SC 
Choice was implemented statewide as of January 2006.
    To support informed decision making and to provide comprehensive 
service information, and with grants from CMS and AoA, we have 
developed SC Access, a website with information on over 12,000 
services. Trained and certified Information and Assistance specialists 
are available by phone to provide the important human component to the 
SC Access system.
    Through our Aging and Disability Resource Center (ADRC) pilot 
program, we are working closely with our Medicaid program for long term 
care services. We now provide support to persons who are placed on the 
waiting list for the elderly disabled community based services waiver. 
Identifying persons at high risk of institutional placement who prefer 
to remain in the community is one step in keeping the Medicaid budget 
in check. Having more options for long term care services in the 
community would be an important next step.
    Additionally, we would welcome funding for activities that will 
integrate our three ADRC with statewide public education campaigns to 
help people begin to plan for their future, like the programs AOA is 
promoting under the Own Your Future initiative. We will help private 
pay individuals use low cost community based alternatives, such as 
adult day care and respite care programs, and utilize private financing 
options such as private long-term care insurance and home equity 
instruments.
    We strongly endorse cost sharing. Past regulations have tied the 
hands of service contractors by disallowing cost sharing, for example, 
in home delivered meal and group dining programs. In these times of 
diminishing resources, aging organizations must market their programs 
to a broader spectrum of seniors to obtain needed revenue. This can be 
expanded through changes in the cost sharing portion of the statute. 
Seniors that can afford to pay for services should be allowed to 
contribute to those services. Organizations should then have the 
flexibility to use those funds where there are waiting lists for 
services, or to improve current service. We support the AoA proposed 
changes to the OAA that would permit states to institute cost sharing 
for all OAA services, except for certain programs that will retain 
their exemption. The President's New Freedom Initiative has provided a 
national vision for reforming the long term care system by empowering 
consumers and honoring a strong desire to live in a community and to 
contribute to the community. We support efforts to modernize the Older 
Americans Act to bring us closer to this vision. The proposed changes 
will provide opportunities for states to implement a new approach and 
to evaluate the impact on the health and well-being of older people, 
their family caregivers, and health care costs. The President's 2007 
Budget Request includes resources to begin implementation. We hope to 
see Congress enact a bill that will include the Choices Initiative. In 
South Carolina we want to do all we can to provide the highest possible 
quality of life for all of our seniors. We are proud of what we have 
done for seniors since the state office on aging moved to the Lt. 
Governor's Office. We think this legislation will help states prepare 
to better serve the growing population of seniors and we look forward 
to working with the Administration on Aging on a new vision for 
prevention, choice and greater consumer control within the long term 
care system.
    We strongly recommend that the Senior Community Service Employment 
program be re-authorized with particular emphasis on maintaining two 
important features of the program. First, maintain the minimum 
eligibility age at 55 because the sooner we can provide job training 
skills to help people be independent, the better. Research projects 
that 9 million seniors will be eligible for SCSEP in 10 years, 
according to current guidelines with an eligibility age of 55. If SCSEP 
did not already exist as it has for over 40 years, experts on aging 
today most likely would be calling for creating a new program just like 
SCSEP as part of a larger, comprehensive national response to our aging 
society. Secondly, continue to allow participants to provide community 
service to their host agency during their training period. Host 
agencies would be greatly diminished if paid community service were 
reduced. Among agencies that would be affected are Meals on Wheels, 
senior centers and elder-care services, as well as rural libraries and 
One-Stop Career Centers where SCSEP participants often serve as 
specialists for all older job seekers.
    We support provisions under Title V requiring comprehensive study 
of current and future senior employment needs, including examination of 
Title V, Workforce Investment Act programs and all federal employment 
programs. We recommend procedures to coordinate those programs.
    We recommend clarification within the nutritional services 
incentive program. Disbursements of NSIP funds should be made based on 
the meals reported in the most recent NAPIS report submitted to the 
Administration on Aging. The current wording requires that funds be 
distributed based on the meals served in the preceding fiscal year. 
Since the funds are appropriated in October and the report for the 
preceding fiscal year is not submitted until January, at the beginning 
of the grant period the states have no idea how much NSIP revenue will 
be awarded. The Area Agencies on Aging have contractors who are 
providing meals with an expectation of reimbursement that may not be 
met, if the state receives less NSIP than projected. Waiting until the 
final quarter of the current federal fiscal year to determine the total 
amount of NSIP for each state does not do what the program intends. 
Without a firm number to work with, some providers are over expending 
and others may hold back services that could have been provided if the 
amount of NSIP revenue was assured at the beginning of the grant 
period. NSIP funding for October 1, 2006 though September 30, 2007 
should be distributed based on the NAPIS report due to the 
Administration on Aging in January 2006 and not on the report due in 
January 2007.
    We recommend that there be a consolidation of services so that 
nutritional services are funded as Part C only. This would reduce 
unnecessary administration and related paperwork. With one 
authorization and appropriation for Part C, more flexibility would be 
allowed throughout the grant period, thereby making the program more 
responsive to consumer needs.
    We support increase in authorization of Title VII provisions and 
services to enhance capacity to increase training of law enforcement 
and medical staff, broaden public education and community involvement, 
and facilitate coordination amongst all the professionals and 
volunteers involved with prevention, intervention, detection 
investigation and treatment of abuse, neglect and exploitation of 
vulnerable older adults. Statistics nationwide state 1 in 14 persons 
report incidences of elder abuse. The OAA under Title VII has a 
provision for the prevention of abuse, neglect and exploitation of 
older persons for both community and institutional settings. Limited 
dollars are allocated to this provision, however we must begin to think 
of the new population entering the aging sector; baby boomers who have 
more discretionary dollars. Many of these persons will be targeted for 
abuse, neglect and/or exploitation. In order to meet the needs of this 
incoming population, formers of the OAA must examine current and future 
allocations to adequately provide education and training activities. I 
would also ask for review for the addition of legal assistance dollars 
in Title VII. The initial allocation of legal assistance dollars 
included in Title III are quickly eroded by older persons in the 
community, thereby leaving few if any dollars for persons in 
institutions who may need legal representation/assistance. This issue 
``bubbles over'' to areas of Choice, Nursing Home Transition (Home 
Again), etc. as seniors move throughout the continuum of care.
    We recommend this specific action regarding grant income. Several 
years ago the Office of the Inspector General issued a report that 
resulted in changes in the use of grant related income. Prior to that 
report, states operated on the provisions that are still in the 
official Federal regulations for the Older Americans Act [CFR 45 
1321.67(b)(1) and (2)] that allow grant related income to be used as 
match, to expand services, or both. We recommend that the same language 
in the regulation cited above replace the language of the Older 
Americans Act at Section 315 (a)(5)(C) and (b)(4)(E). This would allow 
AAAs to expand services to areas where there may not be sufficient 
local sources of revenue to meet the required level of local match. It 
would also allow local resources to be used for consumer directed 
services for which there are no Older Americans Act funding.
    We do not support the proposed designation of single statewide 
planning and service areas. The current service delivery and planning 
structure at the regional level is well established, and is working 
very well in South Carolina. Current law already provides a process by 
which individual states can reduce their number of planning and service 
areas if they so choose, and those states with a single planning and 
service area were designed that way for specific reasons within those 
states.
                                 ______
                                 
    Chairman Tiberi. Just a side note. I have never seen this 
as long as I have been here this 6 years. We have four 
witnesses, one from South Carolina, one from Texas, one from 
Maryland, one from Ohio. We have four Members up here, one from 
Maryland, one from Texas, one from Ohio, and one from South 
Carolina.
    Mr. Bauer. Mr. Chairman, that means hopefully you will be 
gentle to us on your questions.
    Chairman Tiberi. That, too.
    Mr. Faris.

STATEMENT OF VINSEN FARIS, EXECUTIVE DIRECTOR, MEALS-ON-WHEELS 
               OF JOHNSON AND ELLIS COUNTIES, TX

    Mr. Faris. Chairman Tiberi, Mr. Hinojosa, members of the 
subcommittee, good afternoon. I am Vincent Faris, and it is my 
privilege to serve as executive director of Meals-on-Wheels of 
Johnson and Ellis Counties in Texas. I thank you for the 
opportunity to speak to you today regarding the reauthorization 
of the Older Americans Act, and I will direct my comments to 
some of those provisions in the act that affect my program 
directly.
    I am not an expert in legislation, so I will not pretend to 
be one; however, I am a person who works every day in the heart 
of communities, many diverse communities, to feed needy 
seniors. Our service area covers over 1,700 square miles 
immediately south of Dallas and Ft. Worth. Roughly half of our 
area is becoming more and more suburban, while the remainder is 
still very rural in nature.
    I want to begin my remarks by telling you a story. We were 
attempting to get a meal route started in one particular small 
community that has a very large number of needy elderly people 
residing there. It is one of the poorest communities in the 
county. Most of the elders had lived and worked on the farms 
and dairies for years. Oftentimes they were self-employed, so 
their Social Security checks were small, and SSI checks were 
almost nonexistent. Many in the community were concerned about 
them and made referrals to us. Yet when we contacted these 
needy seniors, they politely declined. They generally answered, 
there are others out there that are needier than we are. They 
were proud people, and while we knew they needed our services, 
they would not accept them because they regarded Meals-on-
Wheels as a poverty program.
    Next we directed our efforts to the churches and to the 
pastors, who got the message out from the pulpits that Meals-
on-Wheels was, in fact, a terrific program about neighbor 
helping neighbor, and it was not a government handout. People 
could even make donations for the meals they received. Soon we 
had a meal route up and running, with most of the people making 
at least some sort of donation for their meals.
    Meals-on-Wheels learned from this experience. We learned 
that many of the elders in our community are proud people. Even 
though they have limited incomes, they do not want a handout. 
We learned that by giving people an opportunity to do their 
part, the welfare stigma can be alleviated.
    Last time Congress reauthorized the Older Americans Act, 
you changed the law to allow us to actively solicit 
contributions. This has made a real difference. The change that 
you are now proposing will now enable us to be even more 
effective about bringing those seniors who need our services, 
but who also have the ability to pay, into our program, and it 
will assist our program in encouraging contributions from them.
    Because the Older Americans Act requires that services be 
targeted first to those in greatest need, in some areas of the 
country only the poor are being served by Title III programs, 
but need among our seniors is not about finances alone. I can 
tell you that from experience.
    I told you my program service area includes a diverse group 
of communities. All are very unique in cultures and their 
heritage, but all are alike because of their growing elderly 
populations who are all faced with the many difficulties and 
struggles that come with old age. Frail, disabled and isolated 
seniors who are not poor need our services, too. The change 
that you are proposing to make recognizes that. It sends a 
signal to the whole aging services community that we should be 
expanding our services to all in need, no matter where they 
fall in the social services ladder. It also helps the program 
collect the revenues that we need so we can provide services to 
these individuals.
    Let me mention a couple of other points before I close. I 
told you that my program has been successful in soliciting 
client contributions. I should let you know that there has been 
a certain downside to this because my program's Title III 
allocation has been essentially reduced as our contributions 
have increased. This is wrong, and I am pleased that you will 
address this in your bill.
    It also gives a strong incentive to programs that do not 
utilize voluntary contributions to begin doing so, and it 
leaves decisionmaking about how to implement this as a local 
one. People in the local communities know their neighbors best.
    I do not have the time to mention every change the 
subcommittee is suggesting, but I do want to express my support 
for several. You emphasized the critical link between nutrition 
and the prevention of chronic disease. Meal programs have known 
this for a very, very long time. Before the promotion of 
wellness was a popular concept, we were doing it. Our programs 
keep people healthy. They are an excellent investment of 
Federal dollars. I am encouraged that you include options like 
allowing our programs to provide meals to individuals who would 
not be eligible for Title III if they will pay for the cost of 
the meal. This is a win-win.
    My program has been providing Older Americans Act nutrition 
services for all of our 29 years. When I tell you we are 
serving the oldest, frailest, neediest people we have ever 
served, that is not an overstatement. Just when we think they 
cannot be more poor or more frail or more isolated, 
unfortunately we are proved wrong.
    Let me end my remarks by thanking you. You have worked 
together in a bipartisan way to listen to our particular 
request. You are proposing changes to the law that will help us 
maintain, maximize and leverage more resources. That is what we 
need to meet the challenges of the future. So again I thank you 
for the opportunity to appear before you today and appreciate 
the work that you are doing. Thank you.
    Chairman Tiberi. Thank you, sir.
    [The prepared statement of Mr. Faris follows:]

Prepared Statement of Vinsen Faris, Executive Director, Meals-on-Wheels 
                   of Johnson and Ellis Counties, TX

    Chairman Tiberi, Mr. Hinojosa, and Members of the Subcommittee--
good afternoon! I am Vinsen Faris. It is my privilege to serve as 
executive director of Meals-on-Wheels of Johnson and Ellis Counties in 
Texas. I thank you for the opportunity to speak to you today regarding 
the reauthorization of the Older Americans Act, and particularly ``The 
Senior Independence Act of 2006,''which your Subcommittee has recently 
developed. I will direct my comments to some of those Title III 
provisions that affect my program directly. But let me tell you from 
the start that I am not an expert in legislation, so I will not pretend 
to be one. I am a man who works everyday in the heart of communities, 
many diverse communities, to feed needy seniors. Our service area 
covers over 1700 square miles, immediately south of Dallas and Fort 
Worth. Roughly half of our area is becoming more and more suburban, 
while the remainder is still very rural in nature. I want to begin by 
telling you a story about one of these communities.
    It's a story that I have told and retold many times. We were 
attempting to get a meal route started in one particular community that 
was small, but that had a very large number of needy elderly people 
residing there. Demographically, it was one of the poorest communities 
in the county. Because it was a farming community, most of the elders 
had lived and worked on the farms and dairies for years, often times 
they were self employed. So their Social Security checks were small and 
SSI checks were almost nonexistent.
    Our program knew who needed Meals on Wheels, where they lived, and 
that it was no longer safe for many of them to be driving. Others in 
the community were all too glad to make the referrals to us. Yet, when 
we called upon these people, they politely declined. Their answers 
generally went along the lines of ``there are others out there that are 
needier than we are.'' They were proud people, and while we knew they 
needed our services, they would not accept them because they regarded 
Meals On Wheels as poverty programs.
    Discouraged we were, but defeated we were not. We met with several 
ministers and asked for their help with our challenge. From that 
meeting, we directed our efforts to the churches and to the pastors. It 
was from the pulpits that the message went out that Meals On Wheels was 
a terrific program about neighbor helping neighbor. And it was not a 
government handout! People could make donations for the meals they 
received. And wouldn't it be great, to just visit with someone around 
the noon hour every day? Soon we had a meal route up and running, with 
some people donating $5.00 a month for their meals.
    Meals On Wheels learned from this experience. We learned that many 
of the elders in our community are proud people. Even though they have 
limited incomes, they do not want a handout. We learned that by giving 
people an opportunity to do their part, the welfare stigma can be 
alleviated.
    We also learned several other important lessons from that 
experience. We learned that senior meal programs are misunderstood by 
many in the community and thought to be only for low income people. We 
learned that voluntary contributions are essential to expanding our 
program. Our success at encouraging donations from clients has been 
great. In fact, our client donations have generally accounted for seven 
to ten percent of our overall revenue. Client contributions have been 
one of our largest single sources of revenue in our budget each year.
    Last time Congress reauthorized the Older Americans Act, you helped 
us accomplish this by changing the law to allow us to actively solicit 
contributions. It has made a real difference. I believe the change that 
you are proposing in your reauthorization bill will have the same 
effect. It will enable us to be more effective about bringing those 
seniors who need our services, but also have the ability to pay, into 
our program. And it will assist our program in encouraging 
contributions from them.
    Because the Older Americans Act requires that services be targeted 
first to those in greatest need, in some areas of the country only the 
poor are being served by Title III programs. But ``need'' among our 
seniors is not about finances alone. I can tell you that from 
experience. At the beginning, I told you my program's service area was 
large, and it includes a diversity of our communities. All are unique 
in their cultures, heritage, religions, workforce, and workplaces. In 
this diversity, we see challenges and opportunities to strengthen our 
communities to make them all better places to live.
    A commonality in all of the communities is a growing elderly 
population that is faced with the many difficulties and struggles that 
come with age: health issues, disabilities, isolation, hunger, limited 
income, and lack of family. The list goes on and differs from group to 
group. But each thing I mentioned is a need.
    Frail, disabled and isolated seniors who are not poor need our 
services too. The change that you are proposing to make recognizes 
that. It sends a signal to the whole aging community that we should be 
expanding our services to all in need. It also helps programs collect 
the revenues that we need, so that we can provide services to these 
individuals.
    Let me mention a couple of other points before I close. I told you 
that my program has been successful in soliciting client contributions 
and I discussed the value to us and to seniors. I should let you know 
that there has been a certain downside to this, because my program's 
Title III allocation has been essentially reduced as our contributions 
have increased. This is wrong, and I am pleased that you address this 
in your bill. Not only does that benefit programs like mine, but it 
also gives a strong incentive to programs that do not utilize voluntary 
contributions to begin doing so. And the proposal in your bill leaves 
decision making about how to implement this as a local one. People in 
the local communities know their neighbors best.
    I do not have the time to mention every change the Subcommittee is 
suggesting, even if I knew them all. But I do want to express my 
support for several. You emphasize the critical link between nutrition 
and the prevention of chronic disease. Meal programs have known this 
for a very long time. Before the promotion of wellness was a popular 
concept, we were doing it. Our programs keep people healthy! They are 
an excellent investment of federal dollars.
    Speaking of dollars, let me return to the issue of resources again, 
because we depend on sufficient resources to do our jobs. I am 
encouraged that you include options like allowing our programs to 
provide meals to individuals who would not be eligible for Title III, 
like caregivers for example, if they will pay for the cost of the meal. 
This is a win-win. It gets meals to people who need them and it 
increases program resources.
    Title III of the Older Americans Act has been providing financial 
support to our organization for all of our twenty-nine years. During 
that time, we have evolved from an organization that served primarily 
ambulatory well-elderly people at a senior center, to an organization 
that focuses our efforts on needy homebound individuals. When I tell 
you we are serving the oldest, frailest, neediest people we have ever 
served, that is not an overstatement. Just when we think they cannot be 
more poor, or more frail and more isolated, unfortunately we are proved 
wrong. Each year there are more hungry seniors who need our services. 
We know this trend is going to continue and get worse.
    This is true across the country. It is particularly true in my 
State of Texas, which the USDA has identified as being among the top 
five in the country for food insecurity. Just to define that term, it 
means that food is either inaccessible, unavailable or unaffordable. In 
plain Texas talk, it means hungry people cannot get food. Congress 
makes money available for Older Americans Act senior nutrition programs 
through Title III C. You also make money available for supportive 
services in Title III B. My food insecure state has transferred money 
away from nutrition services and into supportive services. In 2004, 
they moved nearly $5.8 million out of nutrition, and that is the 
equivalent of at least a million meals. All of the services furnished 
under the Act are important. Don't get me wrong. But food is essential 
for life and health. While meal programs have waiting lists, which 
means that seniors are going without meals, this transfer should be 
prohibited. Your reauthorization bill does not address this issue. I am 
disappointed and on behalf of hungry seniors across the country, I ask 
you to reconsider this.
    But let me end my remarks by thanking you. That thanks is not only 
for my program, but on behalf of senior meal programs across the 
country and for the individuals they serve and families they touch. You 
have worked together in a bipartisan way to listen to our particular 
requests. You are proposing changes to the law that will help us 
maintain, maximize and leverage more resources. That is what we need to 
meet the challenges of the future. So, again, I thank you for the 
opportunity to appear before you today to express my program's support 
for these changes.
                                 ______
                                 
    Chairman Tiberi. Doctor.

 STATEMENT OF LING CHEUNG, PRESIDENT, CHINESE AMERICAN SENIOR 
          SERVICES ASSOCIATION, MONTGOMERY COUNTY, MD

    Dr. Cheung. Chairman and members of the subcommittee, thank 
you for this opportunity to present more than 1,000 Chinese 
seniors' thoughts of the Older Americans Act. My name is Ling 
Cheung. I was introduced to the Older Americans Act Senior 
Nutrition Program 7 years ago, when I was a volunteer at the 
Rockville senior center. There are about 40 Chinese seniors, 
but only a few attended the senior lunch because of the 
cultural barriers. So I speak with the county's program 
director Mrs. Mower, who is here, and I asked if there is 
possibility of serving Chinese food once a week. I know many 
people like Chinese food, not only Chinese. But she said, no, I 
cannot, because the county's cook could not make Chinese food. 
And she said to me, but you can do it. She said county has 
contract with ethnic groups, but we could get Chinese meals 
through a contract with the county. She helped me apply for the 
contract and made an arrangement with the Chinese restaurants 
for meals.
    The first year we served 1,500 meals in 1 site to 40 
seniors. Then we doubled our service every year. For this year 
the Senior Nutrition Program in Montgomery County is serving 
more than 500 seniors with 23,000 Chinese meals in 6 lunch 
sites. This program not only provides balanced nutrition for 
seniors, but has attracted them to attend the activities such 
as Tai Chi, dancing, ping pong, and the classes of English, 
computers, citizenship and a Chinese cooking class. Of course 
they play a lot of Mahjong.
    We also provide service to introduce 260 county service 
programs to the seniors. And the more important, the Senior 
Nutrition Program has provided the opportunity for senior 
volunteering. That make things really happen.
    Many seniors come to our centers for the first time because 
of the lunch. As they come to the new transitionsite, they find 
out there are so many activities they like, so many friends to 
meet, and there are so many services they never know. They help 
each other like a family, and they never feel lonely and 
depressed again.
    Eight years ago an old Chinese man in great despair killed 
his wife and committed suicide because he was isolated and had 
depression; but after we have the Senior Nutrition Program, 
that never happen again. Instead, for instance, Mr. and Mrs. Xu 
immigrated to the country 10 years ago to take care of their 
grandkids. They always wanted to go back to China because they 
feel lonely here. After they join the lunch program, they 
attended the activities, they become very active volunteers. 
Mrs. Xu is lunch site manager, and Mr. Xu is our accountant. He 
had cancer 5 years ago. He is very healthy and happy for his 
life here. Now they are U.S. Citizens.
    In Montgomery County and across the country, the Older 
Americans Act Senior Nutrition Programs allow seniors to find 
happiness and health. I hope Congress will reauthorize the 
Older American Act this year and to strengthen the nutrition 
program so they may continue to serve seniors now and in the 
future. Thank you very much.
    Chairman Tiberi. Thank you, Doctor. And count me in as a 
lover of Chinese food as well.
    [The prepared statement of Dr. Cheung follows:]

 Prepared Statement of Ling Cheung, Director, Chinese American Senior 
              Service Association of Montgomery County, MD

    Chairman Tiberi and Members of the Subcommittee: Thank you for this 
opportunity to present my thoughts on the Older Americans Act. My name 
is Ling Cheung. I coordinate the Chinese American Senior Service 
Association (CASSA). CASSA is a non-profit coalition of five Chinese 
senior groups in the Greater Washington, D.C., area and serves all 
senior organizations and seniors.
    I graduated from Beijing University Medical School in 1956 and 
immigrated to the United States in 1977. I retired from the National 
Institutes of Health in 1997 and became a volunteer for senior services 
in Montgomery County. I have worked with the Evergreen Senior program, 
Pan Asian Volunteer Health Clinic, and CASSA. In 2003, I received 
Montgomery County's Path of Achievement Award.
    I was introduced to the Older Americans Act Senior Nutrition 
Program in Montgomery County seven years ago. I was a volunteer in the 
Rockville Senior Center. There are about 60 Chinese seniors, but only a 
few attend the senior lunch because of the cultural barriers-many 
Chinese seniors do not like the American food served. During one visit 
to the lunch site, I spoke with Senior Nutrition Program Director 
Marilyn Mower about the possibility of serving Chinese food once a 
week, as I know many people like Chinese food, not only the Chinese 
seniors. She said that the county's cook couldn't make Chinese food, 
but that the county has contracts for ethnic organizations to have 
nutrition sites and that we could get Chinese meals through a contract 
with the county.
    First, I applied for a contract and made an agreement with a local 
Chinese restaurant for meals. They delivered the lunch to our activity 
center. The first year, we served 1,500 meals in one site to 40 
seniors. The second year, we served 3,000 meals to 60 seniors in two 
sites. The third year, the numbers more than doubled again with 7,000 
meals at three sites. This year, the Senior Nutrition Program in 
Montgomery County provided Chinese food through two organizations, 
CASSA and CCACC (Chinese Culture & Community Center), and is serving 
more than 500 seniors with 23,000 meals in eight lunch sites.
    This program not only provides balanced nutrition for seniors once 
a day, but has attracted more seniors to attend the activities we 
provide. The sites offer exercise programs such as Tai-Chi, line 
dancing, folk dance, social dance, and ping pong as well as educational 
programs such as classes in English, computers, citizenship, 
photography, cooking and Chinese painting. The leisure program gives 
seniors the opportunity to enjoy activities like singing, day trips, 
and games like Bridge and, of course, Mahjong.
    The program also provides the opportunity to introduce seniors to 
Montgomery County's other services like health care, housing, and 
transportation and helps them to apply for programs that might meet 
their needs.
    A major part of the Senior Nutrition Program is that it provides 
the opportunity for volunteering. CASSA has more than 500 members and 
94 volunteers; there is no paid staff. This is a main reason why we can 
provide good, nutritious food and have money to support our activities.
    Many seniors come to our activity centers for the first time 
because of the lunch. They hear through social networks that you can 
have a lunch with three dishes, rice and a fruit. As they come to the 
activity center, they find there are so many activities they like, so 
many friends to meet, and many services about which they may never have 
known. They are happier and healthier and for many it reduces their 
feelings of loneliness and depression.
    There are many examples just in our program. Dr. Wang is 84, 
retired from government and lives by himself. He comes to the activity 
center five days a week at our different sites and joins the 
activities. Mr. and Mrs. Xu immigrated to the United States ten years 
ago to take care of their grandchild. They always wanted to go back to 
China because they found it lonely here. After they joined the lunch 
program and attended the activities, they become U.S. citizens and very 
active volunteers. Mr. Xu is our accountant and Mrs. Xu is the Lunch 
Site Manager. Mr. and Mrs. Shao recently joined the program and decided 
to sell their house in China to stay in the U.S. permanently. They 
said, ``The U.S. is the best place to live.''
    In Montgomery County and across the country, the Older Americans 
Act Senior Nutrition Programs allow seniors to find happiness and 
health. I hope Congress will reauthorize the Older Americans Act this 
year and strengthen the nutrition programs so they may continue to 
serve seniors now and into the future.
                                 ______
                                 
    Chairman Tiberi. Mr. Browdie.

STATEMENT OF RICHARD BROWDIE, PRESIDENT AND CEO, BENJAMIN ROSE 
                           INSTITUTE

    Mr. Browdie. Thank you, Mr. Chairman and members of the 
subcommittee, for this opportunity to share a few thoughts with 
you about the reauthorization of the Older Americans Act.
    I have had the privilege of working in the field of aging 
services for more than 35 years, and I have come to believe 
that the Older Americans Act is, in fact, the most appropriate 
vehicle the country has for the expression of national policy 
on older people in this country, and the need to modernize this 
policy, which occurs as our society evolves, has never been 
greater.
    The United States has actually been experiencing its aging 
revolution for several decades. People over the age of 85 
constitute the fastest-growing segment of the population, and 
they have for some time. Public awareness is finally catching 
up. The people who manage State budgets have been feeling the 
pain in their Medicaid budgets for three decades.
    Rarely does a meeting of the National Governors Association 
with Federal officials, appointed and elected, pass that some 
discussion does not arise, sometimes contentious, over what 
should be done about long-term care. And while there are 
numerous factors to push up the cost of Medicaid, many of which 
that do not have anything to do with the elderly, long-term 
care expenditures and the older people who use them get the 
brunt of the blame and are seen as budget busters around the 
country.
    From Governors to advocates, people are calling for a 
comprehensive systemwide reform. Even the White House 
Conference on Aging ranked this issue highest except for one, 
the reauthorization of the Older Americans Act.
    As much as I would like to see it, it seems unlikely that 
an effort to develop a comprehensive policy at this time would 
bear fruit. On the other hand, I believe that the 
administration's proposal for Choices For Independence, at 
least as I understand it, represents a significant opportunity 
to take a big step forward. This initiative builds on a series 
of demonstration programs that have been sponsored by an array 
of Federal agencies, many times with the support of major 
foundations.
    All of the demonstrations, from Money Follows the Person to 
Cash and Counseling, and the capstone of the Aging and 
Disability Resource Centers, are considered part of an overall 
effort to rebalance the long-term care system in this country. 
Key to the success of all of these demonstrations is the effort 
to give individuals and their supporting caregivers a greater 
voice in determining where they will receive the long-term care 
and services they need along with useful objective information.
    All evidence shows that when given timely, competent, 
independent advice and support, consumers make choices that are 
more in accordance with their own preferences, produce good or 
as better outcomes, and are more cost-effective than the 
predetermined choices offered under Medicare.
    The Choices for Independence initiative builds on these 
findings of these demonstrations and begins to build key pieces 
of what is needed. It also adds another key element that is 
missing in many States. The truth about Medicaid nursing home 
care is that the vast majority of the recipients were not poor 
when they went into the nursing home. On average they spend 
down their assets in about 3 to 6 months. These people were 
certain to be eligible on a clinical basis to receive Medicaid 
waiver services while they were living in the community, but 
they are not very likely to be financially eligible because of 
the resource limitations of Medicaid. The Choices for 
Independence initiative includes a funding mechanism that 
offers the kind of flexibility necessary to be effective in 
community-based care to meet this level of need as, I might 
add, has been demonstrated in yet other demonstrations. It 
represents an important step forward administratively.
    What is needed is an infrastructure to build on, and the 
system of the State Units on Aging and the Area Agencies on 
Aging more than meet the requirements. In fact, it is the only 
nationally available system based in local communities that 
serves older people and is capable of acting like a network.
    Widely trusted by consumers and respected by practitioners, 
the Aging Network has performed as it was designed to do, and 
given the resources it has had over the years, discounted by 50 
percent, we are a provider of the services under the Older 
Americans Act, it has generated returns on the investments 
Congress has made many times over.
    Where I respectfully disagree with the administration's 
proposal is in its scope. I really do not think we need another 
demonstration to show that what we learned in previous 
demonstrations will work better if we coordinate it. A well-
thought-out strategy that includes proper technical assistance 
and the evaluation regime necessary will take a number of years 
anyway, and it seems particularly wasteful since more than 40 
States are developing aging and disability resource centers, 
and many others are involved in moving their systems forward.
    In a related point, I think that the funding change that I 
indicated is a good idea also should be on a national basis and 
should be funded accordingly.
    Thank you, Mr. Chairman. I do have another thought or two, 
but perhaps maybe during questioning.
    Chairman Tiberi. Thank you. We will try to accommodate your 
thoughts.
    [The prepared statement of Mr. Browdie follows:]

Prepared Statement of Richard Browdie, President and CEO, the Benjamin 
                             Rose Institute

    Thank you, Mr. Chairman and members of the subcommittee for the 
opportunity to offer testimony regarding the reauthorization of the 
Older Americans Act being considered by the committee. As someone who 
has worked in this field for more than thirty-five years, I have come 
to believe that the Older Americans Act is the most appropriate vehicle 
for the expression of national policy regarding older people in this 
country. The need to modernize that policy is greater today than ever.
    The United States has actually been experiencing the early stages 
of its ``aging revolution'' for decades. The number of people over 85 
is the fastest growing segment of the population and has been for some 
time. The pressure on state budgets produced by continued growth in 
Medicaid long term care expenditures (along with all the other growing 
cost drivers that impact Medicaid budgets) is being experienced across 
the country. National expenditures have grown accordingly.
    Rarely a meeting of the National Governors' Association with 
federal elected or appointed officials passes without some exchange 
over the burgeoning issue of state and federal spending on Medicaid, 
with older people and nursing home care, appropriately or not, 
receiving the brunt of the blame. Calls for large scale, system-wide 
reform, from governors to advocates, from providers to consumers, will 
some day, I believe and hope, lead to a comprehensive effort to build a 
long term care and services policy which addresses the whole range of 
issues that will have to be a part of it. The recently completed White 
House Conference on Aging ranked its recommendation on long term care 
policy almost first. Reauthorization of the Older Americans Act was 
first. It would seem that we are not yet ready as a nation to take the 
step of developing a comprehensive long term care and services policy 
and financing strategy. Let us hope that we are ready to reauthorize 
the Older Americans Act. I believe that the elements included in the 
Administration's ``Choices for Independence'' initiative are critical 
elements in moving the nation forward, and are parts upon which any 
reasonable comprehensive long term care policy would need to rest. I 
also believe that a demonstration program would delay progress 
needlessly. We need to get started putting the building blocks in 
place.
    Advocates for persons with disabilities and their counterparts in 
the aging services system have been pressing states to rebalance the 
long term care system, and there has been a growing effort to do just 
that. Supported by federal initiatives beginning a number of years ago 
and continuing through to initiatives in the Deficit Reduction Act and 
in many of the Administration's proposals for 2007, the level of 
activity regarding ``rebalancing'' has continued to grow.
    A continuing series of demonstration programs, funded by several of 
federal agencies and often in partnership with national foundations and 
state governments, have helped identify strategies and program 
approaches that are effective individually in meeting the needs of 
consumers who need long term care and services. I was a part of the 
National Long Term Care Channeling Demonstration. Despite the confusion 
over what the results of the demonstration meant, states that have 
achieved real progress in rebalancing their systems have learned to use 
the instruments of pre-admission assessment and care management as the 
backbone of a community-based care system which can, when properly 
funded and supported, supply a cost-effective alternative to nursing 
home care for a significant portion of the people who need long term 
care and services. Since that time, we have demonstrated the importance 
of supporting families who provide the majority of all the care 
provided in this country, which led Congress to add the Title III-E, 
the National Family Caregiver Support Program, to the Older Americans 
Act. This effort, while in need of considerable expansion, bridged a 
huge gap in the thinking of policy makers regarding the elements a long 
term care system would need.
    The ``Money Follows the Person'' and ``Cash and Counseling'' 
demonstrations, along with related initiatives, constitute the next 
wave of efforts to support rebalancing state Medicaid programs. These 
projects have added important elements to what is now a growing body of 
evidence that can be used to support developing alternative ways to 
meet the needs of people that have needs for long term care and 
services. The capstone of these demonstrations is the Aging and 
Disability Resource Center initiative, which recognizes the central 
role that consumer information, the elimination of unnecessary 
bureaucratic barriers and help through the maze of needed financial 
considerations plays in helping older people and their families sort 
through their long term care options.
    Policy researchers and analysts reviewing state long term care data 
have begun to point to changes in the utilization of nursing home 
services to indicate that the changes in nursing home use that are 
already underway are evidence that the ``system'' is adjusting itself. 
This suggests that more aggressive efforts to rebalance the long term 
care system are important to consider as a response to future needs, 
but they are not as urgent as first thought, since they will happen 
without any additional changes in policies or programs. Yet, in many of 
those states, the number of days of care in long term care facilities 
paid for by Medicaid has continued to grow.
    How can that be? The average length of stay in nursing homes is 
dropping because more people are using skilled nursing facilities as 
post-acute care settings, which increases admissions and discharges 
after relatively short stays. Meanwhile, people with the money to make 
choices have been finding their long term care service settings in 
places other than nursing homes more frequently. In the private 
marketplace, developers of assisted living and senior housing have been 
building an increasing number of settings where housing options support 
and even facilitate the receipt of care and services that can make 
``aging in place'' a part of a personal plan that consumers could 
choose and implement. But when people run out of money, or when they or 
their families never thought that they had enough money to last very 
long in other unsubsidized settings, Medicaid reimbursed nursing home 
use remains the default option.
    No analysis that I know of has ever fully sorted out exactly how 
many people would benefit from each of the alternatives demonstrated by 
the initiatives that the government has supported that I have referred 
to above. What we do know is that the states that have made concerted 
efforts over long periods of time, such as Oregon, Washington, Maine 
and a few others, have been successful because they were ready to do a 
whole array of things, including making the difficult political 
decisions involved, and they stuck with it. It should be noted that 
their success took years to accomplish. Further, consumer education, at 
the point of actually making a decision about long term care and even 
sooner whenever possible, was the lynchpin of their strategy. Efforts 
to empower consumers through strategies like Cash and Counseling build 
on the same principle. A consumer armed with good information and 
supported by high quality independent professional support, will make 
cost effective decisions even when the government is paying the bill. 
What we also know is that states that have not been able to make 
similar decisions and press for similar policies, for whatever reason, 
have remained unsuccessful in reforming their systems. The 
``unsuccessful'' states outnumber those that have made significant 
progress. There are two observations to be drawn that might seem 
obvious, but they do not receive much attention.
    The first is that the effort to create a national long term care 
and services policy is greatly complicated by the fact that states have 
the right under the law to manage the Medicaid program in very 
different ways. They are free to be innovative, and they are free to 
follow the path of least resistance. Their nursing home lobbies 
understand that reality better than anyone. Some states manage their 
long term care costs under Medicaid by unreasonably curtailing 
reimbursement for care in nursing facilities, creating a difficult and 
even dangerous challenge for the providers of needed care to very frail 
people. That is not a situation that should be supported with federal 
funds. At the same time, curtailing people's ability to choose because 
they happen to live in a certain state shouldn't be supported with 
federal funds either. I believe in the virtue of having national 
policy, implemented by state administrative management which recognizes 
the unique characteristics of state and local legal and human service 
system structures. I also believe in giving local system managers as 
much flexibility as possible, since states have tremendous variability 
and diversity within them. But, we seem to forget that the Federal 
Government and its taxpayers bear about 57% of the costs when a state 
that is running a system that makes too few alternatives available and 
reimburses for too many days of nursing home care pays it's bills. 
Since state taxpayers are for the most part likely to be the same 
people who are paying the federal taxes, those taxpayers are paying all 
the costs of any inefficiency a state Medicaid program may tolerate, 
and doing it while denying people access to alternatives that are less 
costly and more consistent with their personal preferences. In short, 
as a nation, when it comes to publicly funded long term care, we pay 
more for poor performance.
    The second observation is that the key to success in all long term 
care initiatives is giving the consumer choices and as much influence 
over how their services will be offered to them as possible. Given that 
he country is facing the fastest growth in the population of people who 
are likely to need long term care in its history. The Administration is 
to be credited for their several initiatives broadly described under 
the banner of the New Freedom Initiative. In many ways, the most 
important initiative of all is the Choices for Independence initiative.
    Informed consumers have been shown time and again to make decisions 
for themselves and their caregivers that use resources wisely and 
nearly always result in considerable delay in their use of 
institutional alternatives. By assuring that consumers and their 
involved caregivers have access to timely and objective information 
supplied by a respected resource in their community, consumers will 
overwhelmingly choose service venues that support the maximum sense of 
independence and dignity possible.
    Choices for Independence will support the systematic development of 
an infrastructure to do just that. And, using the network of State 
Units on Aging and Area Agencies on Aging to do it just makes sense. 
The Aging Network has served this country since 1974. It is the only 
national system of aging organizations in the United States that is 
connected to the communities in which Older Americans live their lives 
and is independent from the incentives and biases associated with 
ownership of service agencies and their need to attract consumers to 
assure their economic viability. And, the Aging Network has for all of 
its years the mission of being concerned with the needs and 
circumstances of older people across the income spectrum. While 
certainly they have historically focused on the needs of the poor and 
those with greatest needs, they have years of experience with the 
challenges faced by older people who have too much money in the bank to 
be Medicaid eligible while living in the community, but too little 
money to be able to finance all their long term care needs without ever 
relying on Medicaid. This group is the population that it is most 
important new policy initiatives to focus on, since this is the group 
that makes up the vast majority of people who are recipients of 
Medicaid nursing facility care at any point in time. In short, the 
Aging Network has proven its reliability and trustworthiness in the 
eyes of older people and their families.
    I would disagree with the Administration's proposal on a couple of 
key points. First, a demonstration program only delays beginning the 
critical work of building a national infrastructure to support consumer 
information on long term care. We already have demonstrated that long 
term care alternatives work. And we have demonstrated that the key to 
system change, where there is a tradition of innovation in state 
management or not, is informed consumers and families. A national 
strategy that includes the sound planning, technical assistance and 
evaluation components needed would take a number of years to fully 
implement anyway. It seems wasteful, particularly since more than forty 
states are already developing Aging and Disability Resource Centers, to 
go through yet another demonstration.
    Secondly, the initiative includes a new strategy for dispensing 
funds that allows states to use Older Americans Act funds without the 
historical program constraints that interfere with addressing needs 
with maximal flexibility. The capacity for managing resources in this 
fashion is already well developed in the Area Agencies in the country 
that manage Medicaid waiver services, and it will help states and 
communities target those people in the community who are at risk of 
needing nursing home care, but whose resources would make them 
ineligible for Medicaid. As I mentioned earlier, these people 
eventually make up the majority of Medicaid nursing home beneficiaries, 
and for that reason, this provision should be generously funded.
    There are a few other areas that I would like to touch upon that 
may have relevance to the Members as they consider reauthorization of 
the OAA. The first is to increase the authorizations under the Act to 
levels that reflect both the lost buying power of the Act over the 
years and the growth in the population in need. I am a former public 
official, so I am well aware of the pressures that the government faces 
in restraining the growth in public spending. However, it should be 
recognized that the Aging Network has been producing extraordinary 
results at very low costs for decades. Indeed, recent decisions made by 
OMB because of the lack of ``evidence'' of the benefits of programs 
funded by the Act were reflective of years of squeezing every penny for 
service output, while being reluctant to spend money on the production 
of evidence. What is needed is to have the resources to produce data 
and generate evidence while serving those in need, not punishing 
agencies that are too busy to evaluate small, but critically important, 
programs.
    The second is the issue of Elder Abuse. Title VII of the Older 
Americans Act has for years provided a set of guiding principles and 
policies that have played an important role in this increasingly 
important area. Information pulled together by the Elder Justice 
Coalition, which has been working with partners across the country, 
indicates that as the number of older people grows, there is every 
reason to believe that the nature of elder abuse will continue to 
diversify and that attempts to abuse older people will grow 
correspondingly. Many of the forms that elder abuse takes are in 
connection with federally funded programs and services. Yet, there is 
no center focal point for policy and research on this issue, and there 
is no place to act as a hub to coordinate with all the federal agencies 
that should be involved (and often are, in collaboration with their 
state counterparts) in dealing with this difficult interdepartmental 
and interdisciplinary issue. Consideration should be given to using 
Title VII as a vehicle to establish a federal home for this issue that 
has gone unaddressed for far too long.
    Again, Mr. Chairman, allow me to thank you and the members of the 
committee for this opportunity.
                                 ______
                                 
    Chairman Tiberi. I am going to recognize Mr. Hinojosa to 
begin a round of questioning.
    Mr. Hinojosa. Thank you. My first question will be to Mr. 
Faris from the great State of Texas. I liked your presentation, 
and it is amazing to me that you have been at this for almost 
three decades. I come from a family that has been in the food 
service to hotels and restaurants, so some of our clients 
happen to be programs like Amigos del Valle down in Texas, and 
I can certainly relate to many of the comments that you made.
    Your Title III allocation has been reduced as the client 
contributions have increased. I made that point to the first 
panelists. Is cost sharing an incentive, or do you think it is 
a disincentive?
    Mr. Faris. I think that voluntary contributions, 
encouragement of the clients to make those voluntary 
contributions, could be an incentive. I believe that people 
feel good about helping other people, and, therefore, every 
dollar that we can put into the program can purchase more 
meals.
    Because of a technical problem that we encountered during 
the past 2 years, though, in which we had Federal grant 
earnings actually subtracted by the amount of the client 
donations coming into the program, that is a disincentive, and 
we have seen a lot of programs actually turn away from 
encouraging their clients and participants to make those 
donations.
    Mr. Hinojosa. Would you agree with me that just like there 
is a different flavor profile in different regions of our 
State, that there are different levels of income by families?
    Mr. Faris. Yes.
    Mr. Hinojosa. In south Texas, if I were to take a look at 
the income per capita of senior citizens versus those I 
represent in central Texas close to the State capital, there is 
a significant difference. And in central Texas I would say the 
stories you shared would be repeated right there in Bastrop and 
Fayette County and those areas where the European-descent 
ethnic groups are very proud, and they do not like Federal 
money. They think we are in their way, to be honest with you.
    All this to say that I am very proud of their work ethics 
and how they tried to provide for themselves. I really liked 
your presentation because I could relate to those in south 
Texas versus those 360 miles further north into central Texas 
who I represent.
    You also recommended that funds transferred between the 
Title III(c) and the Title II(b) be prohibited. The Texas case 
that you gave is disturbing, but is this happening throughout 
the entire country?
    Mr. Faris. It is my understanding that there are numerous 
transfers being made with the State Units on Aging throughout 
the country from (b) services to (c) services. Being a 
nutrition provider, we work so hard to alleviate hunger in our 
elders. Monies that were originally allocated for our food, in 
my deepest heart of hearts those should be spent for food; (b) 
services those are important, yes, whether it is transportation 
or activities in senior centers, but I hate to see funds that 
were allocated for nutrition be moved into other areas.
    Mr. Hinojosa. When we go to the committee of the whole in 
the Education and Workforce Committee, I certainly will 
remember your statement and see if we can get some reaction 
from the 55-member committee that that we represent.
    I am going to move on to Dr. Cheung. I really liked your 
presentation also, and one of your specific findings was that 
your efforts have helped older individuals overcome feelings of 
loneliness and depression. Do you have some recommendations for 
other program administrators to undertake it in this regard? I 
really was hit close to the heart here when you made those 
statements.
    If I may, I can repeat the question.
    Ms. Cheung. Actually I do have ideas. I think for the 
seniors to keep healthy and happy in the rest of life, they 
should live together. You know, the activities center has 
helped. You can come to the center in the daytime, but the 
transportation is very difficult for them. Our seniors, like 
more than 20 seniors, go to the community center. They spend 
more than 2 hours on the way. So that is not the way to do.
    I think we should make the seniors living together like in 
the Leisure World. They have more than 10,000 seniors living 
there, so they have activity right there. They do not need to 
go anywhere. And they have a clinic and a post office in their 
facility. I think that is a way to do. I wish I can see that 
day.
    Mr. Hinojosa. I agree with you. In listening to the 
presenters in Ohio this last week when we were in the 
Chairman's district, they talked about the importance of 
socialization just equally as important as the nutrition and 
the Meals-on-Wheels. So I agree with you.
    Ms. Mower. I think she would agree with you completely.
    Mr. Hinojosa. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman Tiberi. Thank you, Mr. Hinojosa.
    Lieutenant Governor, you mention in your testimony that 
South Carolina supports cost sharing. Has your State 
implemented cost sharing for home- and community-based 
services? And I have a follow up for that.
    Mr. Bauer. I do not know if they have or not. I know we 
would like to. I would believe we have actually, judging from 
my notes here. But I know that they have experienced problems 
where they want to be able to branch out and do more cost 
sharing. They feel like the churches are taking care of some of 
these things, and there are people that actually have the funds 
available, but they do not have the services that are provided. 
South Carolina is a more rural State, and there is a lot of 
areas of the State where nobody is offering the services except 
the government, and so they cannot even go out and purchase 
some of these services, and some of them have the means to do 
so.
    Chairman Tiberi. In your time as Lieutenant Governor and 
taking over this program, how important is the broad goal of 
flexibility?
    Mr. Bauer. Flexibility is key to us. Again, the vital 
dollars that you send down to our State, about $29 million, and 
then until this previous year we had only allocated 2-. I got 
the general assembly to allocate another $2.9 million this year 
to help with some of these in-home services because we see just 
how vital small little things that we can do, whether it be 
transportation, making sure they are getting medical coverage, 
making sure they are taking the proper medications.
    A lot of times we can keep them in their home, which the 
alternative is they would be put in a nursing home, which 
really would be a burden on our State. So any time we have any 
flexibility in any of these programs, our folks, who are much 
more knowledgeable than myself, I am more of a speaker and a 
figurehead as a part-time job as Lieutenant Governor, I have 
taken on this agency as well. But any time they have latitude 
to move around dollars and options, it helps the seniors in our 
State.
    Chairman Tiberi. Thank you.
    Mr. Browdie, I helped create legislation in Ohio or a law 
on a consumer guide, an Internet-based consumer guide with the 
Department of Aging. So along these lines, with the existing 
structure of the Older Americans Act, and utilizing the network 
that we have on State Units of--Area Agencies on Aging, how can 
the reauthorization that we are going to pass support the 
systematic development of a national infrastructure to support 
consumer information that you talked about or wrote about in 
your testimony?
    Mr. Browdie. Mr. Chairman, I guess there are a number of 
things that could be done, and it is almost--the number of 
things would be relatively numerous. I do not know that we 
would want to go through all of them. The key would be to 
assist States. States are unevenly prepared to move forward on 
their own, and there are lots and lots of the information 
systems that are available now were developed with Federal 
money. Therefore, it would be not a difficult matter to share 
the infrastructure that has been made available in a number of 
States, give other States the opportunity to adapt their own 
to, if you will, populate the information cells with 
information that is State-relevant, and it would cut the lead 
time down substantially in evolving those things.
    Second, I would say is that a great deal of the information 
on the Websites, we had developed one in Pennsylvania as well, 
was Federal information. Sometimes there are Federal agencies 
that make it easy to gain access to those Websites and to 
interface in a way that the consumer would find it easy to 
navigate, and sometimes less so. So there could be a 
development of some kind of avenue or bridge for States to use 
to make that interface better.
    But last I would say is that there is little new under the 
sun, but there are many of us who live under one shade tree or 
another, and it would be an opportunity to offer technical 
assistance to States who are having trouble getting traction on 
moving their systems forward.
    One of the things that we are all impressed by is that we 
talk about our opportunities and what we do on a State-by-State 
basis. Ohio, Pennsylvania, New York and other places know that 
many of our seniors move, and then frequently they will move 
back late in their life, so that the opportunities for these 
people to be able to plan for their long-term care needs across 
that bridge, including information in other locations, is 
something that is important to the country as it thinks about 
the long-term care across the States.
    Chairman Tiberi. You had you some final thoughts before you 
stopped before.
    Mr. Browdie. Yes, thank you, Mr. Chairman. Two thoughts. 
Briefly, Older Americans Act, particularly in Title VII, 
strikes me as being a vehicle where one of the other major 
unaddressed issues in this country that needs a Federal home, 
and that is the issue of elder abuse. And I would ask that the 
committee think about some action in that regard.
    The last issue is that going to Representative Hinojosa's 
points that he made earlier, the purchasing power of the act 
has indeed fallen. This is an issue where the opportunity to 
serve people before they become Medicaid-eligible is what is so 
much going to be so helpful to the State government and also 
the Federal Government. The Federal Government pays 60 cents 
every time a State spends 40 cents on somebody that does not 
need long-term care in a nursing facility. Helping that just 
seems to me like good business.
    Chairman Tiberi. Thank you.
    Mr. Hinojosa.
    Mr. Hinojosa. Mr. Browdie, I think we have you on a roll. I 
want to ask you another question. I would agree with you that 
building a national infrastructure is needed much more than a 
pilot program in this regard.
    You also mentioned in your remarks a greater need for 
resources in this area, so if that is how you feel, do you have 
any dollar estimate of how much more the act should provide?
    Mr. Browdie. With the Representative's indulgence, I would 
be glad to do some calculations. I did not prepare a 
statistical--any kind of work to really go to that. Most of the 
advocates, as you know, would try to argue for a feasible 
number. As a State official, I know that budget pressure comes 
from all directions all the time. At the same time, this is an 
arena where I think being penny wise is indeed pound foolish. I 
would be glad to do an estimate.
    [The information referred to follows:]

Response to Mr. Hinojosa's Questions Concerning the Senior Independence 
                       Act of 2006 by Mr. Browdie

    Dear Rep. Patrick Tiberi, Chairman; Rep. Ruben Hinojosa, Ranking 
Member; and Members of the Committee: Thank you for the opportunity to 
submit additional information to the committee in response to questions 
regarding the ``Senior Independence Act of 2006,'' and the 
Reauthorization of the Older Americans Act. Your work on behalf of the 
older people of this country is greatly appreciated.
    ``Senior Independence Act'' addresses several inter-related aspects 
of access of long term care services that are fundamental to how people 
are served, which in turn drives a significant portion of Medicaid 
spending. As I indicated in my testimony before you, I believe that the 
Congress would best serve the nation's interest through a national 
effort. Committee members asked what I thought it would take to 
implement the program nationally as an alternative to a demonstration. 
I would like to answer the question, and then provide my rationale.
    A national initiative would begin to make a difference in the way 
consumers use long term care and services across the country by helping 
to integrate the numerous and sometimes confusing initiatives that are 
already in progress. It would help states that are behind in the 
``rebalancing'' process get started, and buttress those that are under 
way. Any amount that it would take to mount a credible national effort 
would seem huge in comparison to the current AoA budget, though it 
would seem modest in the context of Medicaid and Medicare spending, 
which I believe is the most appropriate point of reference. The 
Administration's ``Money Follows the Person'' initiative in selected 
states is projected at $1.75 billion over five years, more than the 
entire AoA annual budget. As important as that initiative is, all the 
evidence indicates that keeping people out of nursing homes in the 
first place is more cost-effective and less disruptive to their lives 
than trying to get them out after they have gone into a nursing 
facility. I believe a similar amount of $1.75 billion over a five year 
period is a reasonable place to begin, starting at about $150 million 
in the first year (about the size of the Family Caregiver Program) to 
accommodate development of program infrastructure at the national and 
state levels, and building from there. If resources are properly 
targeted to individuals with high levels of clinical need, but with too 
many resources to be eligible for Medicaid HCBS, this effort should pay 
for itself, through Medicaid and Medicare spending offsets over five 
years. It is worth noting that because of the dominant role government 
policy plays in the long term care market, a system wide effort to move 
long term care and services use to the home and to community settings 
would be very likely to influence private spending positively as well.
    The ``age wave'' that advocates have been talking about for thirty 
years is now here. More importantly, the age group most likely to need 
long term care, those over age 85, became the fastest growing sector of 
the American population twenty years ago, and that growth continues. It 
is not a reasonable goal to reduce the number of people who will need 
to be served. The appropriate goal is to serve a larger number of 
people at a lower average cost, and to reduce the growth rate of public 
long term care expenditures from the present growth rate to a lower and 
more affordable one. To do that, we need to address the institutional 
bias and ``rebalance'' the system, or more accurately, create a 
balanced system of long term care services and supports across the 
country.
    When states do take steps to rebalance their long term care 
systems, they save themselves money, and they save the federal 
government even more, since the federal share averages 57%. Conversely, 
when they don't, and the great majority of them have not, the federal 
government pays more than half the cost of their inefficiency. (It 
should be pointed out that the taxpayers in those states are footing 
the bill on both levels.) CMS has been making efforts to support those 
that want to change as much as they can in the current framework, and 
they have recently been joined by AoA, which is appropriate, since 
AoA's network of State Units on Aging and Area Agencies on Aging have 
been involved in the most successful states since the beginning of 
their efforts. Despite these recent initiatives, states that are trying 
to make progress are, both politically and in a policy sense, on their 
own, with each state being its own battle ground. There are all sorts 
of reasons that states don't take steps to move their systems forward. 
Meanwhile, as a nation, we are all paying the bill.
    To my knowledge, there has never been a comprehensive estimate of 
what it would cost to completely re-balance the long term care system, 
just as there has never been an estimate of what a balanced long term 
care system could actually save the country, in state and federal 
Medicaid expenditures. There are all sorts of things that make the 
scientifically precise measurement of cause and effect extraordinarily 
difficult in the real world, where decisions are being made every year 
that change one or more factors that would effect expenditures and 
trends. As a result, researchers and budget forecasters can't 
confidently apply the results of demonstrations, which themselves are 
trying to establish relationships in environments which are constantly 
changing, to the nation.
    While analysts and researchers debate at the national level, a 
number of states that have taken the initiative and initiated a series 
of coordinated steps that have had a substantial impact on the growth 
rate of their long term care expenditures, and in some cases have 
actually decreased them for a period of time. They all have done the 
same things, albeit in different ways. They have developed a broad 
range of services that can meet the needs of many who would otherwise 
be compelled to enter nursing homes and make the services available to 
those who need and prefer them. They have established vigorous pre-
admission assessment programs to verify clinical level of need and 
provide options counseling opportunities to assure individuals and 
their families and caregivers are fully informed of all the 
alternatives that could meet their needs before people can enter a 
nursing facility under Medicaid. If care in the home is preferred, they 
have developed care management systems, and increasingly, family 
supports and ``cash and counseling'' options for consumers who wish to 
manage their own services. Recently, through Aging and Disability 
Resource Centers, they have also begun to coordinate the to their 
systems to make the process of getting information about long term care 
options easier and earlier in the process, since making decisions at 
the point of crisis is always more difficult and oriented towards the 
fastest and most medically conservative resolution, which is always a 
long term care bed. In these ways, some states are making consumer 
preference viable, serving people how they would choose and saving the 
taxpayer money in the process.
    The sources of funding that go into the long term care system add 
to the difficulties faced at the state level and stand in the way of 
truly comprehensive and coordinated federal policy initiatives. 
Medicaid is an entitlement, with all the attendant restrictions on 
federal agency use, while Older Americans Act funds are 
``discretionary'', which means more manageable in the context of budget 
pressures. State funds connected to Medicaid become part of the 
entitlement, while state funds appropriated to serve people who are not 
yet Medicaid eligible are not, which has meant that many states can't 
see past the demands of Medicaid to ever get to the ``spend down'' 
population. Those states that have are the states that have been the 
most effective in containing cost growth. They have done so by 
targeting a combination of Medicaid funds and state non-entitlement 
funds (with some OAA funds as well) to maximize their impact on making 
alternatives available to people who are eligible for Medicaid and 
those who are nearly eligible. The savings realized, or more accurately 
the costs avoided, are counted on the Medicaid side of the ledger. The 
same will be true with the Senior Independence Act, since the greatest 
benefits will occur in Medicaid, and there will be additional benefits 
in Medicare, both huge entitlements.
    Any national program, particularly one with several complex 
components, would take time to develop and then roll out. State 
administrators know that new programs can take up to three years take 
statewide, so it is reasonable to expect that it would take five years 
or more to establish and stabilize a national program of this kind. 
States that have not managed many programs of this type will need 
substantial technical assistance to develop the necessary management 
systems and the service infrastructure. Large programs are best 
expanded in a planned and orderly way, allowing for early implementers 
to try things out and see what needs to be retooled to work better. It 
also gives states that have more preparatory work to do the time to do 
it, while learning from the experiences of others. Federal agencies 
need the opportunity to develop technical assistance approaches, to 
develop reasonable expectations while giving states the needed 
flexibility to adapt national programs to their unique state and local 
systems, to learn what information is most useful to have reported, and 
to develop appropriate performance monitoring methods.
    Given all the above, I believe that it would be reasonable to begin 
building a program at about the same level as the Administration's 
``Money Follows the Person'' proposal. It is large enough to have an 
impact, but small enough to be manageable. The idea of giving states 
new resources and financial incentives to get people out of nursing 
homes has great merit on moral grounds and should be cost-neutral. In 
addition, once the public understands that it is possible, it may mean 
that a larger proportion of nursing home residents and their families 
may more seriously consider return to the community even after a fairly 
lengthy stay in a nursing facility.
    A comprehensive system of public education coordinated with 
enhanced long term care information resources through improved access 
systems and a serious attempt to help the near poor afford to stay in 
the community, enhanced by evidence-based wellness programs, is very 
likely to have an positive effect on state and federal Medicaid and 
Medicare expenditures, particularly since it has the effect of knitting 
together the ``rebalancing'' efforts already proposed in other parts of 
the budget. $2 billion over five years would constitute less than one 
percent of the funds that Medicaid alone will spend on long term care 
over the same period of time. It seems a modest yet realistic sum to 
invest in finally beginning a national effort to begin to turn the tide 
on the on the ``institutional bias'' that we have all come to know so 
well.
    Thank you again for the opportunity to supply information to 
support your deliberations on the Older Americans Act. I would be glad 
to review this or any other information with your staff at any time.
                                 ______
                                 
    Mr. Hinojosa. I would ask you to try, because my friends in 
Ohio, who are not shy, evidently they have done some homework, 
and they gave us some pretty strong numbers to increase it, and 
I want to try to be on the side of increasing it.
    And I will go and ask the Lieutenant Governor a question. 
You recommend keeping the age eligibility for services in the 
Senior Community Services Program at age 55, and you heard my 
interest in trying to see what it would cost to phase it in. 
Tell us in your opinion what would be the effect if the age 
eligibility was raised to 65, in one jump up to 65. What would 
it do to South Carolina?
    Mr. Bauer. South Carolina has--the distinct problem is that 
we are above the national average in unemployment. We continue 
to see manufacturing jobs leaving our State. And these are 
people in that age bracket that would substantially suffer if 
we did not have that age at 55. And I think making sure that we 
get them back in the workforce as quickly as possible is 
pivotal.
    Mr. Hinojosa. Could you garner support to look at other 
alternatives other than just doing that leapfrog to 65 from 
your State?
    Mr. Bauer. We would entertain a multitude of different 
options. And, of course, our State tries to address them at a 
State level as best we can in helping these seniors find 
gainful employment, but, again, we do have an exceptionally 
high unemployment rate in our State, double about what the 
national average is.
    Mr. Hinojosa. At the top of the hearing, you heard our 
Chairman that there is a goal to try to expedite and make this 
happen quickly. Take it from me, when you go back, let's see 
how fast you can garner some support for me, because I think it 
is like a train coming down the track moving fast. So if you 
are going to be of help for us to look at other alternatives 
other than to make that leapfrog to 65, we need some written 
justification for other alternatives.
    Mr. Bauer. Well, Representative, coming from the land of 
Strom Thurmond, at 55 that is about the halfway mark in South 
Carolina.
    Mr. Hinojosa. Thank you, Lieutenant Governor.
    Mr. Chair, I think I am going to stop here because I think 
that I have gotten exactly what I have needed, and that is some 
support from an association that can be very vocal and very 
active. Now we just need to put it in writing so that the rest 
of our committee members will hear just how our South 
Carolinians feel.
    Thank you very much, Mr. Lieutenant Governor.
    Chairman Tiberi. Thank you.
    Mr. Lieutenant Governor, your OAA office is not under your 
purview, is it?
    Mr. Bauer. No, sir.
    Chairman Tiberi. Maybe we can follow up with your office 
and try to get some of the participant numbers of South 
Carolina for both WIA and this program.
    Mr. Bauer. Clearly we can get that for you.
    Chairman Tiberi. Thank you.
    [The information referred to follows:]

  Response to Mr. Tiberi's Questions Concerning SCSEP and WIA by Mr. 
                                 Bauer

    Under the SCSEP program (Title V of the OAA), South Carolinia has 
808 total ``slots'' for individuals aged 55 and older for program year 
2006 (July 1, 2006--June 30, 2007). Of those slots, 165 are 
administered by the Lt. Governor's Office on Aging, 270 are 
administered by the AARP--SC, and 373 are administered by the national 
non-profit ``Experience Works.'' Experience Works was also the winning 
contractor in the LGOA's competitive procurement process for providing 
the services for our 165 slots. SCSEP provides training and employment 
opportunities for low-income seniors--primarily in rural areas.
    Bear in mind that slots do not equal individuals. Because of 
turnover and individuals cycling through the program (and hopefully 
finding regular employment), SC's 808 slots will actually serve an 
estimated 1600-plus individuals during the course of a program year.
    The WIA numbers are a bit harder to figure. Like the state's Aging 
Programs, the state agency administering our WIA program changed 
recently. On April 12, 2005, Governor Mark Sanford issued an executive 
order to move the WIA Administrative Entity function from the South 
Carolina Employment Security Commission to the South Carolina 
Department of Commerce, effective July 1, 2005.
    I've attached a state Commerce Department WIA report for program 
year 2006 that shows 157,288 total ``customers'' for WIA programs were 
served by our state's system of ``One-Stop'' employment centers through 
September 2006 (one quarter) My understanding is that the One Stops are 
the ``on-ramps'' for all WIA programs and services, so One-Stop usage 
should track pretty closely with total program numbers. That 157K would 
likely include some of the folks that Lt. Governor Bauer and Chairman 
Tiberi were discussing (i.e., older workers displaced by layoffs or 
plant closings who need retraining or other employment assistance) but 
unfortunately, I do not have an exact breakdown from Commerce of how 
many of those individuals would be age 55 or older.
    At any rate, it's important to note that while the WIA programs are 
indeed critical to South Carolina in helping us deal with the layoffs 
our state has encountered during the past decade due in large part to 
plant closings in the textile industry, and that many of the workers in 
those industries are older workers who have a great need for retraining 
assistance, the WIA programs are a separate animal from the SCSEP that 
was recently (re)authorized under the Older Americans Act. SCSEP really 
targets a different group of people than WIA.

                                                       PY 2006 LOCAL AREA COMPARATIVE REPORT SOUTH CAROLINA--LOCAL AREA COMPARATIVE REPORT
                                                                            [Cumulative thru month of September 2006]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                      Frequency of one-stop services provided
                Services provided                -----------------------------------------------------------------------------------------------------------------------------------------------
                                                    Total     Catawba   Greenville   LowCntry   LowerSav   Midlands    PeeDee    Worklink  SanteeLyn   Trident    UpperSav   Upstate     Wacc.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Customers (Unduplicated Count)..................    157,288     17,518       9,291      6,618     19,349     15,571     21,090     12,151      3,066     18,479     13,346      3,463     17,346
Customer Visits.................................    318,472     29,608      15,827     17,565     34,488     52,831     50,006     22,518      5,645     34,989     29,415      4,431     21,149
Services to customers:
    Job Search Services.........................    297,567     15,741      16,963     19,720     38,093     46,403     52,362     18,285      2,089     34,170     32,150      4,098     17,493
    Job Development Attempts/Contacts...........     27,509        573         118        101     15,581      1,990      1,797        434        132      3,132        944        126      2,581
    Registration for Work.......................     76,473      6,344       6,092      3,716     10,307      9,798      9,639      6,567          0      9,635      7,134          0      7,241
    Entered Employments.........................     27,321      1,933       1,853      3,583      3,171      2,939      2,997      1,886         53      4,084      2,413         44      2,365
Business/employer services:
    Employer Job Openings Received..............     26,715      1,150       3,196      3,161      3,985      3,202      1,984      1,165        132      3,783      1,938        156      2,863
    Employer Job Openings Filled................     12,449        546         759      2,476      1,206      1,389      1,190        704         57      1,862      1,140          5      1,115
    On Site Employer Interviews.................      5,373         85         561      1,392        925        370        630        120         49        725        230          0        286
Group activities:
    Number of Group Activities..................      2,683        249          84        201        182        158        276        229         95        381        537        105        186
Number of Attendees.............................     22,522      2,352         781      2,251      1,425      1,640      1,843        915        578      5,596      3,682        369      1,090
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
2006 Edition, Revised 8/18/06.

                                 ______
                                 
    Chairman Tiberi. One final question, Mr. Browdie. You 
touched on a subject that came up at the hearing in Ohio as 
well, and that is the issue of elderly abuse and neglect. There 
are a number of programs and activities obviously authorized by 
the act under current law to try to prevent elderly abuse and 
neglect. Are there ones that are working better than others, 
and do you have any suggestions how we can buildupon what is 
good?
    Mr. Browdie. I think the first step would be to try to 
organize a way of looking at what does work and what does not. 
I think one of the issues about elder abuse is there is no 
Federal agency responsible for collecting information.
    There is a lot of great work that does get done. The 
Administration on Aging works with the Department of Justice 
and works with other agencies around the country, but there is 
no systematic way of collecting that information. There is no 
systematic review of the incidents of elder abuse, and there is 
no systematic home for collecting information about what does 
work, building an evidence base, and then distributing that 
information.
    So in many respects, I would be able to answer anecdotally, 
but I think the issue is growing sufficiently that it is time 
for the Federal Government to take it seriously and 
systematically.
    Chairman Tiberi. I appreciate that.
    Well, we would love to work with you and with everybody, 
quite frankly, on this and other subjects that are obviously 
very important to the act, to reauthorizing the act. As has 
been brought up by Mr. Hinojosa, my intent is to--at least in 
my small area of influence in this town--is to try to move a 
reauthorization, because I think when you look at more globally 
here in Washington, D.C., between the Senate and the House, you 
have a whole lot of top-of-the-fold, front-page issues that are 
going to be dealt with that need to be dealt with, that are in 
the process of being dealt with over the next several months. 
Just pick up the Washington Post, and you will get a clue of 
what I am talking about. And so I think when you have a number 
of issues, an election year, typically a long process to get a 
bill done between the House and in the Senate, a Senate that 
has not had, to my knowledge, a hearing yet--they have had 
hearings, not a bill yet--I think it is important for us to 
move this process along as quickly as possible and put pressure 
on the other body, because it is an important issue to 
reauthorize.
    It is certainly not everything that I want. I will tell you 
that. It is not everything that my mom or dad want, and they 
are both seniors, at least not the start of the process, but I 
think it is important for us to try to move a reauthorization 
bill forward. And I have great confidence in my colleague to 
the right that we can move a bill that is going to make a 
difference in people's lives.
    I want to thank you all, the four of you, for your time and 
your testimony today as well. It has been a really good 
hearing. The shame of it all is that when we go to the House 
floor, only a handful of us get the opportunity to have a 
dialog in the question-and-answer session. The entire 
committee, subcommittee, will be recorded, but this is so 
important, so important for you all to be part of this process 
not only on behalf of your own organizations and States, but 
also on behalf of seniors throughout the country. So we very 
much appreciate you coming today and spending time with us.
    So with that, we will conclude this hearing for the day. If 
there is no further business before us, the subcommittee stands 
adjourned.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]
    [Additional testimony for the record follows:]

   Prepared Statement of William L. Minnix, Jr., President and Chief 
 Executive Officer, American Association of Homes and Services for the 
                                 Aging

    On behalf of the American Association of Homes and Services for the 
Aging (AAHSA), I appreciate the opportunity to submit written testimony 
on the re-authorization of the Older Americans Act. AAHSA members serve 
two million people every day through mission-driven, not-for-profit 
organizations dedicated to providing the services people need, when 
they need them, in the place they call home. Our members offer the 
continuum of aging services: assisted living residences, continuing 
care retirement communities, nursing homes, home and community based 
programs, and senior housing. AAHSA's commitment is to create the 
future of aging services through quality people can trust. Our ideals 
also include dignity for all persons at every stage of life, advocacy 
for the right public policies for the right reasons, and leadership 
through shared learning.
AAHSA's Five Big Ideas
    We are proposing a national agenda consisting of Five Big Ideas 
designed to transform the field of long-term care into a more cost-
effective and efficient system that works for older adults. First, 
AAHSA believes that managed care concepts should be expanded in the 
field of aging services to meet consumer needs and responsibly contain 
costs. Second, affordable housing should be combined with supportive 
services to enable older adults to age in place. Third, the development 
of new technologies and the innovative applications of existing ones 
should be encouraged to improve consumer choice, quality of care, 
quality of life, and cost-efficiency. Fourth, the culture of aging 
services must change to focus on individual choice and direction. All 
segments of aging services need to embrace a quality-of-life, resident-
focused service culture and a continuous quality improvement management 
culture. Fifth, the transitions of elders between various settings--the 
community, acute and long-term care--must be managed to minimize stress 
to the consumer and wasteful and duplicative bureaucratic requirements 
for service providers.
    The current effort to reauthorize the Older Americans Act to 
prepare for upcoming demographic changes should incorporate new ideas, 
new solutions and creative approaches to home and community based 
services that will modernize the aging services network and increase 
choices for consumers. We must begin to explore the ways technological 
innovations can impact the aging services network and improve the 
quality of care and quality of life of the elderly. We must also expand 
on partnerships between affordable housing programs and supportive 
services that will enable the frail elderly to receive a more 
comprehensive set of services in the place they call home. These 
solutions offer a cost-effective approach to home and community based 
services.
Innovative Approaches to Home and Community Based Services
    The Older Americans Act (OAA) funds a wide variety of social and 
nutrition services that enable the frail elderly to maintain their 
independence, including senior centers, meals programs, in-home 
services, adult day services, transportation, and family caregiver 
support programs. Supporting seniors in their homes through community-
based care programs such as the OAA allows a cost-effective alternative 
to premature institutional care. A recent Supreme Court decision 
requiring States to consider community-based alternatives for the 
mentally disabled emphasized the need for States to begin to 
``rebalance'' their long-term care delivery systems from an 
institutional model of care to one that includes home and community-
based alternatives.
    Title IV of the Older Americans Act authorizes the Assistant 
Secretary of Aging to award grants for training, research and 
demonstration projects designed to test innovative approaches to the 
aging services network. Demonstration grants have been used to develop 
successful programs such as the Aging and Disability Resource Centers 
and Medicare Part D outreach activities. The Older Americans Act should 
fund additional demonstration projects to study the effect of linking 
affordable housing with supportive services, along with projects 
studying the ways technological innovations can be used to meet the 
objectives of the Older Americans Act.
Technological Innovation and HCBS
    Technology has great potential--across the continuum of aging 
services--to help older adults maintain their independence; improve 
quality of care and quality of life; support the needs of professional 
and family caregivers; increase aging services provider efficiency; and 
reduce our nation's health care costs. Technological advancements will 
dramatically impact the ability of the frail elderly to age in place. 
Recognizing the potential of these developments in our field, AAHSA 
launched the Center for Aging Services Technologies (CAST) to explore 
ways in which technological developments could be applied to the field 
of aging services. We have achieved an exciting collaboration with 
corporations such as Intel and Sodexho, universities including MIT and 
the University of Virginia, aging services providers, and other 
stakeholders such as the Alzheimer's Association and the Robert Wood 
Johnson Foundation.
    Technological innovations such as in-home monitoring tools, 
assistive technologies and advanced communication devices should be 
used to improve the efficiency and effectiveness of the aging services 
network. Technological innovations such as in-home monitoring tools, 
assistive technologies and advanced communication devices should be 
used to improve the efficiency and effectiveness of the aging services 
network. Technological advancements will dramatically impact the 
ability of the frail elderly to age in place, and we must begin to 
develop this cost-effective approach to fulfilling the objectives of 
the Older Americans Act.
    AHHSA recommends that the Older Americans Act include Title IV 
demonstration projects to test the ways technological innovations can 
be used to assist the frail elderly and strengthen the aging services 
network. We must begin to set the framework for developing new models 
of home and community based care. Technological innovations can meet 
the objectives of the Older Americans Act in the following ways:
    <bullet> Assist the frail elderly with their activities of daily 
living through assistive and enabling technologies.
    <bullet> Assist family caregivers by facilitating faster 
communication between caregivers and the frail elderly.
    <bullet> Assist the elderly in rural or remote areas through in-
home monitoring technologies and communication devices linked to remote 
service providers.
    AAHSA proposes adding the following Section to Title IV of the 
Older Americans Act.
    Section 422. Demonstration Projects for the Study of Technological 
Innovations.
    (a) Program Authorized.--The Assistant Secretary may award grants 
or contracts to institutions of higher education and private non-profit 
organizations to implement, in partnership with long term care 
providers, pilot projects designed to carry out one or more of the 
objectives described in subsection (b).
    (b) Activities.--An eligible partnership that receives a grant 
under subsection (a) shall use such grant to further one or more of the 
following objectives:
    1. Develop, implement, and assess technology-based service models 
and best practices to improve the aging services network for older 
adults both in their communities and in care settings such as adult day 
care centers.
    2. Develop, implement and assess the use of in-home monitoring and 
assessment technologies designed to connect both family and 
professional caregivers to the frail elderly.
    3. Develop, implement and assess technology-based service delivery 
systems designed to meet the needs of frail elderly residing in remote 
or rural areas.
Innovative Approaches to Integrating HCBS with Affordable Housing
    Subsidized housing facilities currently offer supportive services 
on-site, including service coordination, health screening, education, 
and activities, meals programs and more advanced health monitoring. 
Virtually all of these programs link the Department of Health & Human 
Services housing programs with Older Americans Act supportive services 
programs. AAHSA's Institute for the Future of Aging Services is 
studying ways to improve the integration of housing and services 
through the development of innovative models and practices that foster 
consumer choice and independence. The re-authorization of the Older 
Americans Act is the right time to study and develop the linkages 
between affordable housing and supportive services.
Conclusion
    The re-authorization of the Older Americans Act is the right time 
to develop new ideas that will strengthen the aging services. AAHSA 
supports the development of innovative approaches to the home and 
community based service delivery system. Technological innovations will 
transform the home and community based long-term care delivery system, 
and we must develop, implement and assess this model of care. 
Affordable housing must be linked to supportive services to offer a 
comprehensive approach to care that will meet all of the needs of our 
frail elderly. We look forward to working with these proposals.
                                 ______
                                 

  Prepared Statement of Gayla S. Woody, Aging Program Administrator, 
   Centralina Council of Governments Before the U.S. Senate Special 
                           Committee on Aging

    Good morning, Chairman Smith, Ranking Member Kohl, Senator Dole, 
and other distinguished members of the Committee. Thank you so much for 
this opportunity to talk with you about how my community is preparing 
for the demographic changes facing the nation. My name is Gayla Woody 
and I am the Program Administrator of the Centralina Area Agency on 
Aging (AAA). My region covers nine counties in North Carolina: Anson, 
Cabarrus, Gaston, Iredell, Lincoln, Mecklenburg, Rowan, Stanly and 
Union counties. This is the largest region in the state and includes 
Charlotte, the largest city.
    While the counties in my agency's planning and service area (PSA) 
range from a large, metropolitan area to a very small rural region, 
they share at least one characteristic. The aging of our nation's 
adults--in particular the demographic cohort known as ``baby boomers'' 
and the fastest growing population in the country, those 85 years and 
older--will present tremendous challenges and opportunities for all of 
these communities.
    With the first wave of boomers turning 60 this year, and thus 
becoming eligible for Older Americans Act (OAA) services, we cannot 
afford to sit still and wait. To ensure that America's communities are 
prepared to meet the needs of today's and tomorrow's older adults, 
preparation and planning must start now.
The Aging of America
    The rise in the number of aging citizens will impact the social, 
physical and fiscal fabric of our nation's cities and counties, 
dramatically affecting local aging, health and human services; 
emergency preparedness; land use, housing and transportation; public 
safety, workforce and economic development; recreation, education/
lifelong learning; and volunteerism/civic engagement policies and 
programs.
    An organized, informed and thoughtful community planning process to 
prepare for the aging of this nation's population is needed at every 
level. Preparedness is not just for disasters and emergencies, but 
should be used to help a community adapt to changing demographic needs. 
``Livable communities for all ages'' refers to places where citizens 
can grow up and grow old with maximum independence, safety and well-
being. Although there is much that individuals can and should do to 
maximize their independence as they age, public policy makers must make 
critical decisions relating to housing opportunities, transportation 
systems, and land use regulations, for example, that affect the ability 
of an older adult to live at home and in their community.
One Approach: Mecklenburg County's Status of Seniors Initiative
    I am proud to report that Mecklenburg County (which includes the 
City of Charlotte) has refused to just wait and see how the aging of 
the baby boomers will impact the community. The policymakers and 
leaders in the County know that they cannot afford to wait. Currently 
there are almost 90,000 people over the age of 60 in Mechlenburg County 
and there will be approximately one-quarter of a million people over 60 
in the County by the year 2030. That's almost a tripling of the 
County's elderly population in fewer than 25 years.
    In order to begin evaluating what this change will mean and to plan 
accordingly, the Mechlenburg County Commissioners convened a broad 
based group to examine this critical issue and launched ``The Status of 
Seniors Initiative'' (SOSI) to develop strategies to assist the 
community respond. Representatives from the hospitals, home care 
agencies, social service organizations, housing authority, 
transportation services, health department, the United Way and others 
were included in the group. The collaboration also included the 
Charlotte Chamber of Commerce, local attorneys, and representatives 
from colleges and universities, the real estate industry and others. As 
the director of the area agency on aging, I serve as a member of the 
project's executive steering committee.
    After four years of data gathering, research, analysis and 
strategic planning, SOSI has completed three reports looking at the 
impact of the aging of the baby boomers on our community and has 
identified seven recommendations to begin making changes to respond to 
this major demographic trend. Our motto is ``A Senior Friendly 
Mecklenburg'' and our vision is a ``senior-friendly community that 
values dignity and independence for all older adults.'' (These reports 
and recommendations can be found online at http://
statusofseniors.charmeck.org.)
    To provide you with a sense of how we approached the demographic 
challenges, here are the categories we explored first:
    1) Need for Information. How does our community ensure that older 
adults, baby boomers, caregivers and others can get the information 
they need about aging issues and services and, that they will know 
where to go for assistance?
    2) Caregivers. One-third of current older adults believe they will 
be a caregiver in the next five years. Estimates of lost worker hours 
and income and the resulting reduced pension benefits related to 
caregiving are as high as $11.6 billion dollars. How will our community 
provide the support caregivers need in order to continue to function?
    3) Physical Environments. Does our community's physical environment 
and infrastructure provide opportunities that older adults and baby 
boomers need in order to remain independent? For example: Do we have 
adequate, appropriate and affordable housing options for people as they 
age? Is senior housing (public and private) accessible to community and 
commercial services? Are crosswalks designed to allow enough time for 
an older adult to cross the street before the light changes? Are street 
signs actually large enough for older adults to read? Are sidewalks 
wide enough for wheelchairs or level enough for walkers?
    4) Transportation. Are there programs in places to help older 
drivers access their driving and make adjustments to respond to 
physical limitations? Will we have enough adequate, appropriate and 
affordable transportation options available in our community to support 
older adults when they need to restrict or stop driving?
    5) A Focal Point Organization for Aging. As a result of funding 
from various silos, our community has a fragmented service delivery 
system which sometimes makes it very difficult to get information and 
services on aging in just one place. We think the boomers will expect 
more and thus demand changes. Can our community develop a uniform and 
seamless system to enable all people to access needed aging information 
quickly and easily, regardless of income status?
    6) Safety & Security. We found that older adults perceive safety as 
an important issue, regardless of the actual incidence of crime against 
older adults in their community. So how can our community communicate a 
safer, more secure environment for seniors? What can we do to help both 
reduce actual crime against older adults and to reduce citizens' fears?
    7) Public Policy. One of the guiding principles of SOSI is that our 
community have a structure in place to allow those that wish to ``age 
in place'' to have the supports they need to do so successfully. We 
need to rebalance our systems to provide more options for older adults 
to get the care they need at home and in the community rather than in 
institutional settings.
    With these goals in mind, several projects are already underway.
    1) In partnership with the Charlotte Police Department, we have 
implemented a training program for new police officers called ``First 
Responders.'' This training teaches law enforcement about the unique 
needs of older adults and how to recognize signs of abuse, neglect or 
exploitation.
    2) In partnership with the Chamber of Commerce and a local Builders 
Association, a meeting was held with over 200 real estate and building 
professionals to talk about the SOSI report and its recommendations. 
The Charlotte Planning Commission Director and a representative from 
the Metropolitan Planning Organization are already engaged in 
discussions regarding initiatives in response to the report.
    3) The community college and the local Council on Aging are co-
hosting a conference entitled ``Can Businesses Boom as Boomers 
Retire?''
    4) While I was writing these remarks, our local government 
television channel ran a 30-minute program about the SOSI report and 
what we can expect from the aging of the boomers. There have been 
newspaper articles, as well as presentations on the report to the 
County Commissioners, the City of Charlotte, the Chamber, the United 
Way, AARP chapters, and countless others. A very important part of the 
work is educating the public about what the aging of the population 
will mean for them and for our community.
    It has been quite an adventure over the last four years as our 
Mecklenburg community has pulled together to begin preparing for the 
future. It is important to note that other than a ``will'' and 
committed volunteers, we have very little in the ``way'' of funds. 
Progress has been much slower than if we had had even one staff member 
dedicated solely to this project. Yet it has been so exciting to see 
the large number of people involved with SOSI, including many ``non-
traditional'' stakeholders who aren't normally identified as part of 
the aging community.
Scaled to Fit: Rowan County's LIFE
    Senator Dole's home county of Rowan is also one of the counties in 
my AAA's PSA. In 2003, I began to work with a group called Rowan LIFE 
(``Life Improvement for Everyone'') that included the local senior 
center (Rufty Holmes Senior Center) and the county's senior services 
department, all of which recognized that the community was in need of 
more planning for the future. Although a much smaller and more rural 
area, Rowan County shared several common denominators with Mecklenburg 
County, including:
    <bullet> Recognition that the boomers would significantly increase 
the number of older persons in the community;
    <bullet> Interest in Rowan County becoming a more senior-friendly 
community;
    <bullet> A broad collaboration with many ``non-traditional'' 
stakeholders;
    <bullet> Very little funding to support the initiative; and
    <bullet> Committed volunteers.
    Rowan LIFE has completed their first report and has identified five 
initiatives on which they are currently working. As Rowan LIFE 
completed their report, the local United Way was developing their 
community needs assessment. United Way decided to include the Rowan 
LIFE report for their section on aging. In addition, United Way's 
collaboration with the project has also resulted in the community 
getting a 211 county-wide information and assistance system 
established.
    It is so exciting to see that the planning Rowan and Mecklenburg 
Counties have done has positioned them to leverage grants and other 
funding to achieve their goals. For example, in Rowan County, a uniform 
and seamless service delivery system is a major goal. Because of the 
collaborative work we have done with Rowan LIFE, this community is 
positioned to receive a State Rural Health grant of several hundred 
thousand dollars to help make changes to their service delivery system.
    Another part of the grant that Rowan County applied for is about 
helping older adults with chronic illnesses manage their conditions for 
improved quality of life. One part of that management will include 
health promotion and disease prevention activities. Currently, Rowan 
County uses Older Americans Act Title III D funds for a very exciting 
evidence-based walking program our region calls ``Walk Around the 
World.'' Participants in the program take a simple pre-test to 
determine baseline capacity, then maintain a regular walking schedule 
and record the actual number of steps taken. After six months, a post-
test determines the individual's increased capacity. Working together, 
this community is making strides in helping people stay healthy.
    With the burgeoning of the boomers into the elderly population, it 
is absolutely critical that we increase funding for and emphasis on 
health promotion programs. We will never have enough money to take care 
of everyone, but teaching and supporting people to live healthier 
lifestyles will improve quality of life and will be the only way our 
service delivery systems will be able to continue to offer service 
supports to the most frail and needy elders.
Small Steps: Early Responses to Boomers
    I would like to mention a couple of other programs that have been 
initiated in my PSA in preparation for the boomers. One of my smallest 
counties, Lincoln County, was the only county in North Carolina that 
did not have a congregate meal program where older adults could gather 
in a public place for meals and socialization. Since the late 1980s, I 
had been encouraging Lincoln County to begin a meal program. About two 
years ago, while meeting with the local service providers, I again 
asked the question about the congregate program. The service provider 
responded: ``You know, I don't think baby boomers are going to be 
interested in a congregate program; I wouldn't. So why would I go to 
the effort of starting a program that is going to die?'' I responded: 
``Ok, we're boomers sitting around this table, so what kind of meal 
program would we be interested in?''
    Out of this conversation about the preferences of baby boomers, the 
``Restaurant Voucher Program'' was born. The program provides a variety 
of opportunities for participants to attend programs on healthy living, 
where they receive meal vouchers to use in participating local 
restaurants. Boomers like to have choices so the program includes 
several restaurants. Boomers may not want to come to a congregate meal 
at a certain pre-determined time, but they will go to the participating 
restaurant for lunch or dinner during the restaurant's more open hours. 
The program also allows multi-generational families to go out together 
and the participant can still use their voucher (vs. congregate meal 
programs that are limited to eligible older adults). This program has 
very good partnerships with the local restaurants, most of which see it 
as a community service.
    One of our other small counties, Cabarrus, has a pilot program for 
consumer-directed care. Again, for boomers, choice is a very important 
word. The Cabarrus County consumer-directed care program allows 
eligible participants to directly contract with providers and thus 
customize any services to their individual needs. While not workable 
for every consumer, this approach to offering services and supports is 
becoming popular and may be one of many ways to prepare the long-term 
care infrastructure for the future. For example, a boomer is caring for 
an older parent in her home, which does not contain a washer or dryer. 
The parent's medical condition is increasing the need for frequent 
laundering, so the caregiver asks a AAA for respite care so she can go 
to the Laundromat, or the services of an in-home aide to do the 
laundry. But consumer-directed care could allow for the purchase of a 
washer and dryer for the home, eliminating the need for respite or 
chore services, which over the long run are more expensive than the two 
appliances.
What We Still Need to Do and Why
    As the Centralina Area Agency on Aging director, I have invested a 
lot of time in supporting Mecklenburg and Rowan counties' community 
planning efforts. I believe that AAAs can offer tremendous technical 
assistance to local community planning entities to help them define 
their mission, determine their process and gather critical information. 
Unfortunately, I have only had the staff resources and time to support 
two of the nine counties in our PSA. Some of the other counties have 
expressed interest in starting similar planning processes, but with my 
agency's regular responsibilities under the Older Americans Act and the 
recent demands that Medicare Part D enrollment counseling and 
assistance has placed on my agency, I simply cannot do so at this time. 
I would urge Congress to consider adding resources to the Older 
Americans Act to encourage and support AAAs to take on this community 
planning role. In the long run, this is the most cost-effective and 
rational way to brace ourselves for the boomers and their effect on our 
nation.
    Widespread public support for such a measure exists: The need to 
improve state and local integrated delivery systems to meet the 21st 
century needs of seniors became the 10th highest-ranked resolution at 
the 2005 White House Conference on Aging. Delegates suggested a new 
Older Americans Act title on community planning as one of several 
implementation strategies for this resolution. North Carolina's state 
unit on aging has also identified community planning as a high priority 
and, with limited resources, we are trying to identify strategies for 
our aging network to adopt.
    In conclusion, Mr. Chairman, the boomers will change the way we do 
business. In North Carolina and in my region, we have also recognized 
that as an aging network, we must collaborate and work with many ``non-
traditional'' players. Aging impacts all parts of life--our 
environment, our workforce, our caregivers, our health, our service 
delivery system and our leisure--just to name a few. It is critical 
that we educate our communities about what this change will mean and 
aggressively plan to meet the challenges it will bring with it. The 
Older Americans Act has been the framework for the aging network since 
1965. Today in 2006, it must be modernized to help communities prepare 
for the boomers. Too much is at stake to ignore the age wave and too 
much will be lost if we delay.
    Thank you for the opportunity to testify before you today. I would 
be pleased to answer any questions you have today or in the future.

                                 <all>

</pre></body></html>
